Audit Report




OIG-07-013
Audit of the Department of the Treasury’s Special-Purpose
Financial Statements for Fiscal Years 2006 and 2005
November 17, 2006




Office of
Inspector General
Department of the Treasury
THIS PAGE INTENTIONALLY LEFT BLANK
Contents


Transmittal Memorandum


Section I – Independent Auditors’ Report on Special-Purpose
             Financial Statements


Section II – Department of the Treasury’s Special-Purpose Financial
             Statements for Fiscal Years 2006 and 2005
THIS PAGE INTENTIONALLY LEFT BLANK
                                        DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              November 17, 2006


            MEMORANDUM FOR FAYE McCREARY, DIRECTOR
                           FINANCIAL REPORTS DIVISION
                           FINANCIAL MANAGEMENT SERVICE

                                     LYNDA DOWNING, ASSISTANT DIRECTOR
                                     FINANCIAL MANAGEMENT AND ASSURANCE
                                     GOVERNMENT ACCOUNTABILITY OFFICE

                                     DANNY WERFEL, DEPUTY CONTROLLER
                                     OFFICE OF MANAGEMENT AND BUDGET

            FROM:                   Michael Fitzgerald
                                    Acting Deputy Assistant Inspector General
                                     for Financial Management and Information
                                     Technology Audits

            SUBJECT:                 Audit of the Department of the Treasury’s Special-Purpose
                                     Financial Statements for Fiscal Years 2006 and 2005

            I am pleased to transmit the attached audited Department of the Treasury
            (Department) special-purpose financial statements for fiscal years 2006 and 2005.
            We contracted with the independent certified public accounting firm KPMG LLP to
            audit the Department’s special-purpose financial statements as of
            September 30, 2006 and 2005 and for the years then ended. The contract required
            that the audit be performed in accordance with generally accepted government
            auditing standards and Office of Management and Budget Bulletin No. 06-03, Audit
            Requirements for Federal Financial Statements.

            KPMG LLP issued an Independent Auditors’ Report on Special-Purpose Financial
            Statements, which is incorporated in the attachment.

            In its audit, KPMG LLP found:

                    •   that the special-purpose financial statements were fairly presented, in all
                        material respects, in conformity with U.S. generally accepted accounting
                        principles and the presentation pursuant to the requirements of
                        Chapter 4700 of the Department’s Treasury Financial Manual (TFM).
Page 2


      •   no matters involving internal control over the financial reporting for the
          special-purpose financial statements that are considered material
          weaknesses, and

      •   no instances of reportable noncompliance with the TFM.

In connection with the contract, we reviewed KPMG LLP’s report and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the special-purpose financial statements or conclusions about the
effectiveness of internal control over the financial reporting or compliance with the
TFM. KPMG LLP is responsible for the attached auditors’ report dated
November 16, 2006 and the conclusions expressed in the report. However, our
review disclosed no instances where KPMG LLP did not comply, in all material
respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789.

Attachment
             SECTION I

  INDEPENDENT AUDITORS’ REPORT ON
SPECIAL PURPOSE FINANCIAL STATEMENTS
THIS PAGE INTENTIONALLY LEFT BLANK
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




             Independent Auditors’ Report on Special-Purpose Financial Statements


Inspector General
United States Department of the Treasury

We have audited the accompanying Closing Package Financial Statement Reports – Balance
Sheets of the U.S. Department of the Treasury (Department) as of September 30, 2006 and 2005;
the related Closing Package Financial Statement Reports – Statements of Net Cost and Statements
of Changes in Net Position, and the accompanying Financial Report (FR) All Notes Report
(except for Section F in FR All Notes Report Note 16, Section A in FR All Notes Report Note 25,
and Sections A and B in FR All Notes Report Note 26) for the years then ended; the
accompanying Additional Note 27; the accompanying Trading Partner Summary Note Report –
Balance Sheet as of September 30, 2006; and the related Trading Partner Summary Note Report –
Statement of Net Cost and Statement of Changes in Net Position for the year ended
September 30, 2006 (hereinafter collectively referred to as the special-purpose financial
statements). We did not audit the amounts and other information included in the special-purpose
financial statements related to the Internal Revenue Service (IRS), a component entity of the
Department. The financial statements of the IRS were audited by another auditor whose report
has been provided to us. Our opinion on the special-purpose financial statements, insofar as it
relates to the fiscal year 2006 and 2005 amounts and other information included from the
financial statements of the IRS, is based solely on the report of the other auditor. These special-
purpose financial statements are the responsibility of the Department’s management. Our
responsibility is to express an opinion on these special-purpose financial statements based on our
audits and the report of the other auditor.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 06-03, Audit Requirements for Federal Financial Statements.
Those standards and OMB Bulletin No. 06-03 require that we plan and perform the audits to
obtain reasonable assurance about whether the special-purpose financial statements are free of
material misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the circumstances, but
not for the purpose of expressing an opinion on the effectiveness of the Department’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
special-purpose financial statements and assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall special-purpose financial
statement presentation. We believe that our audits provide a reasonable basis for our opinion.

The accompanying special-purpose financial statements have been prepared for the purpose of
complying with the requirements of Chapter 4700 of the U.S. Department of the Treasury’s
Treasury Financial Manual (TFM), as described in Additional Note 27, solely for the purpose of




                               KPMG LLP, a U.S. limited liability partnership, is the U.S.
                               member firm of KPMG International, a Swiss cooperative.
providing financial information to the Department of the Treasury and the U.S. Government
Accountability Office (GAO) to use in preparing and auditing the Financial Report of the U.S.
Government, and are not intended to be a complete presentation of the Department’s consolidated
financial statements.

In accordance with TFM Chapter 4700, the Department prepared FR All Notes Report Notes 1
through 26, except for FR All Notes Report Note 21, which is not applicable to the Department.
The Department included Additional Note 27, to disclose other data not contained in the special-
purpose financial statements, but which is necessary to make the special-purpose financial
statements more informative.

In our opinion, based on our audits and the report of the other auditor, the special-purpose
financial statements referred to above present fairly, in all material respects, the financial position
of the Department as of September 30, 2006 and 2005, and its net costs and changes in net
position for the years then ended in conformity with U.S. generally accepted accounting
principles and the presentation pursuant to the requirements of TFM Chapter 4700, as described
in Additional Note 27.

As discussed in Additional Note 27 to the special-purpose financial statements, the Department
changed its method of reporting earmarked funds in fiscal year 2006 to adopt the provisions of
the Federal Accounting Standards Advisory Board’s Statement of Federal Financial Accounting
Standards No. 27, Identifying and Reporting Earmarked Funds.

The accompanying Trading Partner Summary Note Report – Balance Sheet as of September 30,
2005 and the related Trading Partner Summary Note Report – Statements of Net Cost and
Statements of Changes in Net Position for the year then ended, were not audited by us and,
accordingly, we do not express an opinion on them.

The Department also prepared All Other Data Report Nos. 1 through 16, except for All Other
Data Report Nos. 5 through 9, and 15, which were not applicable to the Department.

The information included in Section F in FR All Notes Report Note 16, Section A of FR All
Notes Report Note 25, Sections A and B of FR All Notes Report Note 26, and All Other Data
Report Nos. 1 through 4, 10 through 14, and 16 are presented for the purpose of additional
analysis and is not a required part of the special-purpose financial statements, but is
supplementary information required by U.S. generally accepted accounting principles and the
TFM Chapter 4700. We or the other auditor have applied certain limited procedures, which
consisted principally of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this supplementary information, and
accordingly, we express no opinion on it.

The information in the sections entitled “Threshold” in FR All Notes Report Notes 2, 3, 4, 6, 7, 9,
15, and 19; the information in the Reclassification Journal Voucher Report by Line Item –
Balance Sheets; the information in the Reclassification Journal Voucher Report by Line Item –
Statements of Net Cost, Changes in Net Position, and Custodial Activity are presented for
purposes of additional analysis and are not a required part of the special-purpose financial
statements. This information has not been subjected to the auditing procedures applied in the
audits of the special-purpose financial statements and, accordingly, we express no opinion on it.




                                                  2
The TFM Chapter 4700 requires agencies to use the Government-wide Financial Reporting
System to input certain data as described in Additional Note 27. Except as discussed in this
report, we express no opinion on information maintained in that system.

In accordance with Government Auditing Standards and OMB Bulletin No. 06-03, we have also
issued a combined auditors’ report dated November 13, 2006 which presents our opinion on the
Department’s consolidated financial statements; our consideration of the Department’s internal
controls over financial reporting, and performance measures; and the results of our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements and
other matters that are required to be reported under Government Auditing Standards. That report
is an integral part of the audits of the consolidated balance sheets of the Department as of
September 30, 2006 and 2005, and the related consolidated statements of net cost, changes in net
position, and financing, the combined statements of budgetary resources, and the statements of
custodial activity (collectively referred to as consolidated financial statements) for the years then
ended, performed in accordance with Government Auditing Standards and OMB Bulletin No. 06-
03, and should be read in conjunction with this report in considering the results of our audits of
the special-purpose financial statements. Our auditor’s report dated November 13, 2006 on the
consolidated financial statements of the Department disclosed the following material weakness,
reportable conditions, and compliance and other matters:

Material Weakness

•   Financial Management Practices at the IRS

Other Reportable Conditions

•   Electronic Data Processing Controls and Information Security Programs Over Financial
    Systems.

•   Controls Over Transactions and Balances Related to the International Assistance Programs

Compliance and Other Matters

Compliance

•   Noncompliance with Internal Revenue Code Section 6325

•   Substantial Noncompliance with Federal Information Security Management Act of 2002

•   Substantial Noncompliance with Federal Financial Management Improvement Act of 1996

Other Matters

•   Potential Competition in Contracting Act and Antideficiency Violations

Management is responsible for establishing and maintaining effective internal control. In
planning and performing our audit of the fiscal year 2006 special-purpose financial statements,
we also considered the Department’s internal control over financial reporting in order to
determine our auditing procedures for the purpose of expressing an opinion on the special-
purpose financial statements and its compliance with TFM Chapter 4700 and not to provide an


                                                 3
opinion on the Department’s internal control over financial reporting. Consequently, we do not
provide an opinion thereon.

Our consideration of internal control over financial reporting for the fiscal year 2006 special-
purpose financial statements would not necessarily disclose all matters in the internal control over
financial reporting that might be material weaknesses under standards issued by the American
Institute of Certified Public Accountants. Material weaknesses are reportable conditions in which
the design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements caused by error or fraud, in amounts that would be
material in relation to the special-purpose financial statements being audited, may occur and not
be detected within a timely period by employees in the normal course of performing their
assigned functions. Because of inherent limitations in internal control, misstatements due to error
or fraud may nevertheless occur and not be detected.

In our fiscal year 2006 audit, we noted no matters involving the internal control over financial
reporting and its operation for the special-purpose financial statements that we consider to be
material weaknesses.

Management is responsible for complying with laws, regulations (including TFM Chapter 4700),
contracts and grant agreements applicable to the Department. As part of obtaining reasonable
assurance about whether the Department’s fiscal year 2006 special-purpose financial statements
are free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, contracts, and grant agreements, noncompliance with which could have a direct
and material effect on the determination of financial statement amounts. However, providing an
opinion on compliance with those provisions or on compliance with TFM Chapter 4700
requirements was not an objective of our fiscal year 2006 audit of the special-purpose financial
statements and, accordingly, we do not express such an opinion.

The results of our tests of compliance with TFM Chapter 4700 disclosed no instances of
noncompliance or other matters that are required to be reported under Government Auditing
Standards or OMB Bulletin No. 06-03.

This report is intended solely for the information and use of the Department’s management, the
Department’s Office of Inspector General, OMB, and GAO, in connection with the preparation
and audit of the Financial Report of the U.S. Government, and is not intended to be and should
not be used by anyone other than these specified parties.




November 16, 2006




                                                 4
             SECTION II

    DEPARTMENT OF THE TREASURY’S
SPECIAL-PURPOSE FINANCIAL STATEMENTS
   FOR FISCAL YEARS 2006 AND 2005
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                                                                                                   11/16/2006
                                                                U.S Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System

                                                       GF003-Closing Package Financial Statement Reports

Entity:       2000-Department of the Treasury                Fiscal Year:    2006                                    Period:   SEPTEMBER

                                                             Reported In:    MILLIONS                                Decimal: ZERO


Statement: BALANCE SHEET

          Amounts presented as debits and credits(-)

                                                       2006-SEPTEMBER                         2005-SEPTEMBER                      Previously Reported

          Assets:
          Non-Federal
          Cash and Other Monetary Assets                           81,496                                   71,703                            71,703
          Accounts and Taxes Receivable                            22,041                                   21,485                            21,485
          Loans Receivable                                            288                                      670                               670
          Inventory and Related Property                              389                                      468                               468
          Property, Plant and Equipment                             2,182                                    2,398                             2,398
          Securities and Investments                                9,325                                    9,404                             9,404
          Other Assets                                              5,510                                    5,486                             5,486
          Total Non-Federal Assets                                121,231                                  111,614                           111,614

          Federal
          Fund Balance with Treasury                               71,153                                   66,334                            66,334
          Federal Investments                                           0                                        0                                 0
          Accounts Receivable                                         483                                      626                               626
          Interest Receivable                                       1,971                                    1,463                             1,463
          Loans Receivable                                        252,867                                  236,214                           236,214
          Transfers Receivable                                          0                                        0                                 0
          Benefit Program Contributions                                 0                                        0                                 0
          Receivable
          Advances to Others and                                        78                                     40                                 40
          Prepayments
          Other Assets (without reciprocals)                     8,540,195                             7,978,081                           7,978,081
          Total Federal Assets                                   8,866,747                             8,282,758                           8,282,758
          Total Assets                                           8,987,978                             8,394,372                           8,394,372

          Liabilities




      I = Inactive                                                                  -1-
                                                                                                                                                     11/16/2006
                                                                U.S Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System

                                                       GF003-Closing Package Financial Statement Reports

Entity:       2000-Department of the Treasury                Fiscal Year:       2006                                  Period:   SEPTEMBER

                                                             Reported In:       MILLIONS                              Decimal: ZERO


Statement: BALANCE SHEET

          Amounts presented as debits and credits(-)

                                                       2006-SEPTEMBER                         2005-SEPTEMBER                       Previously Reported

          Non-Federal
          Accounts Payable                                            (704)                                  (495)                                (495)
          Federal Debt Securities Held by the                   (4,844,074)                            (4,600,668)                          (4,600,668)
          Public
          Federal Employee and Veteran                                (635)                                   (684)                              (684)
          Benefits Payable
          Environmental and Disposal                                        0                                     0                                  0
          Liabilities
          Benefits Due and Payable                                       0                                      0                                    0
          Loan Guarantee Liabilities                                     0                                   (555)                                (555)
          Insurance Programs                                           (13)                                   (12)                                 (12)
          Other Liabilities                                        (33,704)                               (33,608)                             (33,608)
          Total Non-Federal Liabilities                         (4,879,130)                            (4,636,022)                          (4,636,022)

          Federal
          Accounts Payable                                             (92)                                  (211)                                (211)
          Federal Debt                                          (3,641,439)                            (3,325,707)                          (3,325,707)
          Interest Payable                                         (45,842)                               (43,362)                             (43,362)
          Loans Payable                                                  0                                      0                                    0
          Transfers Payable                                              0                                      0                                    0
          Benefit Program Contributions                               (176)                                  (171)                                (171)
          Payable
          Advances from Others and                                     (36)                                     (42)                               (42)
          Deferred Credits
          Other Liabilities (without                              (306,349)                                (273,549)                         (273,549)
          reciprocals)
          Total Federal Liabilities                             (3,993,934)                            (3,643,042)                          (3,643,042)




      I = Inactive                                                                     -2-
                                                                                                                                                  11/16/2006
                                                                U.S Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System

                                                       GF003-Closing Package Financial Statement Reports

Entity:       2000-Department of the Treasury                Fiscal Year:       2006                               Period:   SEPTEMBER

                                                             Reported In:       MILLIONS                           Decimal: ZERO


Statement: BALANCE SHEET

          Amounts presented as debits and credits(-)

                                                       2006-SEPTEMBER                         2005-SEPTEMBER                    Previously Reported

          Total Liabilities                                     (8,873,064)                            (8,279,064)                       (8,279,064)

          Net Position
          Net Position-Earmarked Funds and                                  0                              (115,308)                              0
          General Government
          Net Position-General Government                          (83,098)                                     0                                 0
          Net Position-Earmarked Funds                             (31,816)                                     0                          (115,308)
          Total Net Position                                      (114,914)                              (115,308)                         (115,308)
          Total Liabilities and Net Position                    (8,987,978)                            (8,394,372)                       (8,394,372)




      I = Inactive                                                                     -3-
                                                                                                                                                   11/16/2006
                                                                U.S Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System

                                                       GF003-Closing Package Financial Statement Reports

Entity:       2000-Department of the Treasury                Fiscal Year:       2006                                 Period:   SEPTEMBER

                                                             Reported In:       MILLIONS                             Decimal: ZERO


Statement: STATEMENT OF NET COST

          Amounts presented as debits and credits(-)

                                                       2006-SEPTEMBER                         2005-SEPTEMBER                      Previously Reported

          Gross Cost:
          Non-Federal Gross Cost                                   19,607                                   19,419                            19,419
          Interest on Debt Held by the Public                     221,527                                  181,166                           181,166
          Total Non-Federal Gross Cost                            241,134                                  200,585                           200,585

          Federal Gross Cost
          Benefit Program Costs                                     1,708                                    1,659                             1,659
          Imputed Costs                                               733                                      722                               722
          Buy/Sell Costs                                            1,625                                    1,455                             2,069
          Federal Securities Interest Expense                     182,584                                  173,790                           173,790
          Borrowing and Other Interest                              5,437                                    4,650                             4,650
          Expense
          Borrowing Losses                                              0                                        0                                 0
I         Other Costs (without reciprocals)                             0                                        0                              (614)
          Total Federal Gross Cost                                192,087                                  182,276                           182,276

          Department Total Gross Cost                             433,221                                  382,861                           382,861

          Earned Revenue
          Non-Federal Earned Revenue                                (4,136)                                 (3,136)                           (3,136)

          Federal Earned Revenue
          Benefit Program Revenue                                           0                                    0                                 0
          (exchange)
          Buy/Sell Revenue                                            (712)                                  (972)                              (972)
          Federal Securities Interest Revenue                            0                                      0                                  0
          (exchange)




      I = Inactive                                                                     -4-
                                                                                                                                                   11/16/2006
                                                                U.S Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System

                                                       GF003-Closing Package Financial Statement Reports

Entity:       2000-Department of the Treasury                Fiscal Year:     2006                                   Period:   SEPTEMBER

                                                             Reported In:     MILLIONS                               Decimal: ZERO


Statement: STATEMENT OF NET COST

          Amounts presented as debits and credits(-)

                                                       2006-SEPTEMBER                         2005-SEPTEMBER                      Previously Reported

          Borrowing and Other Interest                             (14,526)                                (13,910)                          (13,910)
          Revenue (Exchange)
          Borrowings Gains                                             (12)                                    (15)                              (15)
          Other Revenue (without                                         0                                      41                                41
          reciprocals)
          Total Federal Earned Revenue                             (15,250)                                (14,856)                          (14,856)

          Department Total Earned Revenue                          (19,386)                                (17,992)                          (17,992)

          Net Cost                                                413,835                                  364,869                           364,869




      I = Inactive                                                                   -5-
                                                                                                                                                     11/16/2006
                                                                U.S Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System

                                                       GF003-Closing Package Financial Statement Reports

Entity:       2000-Department of the Treasury                Fiscal Year:       2006                                  Period:   SEPTEMBER

                                                             Reported In:       MILLIONS                              Decimal: ZERO


Statement: STATEMENT OF CHANGES IN NET POSITION

          Amounts presented as debits and credits(-)

                                                       2006-SEPTEMBER                         2005-SEPTEMBER                       Previously Reported

          Beginning Net Position                                  (115,308)                                (113,158)                         (113,158)
          Non-Federal Prior Period                                       0                                      (48)                              (48)
          Adjustments (Not Restated)
          Federal Prior Period Adjustments                                  0                                     0                                  0
          (Not Restated)
          Adjusted Beginning Net Position                         (115,308)                                (113,206)                         (113,206)
          Balance

          Non-Federal Nonexchange
          Revenue
          Individual Income Tax and Tax                         (1,789,023)                            (1,634,668)                          (1,634,668)
          Witholdings
          Corporation Income Taxes                                (349,963)                              (271,774)                            (271,774)
          Unemployment Taxes                                        (7,390)                                (6,830)                              (6,830)
          Excise Taxes                                             (71,704)                               (70,553)                             (70,553)
          Estate and Gift Taxes                                    (27,408)                               (24,722)                             (24,722)
          Custom Duties                                                  0                                      0                                    0
          Other Taxes and Receipts                                 (37,784)                               (27,275)                             (27,275)
          Miscellaneous Earned Revenue                                  (1)                                   (42)                                 (42)
          Total Non-Federal Nonexchange                         (2,283,273)                            (2,035,864)                          (2,035,864)
          Revenue

          Federal Nonexchange Revenue
          Federal Securities Interest Revenue                               0                                     0                                  0
          Borrowing and other interest                                      0                                     0                                  0
          revenue
          Benefit Program Revenue                                           0                                     0                                  0




      I = Inactive                                                                     -6-
                                                                                                                                                    11/16/2006
                                                                U.S Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System

                                                       GF003-Closing Package Financial Statement Reports

Entity:       2000-Department of the Treasury                Fiscal Year:       2006                                  Period:   SEPTEMBER

                                                             Reported In:       MILLIONS                              Decimal: ZERO


Statement: STATEMENT OF CHANGES IN NET POSITION

          Amounts presented as debits and credits(-)

                                                       2006-SEPTEMBER                         2005-SEPTEMBER                       Previously Reported

          (nonexchange)
          Other taxes and receipts                                          0                                     0                                 0
          Total Federal Nonexchange                                         0                                     0                                 0
          Revenue

          Budgetary Financing Sources:
          Appropriations Received                                 (417,766)                                (369,312)                         (369,312)
          Unexpended Appropriations                                    (14)                                    (415)                             (415)
          transferred in
          Unexpended Appropriations                                         0                                 1,009                             1,009
          transferred out
          Other Adjustments (recissions, etc.)                         278                                   367                                  367
I         Appropriations Used                                            0                                     0                                    0
          Appropriation transfers-in                                     0                                     0                                    0
          Appropriation transfers-out                                   28                                     0                                    0
          Other Financing Sources                                2,288,014                             2,037,833                            2,037,833
          Total Budgetary Financing Sources                      1,870,540                             1,669,482                            1,669,482

          Other Financing Sources:
          Transfers-in Without                                          (1)                                      (2)                               (2)
          Reimbursement
          Transfers-out Without                                         25                                     135                                135
          Reimbursement
          Imputed Financing Source                                    (732)                                   (722)                              (722)
          Total Other Financing Sources                               (708)                                   (589)                              (589)




      I = Inactive                                                                     -7-
                                                                                                                                                   11/16/2006
                                                                U.S Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System

                                                       GF003-Closing Package Financial Statement Reports

Entity:       2000-Department of the Treasury                Fiscal Year:     2006                                   Period:   SEPTEMBER

                                                             Reported In:     MILLIONS                               Decimal: ZERO


Statement: STATEMENT OF CHANGES IN NET POSITION

          Amounts presented as debits and credits(-)

                                                       2006-SEPTEMBER                         2005-SEPTEMBER                      Previously Reported

          Net Cost                                                413,835                                  364,869                           364,869

          Ending Net Position Balance                             (114,914)                                (115,308)                        (115,308)




      I = Inactive                                                                   -8-
                                                            U.S.Department of the Treasury                                          11/16/2006
                                                            Financial Management Service
                                                        Governmentwide Financial Report System

                                                     GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                         Fiscal Year: 2006                             Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                    Reported in: MILLIONS                   Decimal Point: ZERO



Agency FS            CP Line Description                         Acct Type      NB                FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 BS                  Accounts Receivable                         A              D                                483               626
                                                                                Variance:                            0                    0


     TP     Trading Partner Name                  FY 2006-SEPTEMBER     FY 2005-SEPTEMBER              FY 2005-             FY 2005-
                                                                                                   SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                         Rpt.               item chgs.
     1200 Department of Agriculture                                14                        12                   12                      0
     1300 Department of Commerce                                    1                         0                    0                      0
     1400 Department of the Interior                               55                        80                   80                      0
     1500 Department of Justice                                     1                         3                    3                      0
     1601 Department of Labor                                       1                         1                    1                      0
     1800 United States Postal Service                              1                         1                    1                      0
     1900 Department of State                                       1                         3                    3                      0
     2800 Social Security Administration                            3                         3                    3                      0
     3600 Department of Veteran Affairs                            56                        36                   36                      0
     4700 General Services Administration                         101                       144                  144                      0
     5100 Federal Deposit Insurance Corporation                     1                         1                    1                      0
     6800 Environmental Protection Agency                          22                        22                   22                      0
     6900 Department of Transportation                              2                         1                    1                      0
     7000 Department of Homeland Security                          15                         9                    9                      0
     7200 Agency for International Development                     10                         3                    3                      0
     7300 Small Business Administration                             0                         1                    1                      0
     7500 Department of Health and Human                           48                        28                   28                      0
          Services
     8600 Department of Housing and Urban                           2                         1                      1                    0
          Development

             * I = Inactive                                               -1-
                                                                 U.S.Department of the Treasury                                          11/16/2006
                                                                 Financial Management Service
                                                             Governmentwide Financial Report System

                                                          GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                              Fiscal Year: 2006                             Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                         Reported in: MILLIONS                   Decimal Point: ZERO




     8900   Department of Energy                                         5                        54                   54                      0
     9500   Independent and Other Agencies                               3                         3                    3                      0
     9999   Unidentified                                                 1                         1                    1                      0
     DE00   Department of Defense                                      140                       219                  219                      0
                                      Total                            483                       626                  626                      0


Agency FS            CP Line Description                              Acct Type      NB                FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 BS                  Advances to Others and Prepayments               A              D                                 78                40
                                                                                     Variance:                            0                    0


     TP     Trading Partner Name                   FY 2006-SEPTEMBER         FY 2005-SEPTEMBER              FY 2005-             FY 2005-
                                                                                                        SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                              Rpt.               item chgs.
     1400   Department of the Interior                                  60                        26                   26                      0
     1500   Department of Justice                                        3                         5                    5                      0
     1800   United States Postal Service                                 1                         0                    0                      0
     4700   General Services Administration                              6                         1                    1                      0
     6800   Environmental Protection Agency                              0                         1                    1                      0
     7300   Small Business Administration                                3                         1                    1                      0
     9500   Independent and Other Agencies                               3                         4                    4                      0
     DE00   Department of Defense                                        2                         2                    2                      0


             * I = Inactive                                                    -2-
                                                             U.S.Department of the Treasury                                           11/16/2006
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2006                               Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                     Reported in: MILLIONS                     Decimal Point: ZERO




                                      Total                         78                        40                     40                     0




Agency FS            CP Line Description                          Acct Type      NB                 FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 BS                  Interest Receivable                          A              D                                1,971             1,463
                                                                                 Variance:                             0                    0


     TP     Trading Partner Name                   FY 2006-SEPTEMBER     FY 2005-SEPTEMBER               FY 2005-             FY 2005-
                                                                                                     SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                           Rpt.               item chgs.
     1200   Department of Agriculture                              708                       324                    324                     0
     1400   Department of the Interior                             663                       823                    823                     0
     3600   Department of Veteran Affairs                            0                        (3)                    (3)                    0
     4700   General Services Administration                         39                        39                     39                     0
     6000   Railroad Retirement Board                               72                        69                     69                     0
     6400   Tennessee Valley Authority                               1                         1                      1                     0
     6900   Department of Transportation                             5                         3                      3                     0
     7000   Department of Homeland Security                        354                         3                      3                     0
     7200   Agency for International Development                     0                         1                      1                     0


             * I = Inactive                                                -3-
                                                           U.S.Department of the Treasury                                             11/16/2006
                                                           Financial Management Service
                                                       Governmentwide Financial Report System

                                                    GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                        Fiscal Year: 2006                                 Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                   Reported in: MILLIONS                       Decimal Point: ZERO




     7300 Small Business Administration                            1                           1                      1                     0
     8600 Department of Housing and Urban                        107                         163                    163                     0
          Development
     8900 Department of Energy                                     3                          13                     13                     0
     9100 Department of Education                                  2                           1                      1                     0
     9500 Independent and Other Agencies                          13                          19                     19                     0
     DE00 Department of Defense                                    3                           6                      6                     0
                                         Total                 1,971                       1,463                  1,463                     0


Agency FS            CP Line Description                        Acct Type      NB                   FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 BS                  Loans Receivable                           A              D                                 252,867           236,214
                                                                               Variance:                               0                    0


     TP     Trading Partner Name                 FY 2006-SEPTEMBER     FY 2005-SEPTEMBER                 FY 2005-             FY 2005-
                                                                                                     SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                           Rpt.               item chgs.
     1200   Department of Agriculture                         83,044                       83,191                83,191                     0
     1300   Department of Commerce                               422                          358                   358                     0
     1400   Department of the Interior                           394                          398                   398                     0
     1500   Department of Justice                                 20                           20                    20                     0
     1601   Department of Labor                                9,632                        9,186                 9,186                     0


             * I = Inactive                                              -4-
                                                             U.S.Department of the Treasury                                    11/16/2006
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2006                        Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                     Reported in: MILLIONS              Decimal Point: ZERO




     1800   United States Postal Service                         2,100                      0                  0                  0
     1900   Department of State                                      1                      1                  1                  0
     2700   Federal Communications Commission                      449                  1,274              1,274                  0
     3300   Smithsonian Institution                                  0                     20                 20                  0
     3600   Department of Veteran Affairs                          982                  2,193              2,193                  0
     4700   General Services Administration                      2,192                  2,201              2,201                  0
     6000   Railroad Retirement Board                            2,958                  2,973              2,973                  0
     6800   Environmental Protection Agency                         19                     22                 22                  0
     6900   Department of Transportation                           834                    950                950                  0
     7000   Department of Homeland Security                     17,092                    226                226                  0
     7200   Agency for International Development                   474                    422                422                  0
     7300   Small Business Administration                        9,330                  7,735              7,735                  0
     8300   Export-Import Bank of the United States              4,911                  5,848              5,848                  0
     8600   Department of Housing and Urban                      7,142                  8,759              8,759                  0
            Development
     8900   Department of Energy                                 2,482                  2,777              2,777                  0
     9100   Department of Education                            105,678                104,597            104,597                  0
     9500   Independent and Other Agencies                       2,332                  2,602              2,602                  0
     DE00   Department of Defense                                  379                    461                461                  0
                                      Total                    252,867                236,214            236,214                  0




             * I = Inactive                                               -5-
                                                                 U.S.Department of the Treasury                                           11/16/2006
                                                                 Financial Management Service
                                                             Governmentwide Financial Report System

                                                          GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                               Fiscal Year: 2006                              Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                          Reported in: MILLIONS                    Decimal Point: ZERO



Agency FS            CP Line Description                              Acct Type       NB                FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 BS                  Other Assets (without reciprocals)               A               D                             8,540,195         7,978,081
                                                                                      Variance:                            0                    0


     TP     Trading Partner Name                      FY 2006-SEPTEMBER       FY 2005-SEPTEMBER              FY 2005-             FY 2005-
                                                                                                         SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                               Rpt.               item chgs.
     9900 Treasury General Fund                                   8,540,195                 7,978,081              7,978,081                    0
                                       Total                      8,540,195                 7,978,081              7,978,081                    0


Agency FS            CP Line Description                              Acct Type       NB                FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 BS                  Accounts Payable                                 L               C                                 92               211
                                                                                      Variance:                            0                    0


     TP     Trading Partner Name                      FY 2006-SEPTEMBER       FY 2005-SEPTEMBER              FY 2005-             FY 2005-
                                                                                                         SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                               Rpt.               item chgs.
     1500   Department of Justice                                        4                         3                      3                     0
     1601   Department of Labor                                         16                        17                     17                     0
     1800   United States Postal Service                                 0                         3                      3                     0
     1900   Department of State                                         22                        17                     17                     0
     2400   Office of Personnel Management                               1                         0                      0                     0
     3600   Department of Veteran Affairs                                1                         1                      1                     0
     4700   General Services Administration                             18                         9                      9                     0
     7000   Department of Homeland Security                             14                        11                     11                     0


             * I = Inactive                                                     -6-
                                                                 U.S.Department of the Treasury                                            11/16/2006
                                                                 Financial Management Service
                                                             Governmentwide Financial Report System

                                                        GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                              Fiscal Year: 2006                               Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                         Reported in: MILLIONS                     Decimal Point: ZERO




     7500 Department of Health and Human                               11                          12                    12                      0
          Services
     9100 Department of Education                                       4                          3                      3                      0
     9500 Independent and Other Agencies                                4                          4                      4                      0
     9900 Treasury General Fund                                         0                        129                    129                      0
     9999 Unidentified                                                 (4)                         1                      1                      0
     DE00 Department of Defense                                         1                          1                      1                      0
                                      Total                           (92)                       (211)                 (211)                     0


Agency FS            CP Line Description                             Acct Type       NB                  FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 BS                  Advances from Others and Deferred Credits       L               C                                   36                42
                                                                                     Variance:                              0                    0


     TP     Trading Partner Name                    FY 2006-SEPTEMBER        FY 2005-SEPTEMBER                FY 2005-             FY 2005-
                                                                                                          SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                Rpt.               item chgs.
     1500   Department of Justice                                      10                          12                    12                      0
     1800   United States Postal Service                                0                           3                     3                      0
     1900   Department of State                                         3                           5                     5                      0
     4700   General Services Administration                             1                           1                     1                      0
     7000   Department of Homeland Security                             8                          11                    11                      0


             * I = Inactive                                                    -7-
                                                                 U.S.Department of the Treasury                                            11/16/2006
                                                                 Financial Management Service
                                                             Governmentwide Financial Report System

                                                        GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                              Fiscal Year: 2006                               Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                         Reported in: MILLIONS                     Decimal Point: ZERO




     7200 Agency for International Development                         10                           6                       6                    0
     8600 Department of Housing and Urban                               2                           1                       1                    0
          Development
     9500 Independent and Other Agencies                                2                           2                       2                    0
     DE00 Department of Defense                                         0                           1                       1                    0
                                      Total                           (36)                        (42)                  (42)                     0


Agency FS            CP Line Description                             Acct Type       NB                  FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 BS                  Benefit Program Contributions Payable           L               C                                  176               171
                                                                                     Variance:                              0                    0


     TP     Trading Partner Name                    FY 2006-SEPTEMBER        FY 2005-SEPTEMBER                FY 2005-             FY 2005-
                                                                                                          SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                Rpt.               item chgs.
     1601 Department of Labor                                         117                        114                    114                      0
     2400 Office of Personnel Management                               45                         43                     43                      0
     9900 Treasury General Fund                                        14                         14                     14                      0
                                      Total                          (176)                       (171)                 (171)                     0




             * I = Inactive                                                    -8-
                                                              U.S.Department of the Treasury                                              11/16/2006
                                                              Financial Management Service
                                                          Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                            Fiscal Year: 2006                                 Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                       Reported in: MILLIONS                       Decimal Point: ZERO



Agency FS            CP Line Description                           Acct Type       NB                   FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 BS                  Federal Debt                                  L               C                                3,641,439         3,325,707
                                                                                   Variance:                               0                    0


     TP     Trading Partner Name                    FY 2006-SEPTEMBER      FY 2005-SEPTEMBER                 FY 2005-             FY 2005-
                                                                                                         SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                               Rpt.               item chgs.
     1200   Department of Agriculture                                82                            70                    70                     0
     1400   Department of the Interior                            8,670                         7,359                 7,359                     0
     1500   Department of Justice                                 1,246                         1,039                 1,039                     0
     1601   Department of Labor                                  66,455                        55,002                55,002                     0
     1602   PENSION BENEFIT GUARANTY                             15,150                        16,464                16,464                     0
            CORPORATION
     1800   United States Postal Service                           4,232                     1,218                     1,218                    0
     1900   Department of State                                   13,910                    13,389                    13,389                    0
     2400   Office of Personnel Management                       735,801                   702,745                   702,745                    0
     2500   National Credit Union Administration                   6,765                     6,498                     6,498                    0
     2700   Federal Communications Commission                      4,418                     3,905                     3,905                    0
     2800   Social Security Administration                     1,995,307                 1,809,422                 1,809,422                    0
     3600   Department of Veteran Affairs                         12,683                    13,083                    13,083                    0
     5100   Federal Deposit Insurance Corporation                 51,640                    49,978                    49,978                    0
     6000   Railroad Retirement Board                              1,893                     2,091                     2,091                    0
     6800   Environmental Protection Agency                        5,328                     4,778                     4,778                    0
     6900   Department of Transportation                          19,625                    18,883                    18,883                    0
     7000   Department of Homeland Security                          634                       738                       738                    0
     7500   Department of Health and Human                       337,665                   296,679                   296,679                    0
            Services

             * I = Inactive                                                  -9-
                                                           U.S.Department of the Treasury                                                  11/16/2006
                                                           Financial Management Service
                                                       Governmentwide Financial Report System

                                                    GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                         Fiscal Year: 2006                                    Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                    Reported in: MILLIONS                          Decimal Point: ZERO




     7802 Farm Credit System Insurance                          2,107                          1,990                   1,990                     0
          Corporation
     8000 National Aeronautics and Space                           17                             17                      17                     0
          Administration
     8600 Department of Housing and Urban                     30,170                           30,406                30,406                      0
          Development
     8900 Department of Energy                                25,050                       23,738                    23,738                      0
     9500 Independent and Other Agencies                       7,173                        6,802                     6,802                      0
     DE00 Department of Defense                              295,418                      259,413                   259,413                      0
                                         Total             (3,641,439)                  (3,325,707)               (3,325,707)                    0


Agency FS            CP Line Description                         Acct Type     NB                       FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 BS                  Interest Payable                            L             C                                      45,842            43,362
                                                                                   Variance:                               0                     0


     TP     Trading Partner Name                 FY 2006-SEPTEMBER       FY 2005-SEPTEMBER                   FY 2005-              FY 2005-
                                                                                                         SEPTEMBER Prev.        SEPTEMBER Line
                                                                                                               Rpt.                item chgs.
     1200   Department of Agriculture                              1                               0                      0                      0
     1400   Department of the Interior                            44                              32                     32                      0
     1500   Department of Justice                                  2                               1                      1                      0
     1601   Department of Labor                                  745                             637                    637                      0


             * I = Inactive                                               - 10 -
                                                         U.S.Department of the Treasury                                    11/16/2006
                                                         Financial Management Service
                                                     Governmentwide Financial Report System

                                                  GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                      Fiscal Year: 2006                        Period: SEPTEMBER


Entity:    2000 - Department of the Treasury                  Reported in: MILLIONS              Decimal Point: ZERO




     1602 PENSION BENEFIT GUARANTY                              15                    182                182                  0
          CORPORATION
     1800 United States Postal Service                           1                     0                   0                  0
     1900 Department of State                                  192                   190                 190                  0
     2400 Office of Personnel Management                     9,541                 9,306               9,306                  0
     2500 National Credit Union Administration                  55                    40                  40                  0
     2700 Federal Communications Commission                     11                     0                   0                  0
     2800 Social Security Administration                    25,630                23,472              23,472                  0
     3600 Department of Veteran Affairs                        191                   202                 202                  0
     5100 Federal Deposit Insurance Corporation                681                   757                 757                  0
     6000 Railroad Retirement Board                             11                    11                  11                  0
     6800 Environmental Protection Agency                       39                    33                  33                  0
     6900 Department of Transportation                          85                    91                  91                  0
     7000 Department of Homeland Security                        4                     5                   5                  0
     7500 Department of Health and Human                     4,310                 3,984               3,984                  0
          Services
     7802 Farm Credit System Insurance                          17                     22                 22                  0
          Corporation
     8600 Department of Housing and Urban                      255                    309                309                  0
          Development
     8900 Department of Energy                                 115                   96                   96                  0
     9500 Independent and Other Agencies                        68                   63                   63                  0
     DE00 Department of Defense                              3,829                3,929                3,929                  0


            * I = Inactive                                           - 11 -
                                                                      U.S.Department of the Treasury                                               11/16/2006
                                                                      Financial Management Service
                                                                  Governmentwide Financial Report System

                                                               GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                                    Fiscal Year: 2006                                  Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                               Reported in: MILLIONS                        Decimal Point: ZERO




                                        Total                            (45,842)                     (43,362)               (43,362)                    0




Agency FS            CP Line Description                                    Acct Type     NB                     FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 BS                  Other Liabilities (without reciprocals)                L             C                                   306,349           273,549
                                                                                              Variance:                             0                    0


     TP     Trading Partner Name                       FY 2006-SEPTEMBER            FY 2005-SEPTEMBER                 FY 2005-             FY 2005-
                                                                                                                  SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                        Rpt.               item chgs.
     1400   Department of the Interior                                        1                            1                       1                     0
     4700   General Services Administration                                  (2)                           0                       0                     0
     7000   Department of Homeland Security                                  (1)                           0                       0                     0
     9500   Independent and Other Agencies                                   (1)                          (3)                     (3)                    0
     9900   Treasury General Fund                                       306,352                      273,551                 273,551                     0
     9999   Unidentified                                                     (1)                          (1)                     (1)                    0
     DE00   Department of Defense                                             1                            1                       1                     0
                                        Total                           (306,349)                    (273,549)              (273,549)                    0



             * I = Inactive                                                          - 12 -
                                                                 U.S.Department of the Treasury                                              11/16/2006
                                                                 Financial Management Service
                                                             Governmentwide Financial Report System

                                                        GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                        Fiscal Year: 2006                                Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                           Reported in: MILLIONS                      Decimal Point: ZERO



Agency FS            CP Line Description                                Acct Type      NB                  FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 NCS                 Benefit Program Costs                              GC             D                                 1,708             1,659
                                                                                       Variance:                              0                    0


     TP     Trading Partner Name                    FY 2006-SEPTEMBER          FY 2005-SEPTEMBER                FY 2005-             FY 2005-
                                                                                                            SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                  Rpt.               item chgs.
     1601   Department of Labor                                           99                         100                   100                     0
     2400   Office of Personnel Management                             1,230                       1,190                 1,190                     0
     6900   Department of Transportation                                   1                           1                     1                     0
     9900   Treasury General Fund                                        378                         368                   368                     0
                                      Total                            1,708                       1,659                 1,659                     0


Agency FS            CP Line Description                                Acct Type      NB                  FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 NCS                 Borrowing and Other Interest Revenue (Exchange)    ER             C                                 14,526            13,910
                                                                                       Variance:                              0                    0


     TP     Trading Partner Name                    FY 2006-SEPTEMBER          FY 2005-SEPTEMBER                FY 2005-             FY 2005-
                                                                                                            SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                  Rpt.               item chgs.
     1200   Department of Agriculture                                  4,429                       4,165                 4,165                     0
     1300   Department of Commerce                                        21                          22                    22                     0
     1400   Department of the Interior                                     9                          11                    11                     0
     1601   Department of Labor                                          695                         675                   675                     0
     2700   Federal Communications Commission                             98                         269                   269                     0


             * I = Inactive                                                      -1-
                                                             U.S.Department of the Treasury                                    11/16/2006
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2006                        Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                     Reported in: MILLIONS              Decimal Point: ZERO




     3600   Department of Veteran Affairs                          102                    241                241                  0
     4700   General Services Administration                        148                    148                148                  0
     6000   Railroad Retirement Board                              173                    164                164                  0
     6400   Tennessee Valley Authority                               5                      0                  0                  0
     6800   Environmental Protection Agency                          1                      2                  2                  0
     6900   Department of Transportation                            45                     39                 39                  0
     7000   Department of Homeland Security                        533                      4                  4                  0
     7200   Agency for International Development                    24                     22                 22                  0
     7300   Small Business Administration                          537                    547                547                  0
     8300   Export-Import Bank of the United States                317                    381                381                  0
     8600   Department of Housing and Urban                        567                    687                687                  0
            Development
     8900   Department of Energy                                    81                     97                 97                  0
     9100   Department of Education                              6,519                  6,185              6,185                  0
     9500   Independent and Other Agencies                         191                    213                213                  0
     DE00   Department of Defense                                   31                     38                 38                  0
                                      Total                    (14,526)               (13,910)           (13,910)                 0




             * I = Inactive                                               -2-
                                                          U.S.Department of the Treasury                                            11/16/2006
                                                          Financial Management Service
                                                      Governmentwide Financial Report System

                                                   GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                               Fiscal Year: 2006                               Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                  Reported in: MILLIONS                     Decimal Point: ZERO



Agency FS            CP Line Description                       Acct Type       NB                 FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 NCS                 Borrowings Gains                          ER              C                                  12                15
                                                                               Variance:                             0                    0


     TP     Trading Partner Name                FY 2006-SEPTEMBER      FY 2005-SEPTEMBER               FY 2005-             FY 2005-
                                                                                                   SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                         Rpt.               item chgs.
     1200 Department of Agriculture                               4                        13                     13                      0
     4700 General Services Administration                         0                         2                      2                      0
     DE00 Department of Defense                                   8                         0                      0                      0
                                       Total                    (12)                       (15)                  (15)                     0


Agency FS            CP Line Description                       Acct Type       NB                 FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 NCS                 Buy/Sell Revenue                          ER              C                                 712               972
                                                                               Variance:                             0                    0


     TP     Trading Partner Name                FY 2006-SEPTEMBER      FY 2005-SEPTEMBER               FY 2005-             FY 2005-
                                                                                                   SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                         Rpt.               item chgs.
     1200   Department of Agriculture                            13                        13                     13                      0
     1300   Department of Commerce                                5                         5                      5                      0
     1400   Department of the Interior                            6                        11                     11                      0
     1500   Department of Justice                                34                        91                     91                      0
     1601   Department of Labor                                   3                         3                      3                      0
     1800   United States Postal Service                          3                        17                     17                      0


             * I = Inactive                                              -3-
                                                           U.S.Department of the Treasury                                    11/16/2006
                                                           Financial Management Service
                                                       Governmentwide Financial Report System

                                                    GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                Fiscal Year: 2006                        Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                   Reported in: MILLIONS              Decimal Point: ZERO




     1900   Department of State                                    7                     7                   7                  0
     2400   Office of Personnel Management                         2                     2                   2                  0
     2800   Social Security Administration                        98                    99                  99                  0
     3600   Department of Veteran Affairs                         25                    25                  25                  0
     4700   General Services Administration                        3                     3                   3                  0
     4900   National Science Foundation                            1                     0                   0                  0
     5000   Securities and Exchange Commission                     2                     4                   4                  0
     5100   Federal Deposit Insurance Corporation                  5                     4                   4                  0
     6000   Railroad Retirement Board                              1                     1                   1                  0
     6400   Tennessee Valley Authority                             0                     1                   1                  0
     6800   Environmental Protection Agency                        2                     1                   1                  0
     6900   Department of Transportation                           1                     6                   6                  0
     7000   Department of Homeland Security                       46                    57                  57                  0
     7200   Agency for International Development                  34                    29                  29                  0
     7300   Small Business Administration                          1                     0                   0                  0
     7500   Department of Health and Human                       108                    86                  86                  0
            Services
     8000   National Aeronautics and Space                         1                     2                   2                  0
            Administration
     8600   Department of Housing and Urban                       12                    11                  11                  0
            Development
     8900   Department of Energy                                   1                     3                   3                  0
     9100   Department of Education                                1                     1                   1                  0


             * I = Inactive                                             -4-
                                                                  U.S.Department of the Treasury                                             11/16/2006
                                                                  Financial Management Service
                                                              Governmentwide Financial Report System

                                                           GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                       Fiscal Year: 2006                                 Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                          Reported in: MILLIONS                       Decimal Point: ZERO




     9500 Independent and Other Agencies                                 22                         17                      17                     0
     DE00 Department of Defense                                         275                        473                     473                     0
                                      Total                            (712)                       (972)                  (972)                    0



Agency FS            CP Line Description                               Acct Type       NB                  FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 NCS                 Other Revenue (without reciprocals)               ER              C                                    0               (41)
                                                                                       Variance:                              0                    0


     TP     Trading Partner Name                     FY 2006-SEPTEMBER         FY 2005-SEPTEMBER                FY 2005-             FY 2005-
                                                                                                            SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                  Rpt.               item chgs.
     9900 Treasury General Fund                                           0                         (41)                   (41)                    0
                                      Total                               0                          41                     41                     0




             * I = Inactive                                                      -5-
                                                                U.S.Department of the Treasury                                            11/16/2006
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                     Fiscal Year: 2006                                Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                        Reported in: MILLIONS                      Decimal Point: ZERO



Agency FS            CP Line Description                             Acct Type      NB                  FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 NCS                 Borrowing and Other Interest Expense            GC             D                                 5,437             4,650
                                                                                    Variance:                              0                    0


     TP     Trading Partner Name                      FY 2006-SEPTEMBER     FY 2005-SEPTEMBER                FY 2005-             FY 2005-
                                                                                                         SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                               Rpt.               item chgs.
     1200   Department of Agriculture                                 818                        913                    913                     0
     1300   Department of Commerce                                      6                          9                      9                     0
     1400   Department of the Interior                                  6                          6                      6                     0
     2700   Federal Communications Commission                          53                        102                    102                     0
     3600   Department of Veteran Affairs                             256                        316                    316                     0
     6900   Department of Transportation                               29                         24                     24                     0
     7000   Department of Homeland Security                             6                          0                      0                     0
     7200   Agency for International Development                       77                         55                     55                     0
     7300   Small Business Administration                             379                        445                    445                     0
     7500   Department of Health and Human                              9                         11                     11                     0
            Services
     8300   Export-Import Bank of the United States                   149                        181                    181                     0
     8600   Department of Housing and Urban                           546                        466                    466                     0
            Development
     9100   Department of Education                                 3,035                       2,042                 2,042                     0
     9500   Independent and Other Agencies                             64                          77                    77                     0
     DE00   Department of Defense                                       4                           3                     3                     0
                                      Total                         5,437                       4,650                 4,650                     0




             * I = Inactive                                                   -6-
                                                              U.S.Department of the Treasury                                            11/16/2006
                                                              Financial Management Service
                                                          Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                   Fiscal Year: 2006                                Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                      Reported in: MILLIONS                      Decimal Point: ZERO



Agency FS            CP Line Description                           Acct Type      NB                  FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 NCS                 Buy/Sell Costs                                GC             D                                 1,625             1,455
                                                                                  Variance:                              0                    0


     TP     Trading Partner Name                    FY 2006-SEPTEMBER     FY 2005-SEPTEMBER                FY 2005-             FY 2005-
                                                                                                       SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                             Rpt.               item chgs.
     1200 Department of Agriculture                                 137                       (236)                   378                (614)
     1300 Department of Commerce                                      4                          3                      3                   0
     1400 Department of the Interior                                  9                          2                      2                   0
     1500 Department of Justice                                      13                         25                     25                   0
     1601 Department of Labor                                        22                         12                     12                   0
     1800 United States Postal Service                              254                        250                    250                   0
     1900 Department of State                                        14                         15                     15                   0
     2400 Office of Personnel Management                             42                         19                     19                   0
     3600 Department of Veteran Affairs                               0                          2                      2                   0
     4700 General Services Administration                           809                        827                    827                   0
     6800 Environmental Protection Agency                             1                          0                      0                   0
     6900 Department of Transportation                               22                         21                     21                   0
     7000 Department of Homeland Security                           130                         88                     88                   0
     7200 Agency for International Development                       22                        222                    222                   0
     7500 Department of Health and Human                             19                         25                     25                   0
          Services
     8300 Export-Import Bank of the United States                     0                        46                      46                     0
     8900 Department of Energy                                        3                         3                       3                     0
     9500 Independent and Other Agencies                            117                       114                     114                     0


             * I = Inactive                                                 -7-
                                                                  U.S.Department of the Treasury                                              11/16/2006
                                                                  Financial Management Service
                                                              Governmentwide Financial Report System

                                                           GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                       Fiscal Year: 2006                                  Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                          Reported in: MILLIONS                        Decimal Point: ZERO




     DE00 Department of Defense                                           7                           17                     17                     0
                                       Total                          1,625                        1,455                  2,069                (614)




Agency FS            CP Line Description                               Acct Type       NB                   FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 NCS                 Federal Securities Interest Expense               GC              D                                 182,584           173,790
                                                                                       Variance:                               0                    0


     TP     Trading Partner Name                      FY 2006-SEPTEMBER        FY 2005-SEPTEMBER                 FY 2005-             FY 2005-
                                                                                                             SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                   Rpt.               item chgs.
     1200   Department of Agriculture                                     6                            3                      3                     0
     1400   Department of the Interior                                  329                          209                    209                     0
     1500   Department of Justice                                        54                           24                     24                     0
     1601   Department of Labor                                       2,776                        2,548                  2,548                     0
     1602   PENSION BENEFIT GUARANTY                                   (348)                       1,992                  1,992                     0
            CORPORATION
     1800   United States Postal Service                                140                            59                    59                     0
     1900   Department of State                                         767                           768                   768                     0
     2400   Office of Personnel Management                           38,396                        37,871                37,871                     0
     2500   National Credit Union Administration                        245                           156                   156                     0

             * I = Inactive                                                      -8-
                                                           U.S.Department of the Treasury                                    11/16/2006
                                                           Financial Management Service
                                                       Governmentwide Financial Report System

                                                    GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                Fiscal Year: 2006                        Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                   Reported in: MILLIONS              Decimal Point: ZERO




     2700   Federal Communications Commission                    235                    148                148                  0
     2800   Social Security Administration                    99,315                 92,994             92,994                  0
     3600   Department of Veteran Affairs                        791                    842                842                  0
     5100   Federal Deposit Insurance Corporation              2,588                  2,299              2,299                  0
     6000   Railroad Retirement Board                             86                     72                 72                  0
     6400   Tennessee Valley Authority                             0                      1                  1                  0
     6800   Environmental Protection Agency                      207                    131                131                  0
     6900   Department of Transportation                         509                    453                453                  0
     7000   Department of Homeland Security                       27                     25                 25                  0
     7500   Department of Health and Human                    17,228                 16,558             16,558                  0
            Services
     7802   Farm Credit System Insurance                          85                    84                  84                  0
            Corporation
     8000   National Aeronautics and Space                         1                      1                  1                  0
            Administration
     8600   Department of Housing and Urban                    1,527                  1,489              1,489                  0
            Development
     8900   Department of Energy                                 693                  1,592              1,592                  0
     9500   Independent and Other Agencies                       316                    276                276                  0
     DE00   Department of Defense                             16,611                 13,195             13,195                  0
                                      Total                  182,584                173,790            173,790                  0




             * I = Inactive                                             -9-
                                                                   U.S.Department of the Treasury                                            11/16/2006
                                                                   Financial Management Service
                                                               Governmentwide Financial Report System

                                                            GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                        Fiscal Year: 2006                               Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                           Reported in: MILLIONS                     Decimal Point: ZERO



Agency FS            CP Line Description                                Acct Type    NB                    FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 NCS                 Imputed Costs                                      GC           D                                    733               722
                                                                                         Variance:                            0                    0


     TP     Trading Partner Name                         FY 2006-SEPTEMBER     FY 2005-SEPTEMBER                FY 2005-             FY 2005-
                                                                                                            SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                  Rpt.               item chgs.
     2400 Office of Personnel Management                                 733                         722                  722                      0
                                       Total                             733                         722                  722                      0


Agency FS            CP Line Description                                Acct Type    NB                    FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 NCS          I      Other Costs (without reciprocals)                  GC           D                                      0                 0
                                                                                         Variance:                            0                    0


     TP     Trading Partner Name                         FY 2006-SEPTEMBER     FY 2005-SEPTEMBER                FY 2005-             FY 2005-
                                                                                                            SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                  Rpt.               item chgs.
     1200 Department of Agriculture                                        0                           0                 (614)                 614
                                       Total                               0                           0                 (614)                 614




             * I = Inactive                                                     - 10 -
                                                             U.S.Department of the Treasury                                               11/16/2006
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                   Fiscal Year: 2006                                   Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                     Reported in: MILLIONS                         Decimal Point: ZERO



Agency FS            CP Line Description                          Acct Type       NB                    FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 SCNP                Other Financing Sources                      F               C                                   (5,619)           (2,969)
                                                                                  Variance:                                0                    0


     TP     Trading Partner Name                   FY 2006-SEPTEMBER      FY 2005-SEPTEMBER                  FY 2005-             FY 2005-
                                                                                                         SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                               Rpt.               item chgs.
     9500 Independent and Other Agencies                           (70)                            0                      0                     0
     9900 Treasury General Fund                                 (5,549)                       (2,969)                (2,969)                    0
                                       Total                     5,619                        2,969                   2,969                     0


Agency FS            CP Line Description                          Acct Type       NB                    FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 SCNP                Appropriation transfers-out                  CF              D                                     28                 0
                                                                                  Variance:                                0                    0


     TP     Trading Partner Name                   FY 2006-SEPTEMBER      FY 2005-SEPTEMBER                  FY 2005-             FY 2005-
                                                                                                         SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                               Rpt.               item chgs.
     7500 Department of Health and Human                             1                             0                       0                    0
          Services
     9900 Treasury General Fund                                     27                             0                       0                    0
                                       Total                        28                             0                       0                    0




             * I = Inactive                                                 -1-
                                                                 U.S.Department of the Treasury                                           11/16/2006
                                                                 Financial Management Service
                                                             Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                       Fiscal Year: 2006                               Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                         Reported in: MILLIONS                     Decimal Point: ZERO



Agency FS            CP Line Description                             Acct Type      NB                  FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 SCNP                Transfers-out Without Reimbursement             CF             D                                   25               135
                                                                                    Variance:                              0                    0


     TP     Trading Partner Name                    FY 2006-SEPTEMBER       FY 2005-SEPTEMBER                FY 2005-             FY 2005-
                                                                                                         SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                               Rpt.               item chgs.
     4700   General Services Administration                             0                          2                      2                     0
     7000   Department of Homeland Security                            23                         16                     16                     0
     9500   Independent and Other Agencies                              2                          0                      0                     0
     9900   Treasury General Fund                                       0                        117                    117                     0
                                      Total                            25                        135                    135                     0


Agency FS            CP Line Description                             Acct Type      NB                  FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 SCNP                Unexpended Appropriations transferred out       CF             D                                    0              1,009
                                                                                    Variance:                              0                    0


     TP     Trading Partner Name                    FY 2006-SEPTEMBER       FY 2005-SEPTEMBER                FY 2005-             FY 2005-
                                                                                                         SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                               Rpt.               item chgs.
     7200 Agency for International Development                          0                       1,008                 1,008                     0
     9500 Independent and Other Agencies                                0                           1                     1                     0
                                      Total                             0                       1,009                 1,009                     0




             * I = Inactive                                                   -2-
                                                                 U.S.Department of the Treasury                                             11/16/2006
                                                                 Financial Management Service
                                                             Governmentwide Financial Report System

                                                          GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                       Fiscal Year: 2006                                Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                         Reported in: MILLIONS                      Decimal Point: ZERO



Agency FS            CP Line Description                              Acct Type       NB                  FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 SCNP                Imputed Financing Source                         F               C                                  732               722
                                                                                      Variance:                              0                    0


     TP     Trading Partner Name                   FY 2006-SEPTEMBER          FY 2005-SEPTEMBER                FY 2005-             FY 2005-
                                                                                                           SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                 Rpt.               item chgs.
     2400 Office of Personnel Management                               732                        722                    722                      0
                                      Total                           (732)                       (722)                 (722)                     0


Agency FS            CP Line Description                              Acct Type       NB                  FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 SCNP                Transfers-in Without Reimbursement               F               C                                    1                 2
                                                                                      Variance:                              0                    0


     TP     Trading Partner Name                   FY 2006-SEPTEMBER          FY 2005-SEPTEMBER                FY 2005-             FY 2005-
                                                                                                           SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                 Rpt.               item chgs.
     1601 Department of Labor                                            1                           0                       0                    0
     4700 General Services Administration                                0                           2                       2                    0
                                      Total                             (1)                         (2)                   (2)                     0




             * I = Inactive                                                     -3-
                                                                    U.S.Department of the Treasury                                             11/16/2006
                                                                    Financial Management Service
                                                                Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                          Fiscal Year: 2006                                Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                            Reported in: MILLIONS                      Decimal Point: ZERO



Agency FS            CP Line Description                                Acct Type       NB                  FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 SCNP                Unexpended Appropriations transferred in           F               C                                   14               415
                                                                                        Variance:                              0                    0


     TP     Trading Partner Name                    FY 2006-SEPTEMBER           FY 2005-SEPTEMBER                FY 2005-             FY 2005-
                                                                                                             SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                   Rpt.               item chgs.
     7200 Agency for International Development                            14                         55                      55                     0
     9500 Independent and Other Agencies                                   0                        360                     360                     0
                                      Total                              (14)                       (415)                  (415)                    0


Agency FS            CP Line Description                                Acct Type       NB                  FY 2006-SEPTEMBER FY 2005-SEPTEMBER
 CUST                Other Financing Sources                            F               C                              (2,282,395)       (2,034,864)
                                                                                        Variance:                              0                    0


     TP     Trading Partner Name                    FY 2006-SEPTEMBER           FY 2005-SEPTEMBER                FY 2005-             FY 2005-
                                                                                                             SEPTEMBER Prev.       SEPTEMBER Line
                                                                                                                   Rpt.               item chgs.
     1200   Department of Agriculture                                      5                           4                       0                  4
     1400   Department of the Interior                                  (248)                       (218)                      0               (218)
     1500   Department of Justice                                          1                          (2)                      0                 (2)
     1601   Department of Labor                                           75                          72                       0                 72
     1800   United States Postal Service                                   1                           0                       0                  0
     1900   Department of State                                            0                           9                       0                  9
     2400   Office of Personnel Management                                 5                          50                       0                 50


             * I = Inactive                                                       -4-
                                                       U.S.Department of the Treasury                                     11/16/2006
                                                       Financial Management Service
                                                   Governmentwide Financial Report System

                                                GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION              Fiscal Year: 2006                       Period: SEPTEMBER


Entity:     2000 - Department of the Treasury                Reported in: MILLIONS             Decimal Point: ZERO




     2800   Social Security Administration                   649                       581               0                 581
     3600   Department of Veteran Affairs                     22                        20               0                  20
     4700   General Services Administration                    5                        23               0                  23
     6900   Department of Transportation                       2                         4               0                   4
     7000   Department of Homeland Security                    8                         2               0                   2
     7300   Small Business Administration                      1                         3               0                   3
     7500   Department of Health and Human                   158                       143               0                 143
            Services
     8000   National Aeronautics and Space                      7                         0              0                    0
            Administration
     9500   Independent and Other Agencies                      0                         3              0                    3
     9900   Treasury General Fund                      (2,283,112)               (2,035,637)             0           (2,035,637)
     DE00   Department of Defense                              26                        79              0                   79
                                      Total             2,282,395                2,034,864               0           (2,034,864)




             * I = Inactive                                          -5-
                                                                                                                                                11/16/2006 11:55:49

                                                                U.S.Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                  GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                              Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                             Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Fund Balance                                                   Account Type: A                                     F/N: F

                                                                          FY 2006-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Fund Balance with Treasury              FR                   71,153                                                   11/02/2006 11:19:59    DGEIGER

F         Fund Balance                  Entity                                             71,153                    0    11/02/2006 11:19:59    DGEIGER


                                                                          FY 2005-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Fund Balance with Treasury              FR                   66,334                                                   11/02/2006 11:19:59    DGEIGER

F         Fund Balance                  Entity                                             66,334                    0    11/02/2006 11:19:59    DGEIGER




                                                                              - 1 -
                                                                                                                                                     11/16/2006 11:55:49

                                                                    U.S.Department of the Treasury
                                                                     Financial Management Service
                                                                Governmentwide Financial Report System


                                                      GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                   Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                  Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Loans and Interest Receivable                                       Account Type: A                                     F/N: F

                                                                               FY 2006-SEPTEMBER
F/N Line Item Description                 FR/Entity          Debit                   Credit                    Variance             Date/Time               UserId

F   Interest Receivable                      FR                       1,971                                                    11/02/2006 11:20:59    DGEIGER
F   Loans Receivable                         FR                      243,235                                                   11/02/2006 11:20:59    DGEIGER

F         Loans and Interest Receivable    Entity                                              245,206                    0    11/02/2006 11:20:59    DGEIGER


                                                                               FY 2005-SEPTEMBER
F/N Line Item Description                 FR/Entity          Debit                   Credit                    Variance             Date/Time               UserId

F   Interest Receivable                      FR                        1,463                                                   11/02/2006 11:20:59    DGEIGER
F   Loans Receivable                         FR                      227,028                                                   11/02/2006 11:20:59    DGEIGER

F         Loans and Interest Receivable    Entity                                              228,491                    0    11/02/2006 11:20:59    DGEIGER




                                                                                   - 2 -
                                                                                                                                                        11/16/2006 11:55:49

                                                                        U.S.Department of the Treasury
                                                                         Financial Management Service
                                                                    Governmentwide Financial Report System


                                                          GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                      Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                     Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Advances to the Black Lung Trust Fund                                  Account Type: A                                     F/N: F

                                                                                 FY 2006-SEPTEMBER
F/N Line Item Description                     FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Loans Receivable                             FR                      9,632                                                    11/02/2006 15:10:06    DGEIGER

F          Advances to the Black Lung Trust    Entity                                               9,632                    0    11/02/2006 15:10:06    DGEIGER
    Fund

                                                                                 FY 2005-SEPTEMBER
F/N Line Item Description                     FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Loans Receivable                             FR                      9,186                                                    11/02/2006 15:10:06    DGEIGER

F          Advances to the Black Lung Trust    Entity                                               9,186                    0    11/02/2006 15:10:06    DGEIGER
    Fund




                                                                                      - 3 -
                                                                                                                                                      11/16/2006 11:55:49

                                                                   U.S.Department of the Treasury
                                                                    Financial Management Service
                                                               Governmentwide Financial Report System


                                                     GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                    Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                   Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Due From the General Fund                                            Account Type: A                                     F/N: F

                                                                                FY 2006-SEPTEMBER
F/N Line Item Description                FR/Entity          Debit                     Credit                    Variance             Date/Time               UserId

F   Other Assets (without reciprocals)      FR                      8,540,195                                                   11/02/2006 15:10:41    DGEIGER

F         Due From the General Fund       Entity                                               8,540,195                   0    11/02/2006 15:10:41    DGEIGER


                                                                                FY 2005-SEPTEMBER
F/N Line Item Description                FR/Entity          Debit                     Credit                    Variance             Date/Time               UserId

F   Other Assets (without reciprocals)      FR                      7,978,081                                                   11/02/2006 15:10:41    DGEIGER

F         Due From the General Fund       Entity                                               7,978,081                   0    11/02/2006 15:10:41    DGEIGER




                                                                                    - 4 -
                                                                                                                                                      11/16/2006 11:55:49

                                                                      U.S.Department of the Treasury
                                                                       Financial Management Service
                                                                  Governmentwide Financial Report System


                                                        GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                    Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                   Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Accounts Receivable and Related Interest                             Account Type: A                                     F/N: F

                                                                               FY 2006-SEPTEMBER
F/N Line Item Description                   FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Accounts Receivable                        FR                        483                                                    11/03/2006 14:15:30    DGEIGER

F         Accounts Receivable and Related    Entity                                                483                     0    11/03/2006 14:15:30    DGEIGER
    Interest

                                                                               FY 2005-SEPTEMBER
F/N Line Item Description                   FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Accounts Receivable                        FR                        626                                                    11/03/2006 14:15:30    DGEIGER

F         Accounts Receivable and Related    Entity                                                626                     0    11/03/2006 14:15:30    DGEIGER
    Interest




                                                                                    - 5 -
                                                                                                                                                      11/16/2006 11:55:49

                                                                      U.S.Department of the Treasury
                                                                       Financial Management Service
                                                                  Governmentwide Financial Report System


                                                        GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                    Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                   Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Other Intra-governmental Assets                                      Account Type: A                                     F/N: F

                                                                               FY 2006-SEPTEMBER
F/N Line Item Description                   FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Advances to Others and Prepayments         FR                        78                                                     11/02/2006 15:14:55    DGEIGER

F         Other Intra-governmental Assets    Entity                                                 78                     0    11/02/2006 15:14:55    DGEIGER


                                                                               FY 2005-SEPTEMBER
F/N Line Item Description                   FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Advances to Others and Prepayments         FR                        40                                                     11/02/2006 15:14:55    DGEIGER

F         Other Intra-governmental Assets    Entity                                                 40                     0    11/02/2006 15:14:55    DGEIGER




                                                                                    - 6 -
                                                                                                                                                    11/16/2006 11:55:49

                                                                    U.S.Department of the Treasury
                                                                     Financial Management Service
                                                                Governmentwide Financial Report System


                                                      GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                  Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                 Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Cash, Foreign Currency & Other Monetary Assets                     Account Type: A                                     F/N: N

                                                                              FY 2006-SEPTEMBER
F/N Line Item Description                 FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Cash and Other Monetary Assets           FR                      63,813                                                   11/02/2006 15:17:15    DGEIGER
N   Accounts and Taxes Receivable            FR                         79                                                    11/02/2006 15:17:15    DGEIGER

N        Cash, Foreign Currency & Other    Entity                                              63,892                    0    11/02/2006 15:17:15    DGEIGER
    Monetary Assets

                                                                              FY 2005-SEPTEMBER
F/N Line Item Description                 FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Accounts and Taxes Receivable            FR                         55                                                    11/02/2006 15:17:15    DGEIGER
N   Cash and Other Monetary Assets           FR                      47,523                                                   11/02/2006 15:17:15    DGEIGER
N   Other Assets                             FR                                                                               11/02/2006 15:17:15    DGEIGER

N        Cash, Foreign Currency & Other    Entity                                              47,578                    0    11/02/2006 15:17:15    DGEIGER
    Monetary Assets




                                                                                  - 7 -
                                                                                                                                                11/16/2006 11:55:49

                                                                U.S.Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                  GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                              Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                             Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Gold and Silver Reserves                                       Account Type: A                                     F/N: N

                                                                          FY 2006-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Cash and Other Monetary Assets          FR                   11,062                                                   11/12/2006 11:46:42    JMCANDRE

N         Gold and Silver Reserves      Entity                                             11,062                    0    11/12/2006 11:46:42    JMCANDRE


                                                                          FY 2005-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Cash and Other Monetary Assets          FR                   10,933                                                   11/12/2006 11:46:42    JMCANDRE

N         Gold and Silver Reserves      Entity                                             10,933                    0    11/12/2006 11:46:42    JMCANDRE




                                                                              - 8 -
                                                                                                                                                    11/16/2006 11:55:49

                                                                    U.S.Department of the Treasury
                                                                     Financial Management Service
                                                                Governmentwide Financial Report System


                                                      GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                  Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                 Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Loans and Interest Receivable                                      Account Type: A                                     F/N: N

                                                                             FY 2006-SEPTEMBER
F/N Line Item Description                 FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Loans Receivable                         FR                        288                                                    11/02/2006 15:17:47    DGEIGER

N         Loans and Interest Receivable    Entity                                                288                     0    11/02/2006 15:17:47    DGEIGER


                                                                             FY 2005-SEPTEMBER
F/N Line Item Description                 FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Loans Receivable                         FR                        670                                                    11/02/2006 15:17:47    DGEIGER

N         Loans and Interest Receivable    Entity                                                670                     0    11/02/2006 15:17:47    DGEIGER




                                                                                  - 9 -
                                                                                                                                                       11/16/2006 11:55:49

                                                                       U.S.Department of the Treasury
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System


                                                         GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                     Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                    Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Investments and Related Interest                                      Account Type: A                                     F/N: N

                                                                                FY 2006-SEPTEMBER
F/N Line Item Description                    FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Securities and Investments                  FR                      9,325                                                    11/02/2006 15:18:05    DGEIGER

N         Investments and Related Interest    Entity                                               9,325                    0    11/02/2006 15:18:05    DGEIGER


                                                                                FY 2005-SEPTEMBER
F/N Line Item Description                    FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Securities and Investments                  FR                      9,404                                                    11/02/2006 15:18:05    DGEIGER

N         Investments and Related Interest    Entity                                               9,404                    0    11/02/2006 15:18:05    DGEIGER




                                                                                    - 10 -
                                                                                                                                                       11/16/2006 11:55:49

                                                                       U.S.Department of the Treasury
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System


                                                         GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                     Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                    Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Reserve Position in International Monetary Fund                       Account Type: A                                     F/N: N

                                                                                 FY 2006-SEPTEMBER
F/N Line Item Description                    FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Cash and Other Monetary Assets              FR                       6,621                                                   11/02/2006 15:18:48    DGEIGER

N        Reserve Position in International    Entity                                               6,621                    0    11/02/2006 15:18:48    DGEIGER
    Monetary Fund

                                                                                 FY 2005-SEPTEMBER
F/N Line Item Description                    FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Cash and Other Monetary Assets              FR                      13,247                                                   11/02/2006 15:18:48    DGEIGER

N        Reserve Position in International    Entity                                              13,247                    0    11/02/2006 15:18:48    DGEIGER
    Monetary Fund




                                                                                    - 11 -
                                                                                                                                                              11/16/2006 11:55:49

                                                                              U.S.Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System


                                                                GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                            Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                           Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Investments in International Financial Institutions                          Account Type: A                                     F/N: N

                                                                                       FY 2006-SEPTEMBER
F/N Line Item Description                           FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Assets                                       FR                      5,488                                                    11/02/2006 15:19:11    DGEIGER

N          Investments in International Financial    Entity                                               5,488                    0    11/02/2006 15:19:11    DGEIGER
    Institutions

                                                                                       FY 2005-SEPTEMBER
F/N Line Item Description                           FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Assets                                       FR                      5,464                                                    11/02/2006 15:19:11    DGEIGER

N          Investments in International Financial    Entity                                               5,464                    0    11/02/2006 15:19:11    DGEIGER
    Institutions




                                                                                           - 12 -
                                                                                                                                                        11/16/2006 11:55:49

                                                                        U.S.Department of the Treasury
                                                                         Financial Management Service
                                                                    Governmentwide Financial Report System


                                                          GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                      Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                     Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Tax/Trade, Other Receivables, and Related Interest, Net                Account Type: A                                     F/N: N

                                                                                  FY 2006-SEPTEMBER
F/N Line Item Description                     FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Accounts and Taxes Receivable                FR                      21,962                                                   11/02/2006 15:19:34    DGEIGER

N         Tax/Trade, Other Receivables, and    Entity                                              21,962                    0    11/02/2006 15:19:34    DGEIGER
    Related Interest, Net

                                                                                  FY 2005-SEPTEMBER
F/N Line Item Description                     FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Accounts and Taxes Receivable                FR                      21,430                                                   11/02/2006 15:19:34    DGEIGER

N         Tax/Trade, Other Receivables, and    Entity                                              21,430                    0    11/02/2006 15:19:34    DGEIGER
    Related Interest, Net




                                                                                     - 13 -
                                                                                                                                                          11/16/2006 11:55:49

                                                                          U.S.Department of the Treasury
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System


                                                            GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                        Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                       Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Inventory and Related Property, Net                                      Account Type: A                                     F/N: N

                                                                                   FY 2006-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Inventory and Related Property                 FR                        389                                                    11/12/2006 11:47:08    JMCANDRE

N         Inventory and Related Property, Net    Entity                                                389                     0    11/12/2006 11:47:08    JMCANDRE


                                                                                   FY 2005-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Inventory and Related Property                 FR                        468                                                    11/12/2006 11:47:08    JMCANDRE

N         Inventory and Related Property, Net    Entity                                                468                     0    11/12/2006 11:47:08    JMCANDRE




                                                                                       - 14 -
                                                                                                                                                         11/16/2006 11:55:49

                                                                         U.S.Department of the Treasury
                                                                          Financial Management Service
                                                                     Governmentwide Financial Report System


                                                           GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                       Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                      Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Property, Plant and Equipment, Net                                      Account Type: A                                     F/N: N

                                                                                  FY 2006-SEPTEMBER
F/N Line Item Description                      FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Property, Plant and Equipment                 FR                      2,182                                                    11/02/2006 15:20:19    DGEIGER

N         Property, Plant and Equipment, Net    Entity                                               2,182                    0    11/02/2006 15:20:19    DGEIGER


                                                                                  FY 2005-SEPTEMBER
F/N Line Item Description                      FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Property, Plant and Equipment                 FR                      2,398                                                    11/02/2006 15:20:19    DGEIGER

N         Property, Plant and Equipment, Net    Entity                                               2,398                    0    11/02/2006 15:20:19    DGEIGER




                                                                                      - 15 -
                                                                                                                                                11/16/2006 11:55:49

                                                                U.S.Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                  GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                              Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                             Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Other Assets                                                   Account Type: A                                     F/N: N

                                                                         FY 2006-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Assets                            FR                     22                                                     11/03/2006 14:16:13    DGEIGER

N         Other Assets                  Entity                                                22                     0    11/03/2006 14:16:13    DGEIGER


                                                                         FY 2005-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Assets                            FR                     22                                                     11/03/2006 14:16:13    DGEIGER

N         Other Assets                  Entity                                                22                     0    11/03/2006 14:16:13    DGEIGER




                                                                             - 16 -
                                                                                                                                                           11/16/2006 11:55:49

                                                                        U.S.Department of the Treasury
                                                                         Financial Management Service
                                                                    Governmentwide Financial Report System


                                                          GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                         Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                        Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Federal Debt and Interest Payable                                         Account Type: L                                     F/N: F

                                                                                     FY 2006-SEPTEMBER
F/N Line Item Description                     FR/Entity          Debit                     Credit                    Variance             Date/Time               UserId

F   Federal Debt                                 FR                                                 3,627,439                        11/02/2006 15:23:20    DGEIGER
F   Interest Payable                             FR                                                   45,678                         11/02/2006 15:23:20    DGEIGER

F         Federal Debt and Interest Payable    Entity                    3,673,117                                              0    11/02/2006 15:23:20    DGEIGER


                                                                                     FY 2005-SEPTEMBER
F/N Line Item Description                     FR/Entity          Debit                     Credit                    Variance             Date/Time               UserId

F   Federal Debt                                 FR                                                 3,311,707                        11/02/2006 15:23:20    DGEIGER
F   Interest Payable                             FR                                                   43,198                         11/02/2006 15:23:20    DGEIGER

F         Federal Debt and Interest Payable    Entity                    3,354,905                                              0    11/02/2006 15:23:20    DGEIGER




                                                                                        - 17 -
                                                                                                                                                      11/16/2006 11:55:49

                                                                      U.S.Department of the Treasury
                                                                       Financial Management Service
                                                                  Governmentwide Financial Report System


                                                        GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                    Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                   Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Other Debt and Interest Payable                                      Account Type: L                                     F/N: F

                                                                                FY 2006-SEPTEMBER
F/N Line Item Description                   FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Interest Payable                           FR                                                  164                          11/02/2006 15:24:15    DGEIGER
F   Federal Debt                               FR                                                14,000                         11/02/2006 15:24:15    DGEIGER

F         Other Debt and Interest Payable    Entity                    14,164                                              0    11/02/2006 15:24:15    DGEIGER


                                                                                FY 2005-SEPTEMBER
F/N Line Item Description                   FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Interest Payable                           FR                                                  164                          11/02/2006 15:24:15    DGEIGER
F   Federal Debt                               FR                                                14,000                         11/02/2006 15:24:15    DGEIGER

F         Other Debt and Interest Payable    Entity                    14,164                                              0    11/02/2006 15:24:15    DGEIGER




                                                                                   - 18 -
                                                                                                                                                         11/16/2006 11:55:49

                                                                        U.S.Department of the Treasury
                                                                         Financial Management Service
                                                                    Governmentwide Financial Report System


                                                          GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                       Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                      Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Due to the General Fund                                                 Account Type: L                                     F/N: F

                                                                                   FY 2006-SEPTEMBER
F/N Line Item Description                     FR/Entity          Debit                   Credit                    Variance             Date/Time               UserId

F   Other Liabilities (without reciprocals)      FR                                                306,352                         11/12/2006 11:47:58    JMCANDRE

F         Due to the General Fund              Entity                    306,352                                              0    11/12/2006 11:47:58    JMCANDRE


                                                                                   FY 2005-SEPTEMBER
F/N Line Item Description                     FR/Entity          Debit                   Credit                    Variance             Date/Time               UserId

F   Other Liabilities (without reciprocals)      FR                                                273,551                         11/12/2006 11:47:58    JMCANDRE

F         Due to the General Fund              Entity                    273,551                                              0    11/12/2006 11:47:58    JMCANDRE




                                                                                      - 19 -
                                                                                                                                                           11/16/2006 11:55:49

                                                                           U.S.Department of the Treasury
                                                                            Financial Management Service
                                                                       Governmentwide Financial Report System


                                                             GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                         Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                        Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Other Intra-governmental Liabilities                                      Account Type: L                                     F/N: F

                                                                                    FY 2006-SEPTEMBER
F/N Line Item Description                        FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Accounts Payable                                FR                                                   92                          11/02/2006 15:39:28    DGEIGER
F   Advances from Others and Deferred Credits       FR                                                   36                          11/02/2006 15:39:28    DGEIGER
F   Other Liabilities (without reciprocals)         FR                          3                                                    11/02/2006 15:39:28    DGEIGER
F   Benefit Program Contributions Payable           FR                                                  176                          11/02/2006 15:39:28    DGEIGER

F         Other Intra-governmental Liabilities    Entity                      301                                               0    11/02/2006 15:39:28    DGEIGER


                                                                                    FY 2005-SEPTEMBER
F/N Line Item Description                        FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Accounts Payable                                FR                                                  211                          11/02/2006 15:39:28    DGEIGER
F   Advances from Others and Deferred Credits       FR                                                   42                          11/02/2006 15:39:28    DGEIGER
F   Other Liabilities (without reciprocals)         FR                          2                                                    11/02/2006 15:39:28    DGEIGER
F   Benefit Program Contributions Payable           FR                                                  171                          11/02/2006 15:39:28    DGEIGER

F         Other Intra-governmental Liabilities    Entity                      422                                               0    11/02/2006 15:39:28    DGEIGER




                                                                                        - 20 -
                                                                                                                                                              11/16/2006 11:55:49

                                                                           U.S.Department of the Treasury
                                                                            Financial Management Service
                                                                       Governmentwide Financial Report System


                                                             GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                            Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                           Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Federal Debt and Interest Payable                                            Account Type: L                                     F/N: N

                                                                                        FY 2006-SEPTEMBER
F/N Line Item Description                        FR/Entity          Debit                     Credit                    Variance             Date/Time               UserId

N   Federal Debt Securities Held by the Public      FR                                                 4,844,074                        11/02/2006 15:25:11    DGEIGER

N         Federal Debt and Interest Payable       Entity                    4,844,074                                              0    11/02/2006 15:25:11    DGEIGER


                                                                                        FY 2005-SEPTEMBER
F/N Line Item Description                        FR/Entity          Debit                     Credit                    Variance             Date/Time               UserId

N   Federal Debt Securities Held by the Public      FR                                                 4,600,668                        11/02/2006 15:25:11    DGEIGER

N         Federal Debt and Interest Payable       Entity                    4,600,668                                              0    11/02/2006 15:25:11    DGEIGER




                                                                                           - 21 -
                                                                                                                                                               11/16/2006 11:55:49

                                                                               U.S.Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System


                                                                 GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                             Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                            Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Certificates Issued to Federal Reserve Banks                                  Account Type: L                                     F/N: N

                                                                                        FY 2006-SEPTEMBER
F/N Line Item Description                            FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Liabilities                                   FR                                                 2,200                         11/02/2006 15:25:38    DGEIGER

N        Certificates Issued to Federal               Entity                    2,200                                               0    11/02/2006 15:25:38    DGEIGER
    Reserve Banks

                                                                                        FY 2005-SEPTEMBER
F/N Line Item Description                            FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Liabilities                                   FR                                                 2,200                         11/02/2006 15:25:38    DGEIGER

N           Certificates Issued to Federal Reserve    Entity                    2,200                                               0    11/02/2006 15:25:38    DGEIGER
    Banks




                                                                                            - 22 -
                                                                                                                                                           11/16/2006 11:55:49

                                                                           U.S.Department of the Treasury
                                                                            Financial Management Service
                                                                       Governmentwide Financial Report System


                                                             GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                         Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                        Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Allocation of Special Drawing Rights                                      Account Type: L                                     F/N: N

                                                                                    FY 2006-SEPTEMBER
F/N Line Item Description                        FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Liabilities                               FR                                                 7,234                         11/02/2006 15:25:56    DGEIGER

N         Allocation of Special Drawing Rights    Entity                    7,234                                               0    11/02/2006 15:25:56    DGEIGER


                                                                                    FY 2005-SEPTEMBER
F/N Line Item Description                        FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Liabilities                               FR                                                 7,102                         11/02/2006 15:25:56    DGEIGER

N         Allocation of Special Drawing Rights    Entity                    7,102                                               0    11/02/2006 15:25:56    DGEIGER




                                                                                        - 23 -
                                                                                                                                                         11/16/2006 11:55:49

                                                                         U.S.Department of the Treasury
                                                                          Financial Management Service
                                                                     Governmentwide Financial Report System


                                                           GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                       Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                      Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Gold Certificates Issued to Federal Reserve Banks                       Account Type: L                                     F/N: N

                                                                                   FY 2006-SEPTEMBER
F/N Line Item Description                      FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Liabilities                             FR                                                11,037                         11/12/2006 11:48:59    JMCANDRE

N        Gold Certificates Issued to Federal    Entity                    11,037                                              0    11/12/2006 11:48:59    JMCANDRE
    Reserve Banks

                                                                                   FY 2005-SEPTEMBER
F/N Line Item Description                      FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Liabilities                             FR                                                10,924                         11/12/2006 11:48:59    JMCANDRE

N        Gold Certificates Issued to Federal    Entity                    10,924                                              0    11/12/2006 11:48:59    JMCANDRE
    Reserve Banks




                                                                                      - 24 -
                                                                                                                                                11/16/2006 11:55:49

                                                                U.S.Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                  GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                              Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                             Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Refunds                                                        Account Type: L                                     F/N: N

                                                                         FY 2006-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Liabilities                       FR                                              1,701                         11/02/2006 15:26:38    DGEIGER

N         Refunds                       Entity                   1,701                                               0    11/02/2006 15:26:38    DGEIGER


                                                                         FY 2005-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Liabilities                       FR                                              1,952                         11/02/2006 15:26:38    DGEIGER

N         Refunds                       Entity                   1,952                                               0    11/02/2006 15:26:38    DGEIGER




                                                                             - 25 -
                                                                                                                                                11/16/2006 11:55:49

                                                                U.S.Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                  GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                              Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                             Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: DC Pension Liability                                           Account Type: L                                     F/N: N

                                                                         FY 2006-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Liabilities                       FR                                              9,068                         11/02/2006 15:27:31    DGEIGER

N         DC Pension Liability           Entity                  9,068                                               0    11/02/2006 15:27:31    DGEIGER


                                                                         FY 2005-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Liabilities                       FR                                              8,511                         11/02/2006 15:27:31    DGEIGER

N         DC Pension Liability           Entity                  8,511                                               0    11/02/2006 15:27:31    DGEIGER




                                                                             - 26 -
                                                                                                                                                      11/16/2006 11:55:49

                                                                      U.S.Department of the Treasury
                                                                       Financial Management Service
                                                                  Governmentwide Financial Report System


                                                        GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                    Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                   Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Other Liabilities                                                    Account Type: L                                     F/N: N

                                                                               FY 2006-SEPTEMBER
F/N Line Item Description                   FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Federal Employee and Veteran Benefits      FR                                                  635                          11/02/2006 15:29:37    DGEIGER
    Payable
N   Insurance Programs                         FR                                                   13                          11/02/2006 15:29:37    DGEIGER
N   Accounts Payable                           FR                                                  704                          11/02/2006 15:29:37    DGEIGER
N   Other Liabilities                          FR                                                 2,464                         11/02/2006 15:29:37    DGEIGER

N         Other Liabilities                  Entity                    3,816                                               0    11/02/2006 15:29:37    DGEIGER


                                                                               FY 2005-SEPTEMBER
F/N Line Item Description                   FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Loan Guarantee Liabilities                 FR                                                  555                          11/02/2006 15:29:37    DGEIGER
N   Federal Employee and Veteran Benefits      FR                                                  684                          11/02/2006 15:29:37    DGEIGER
    Payable
N   Insurance Programs                         FR                                                   12                          11/02/2006 15:29:37    DGEIGER
N   Accounts Payable                           FR                                                  495                          11/02/2006 15:29:37    DGEIGER
N   Other Liabilities                          FR                                                 2,919                         11/02/2006 15:29:37    DGEIGER

N         Other Liabilities                  Entity                    4,665                                               0    11/02/2006 15:29:37    DGEIGER




                                                                                   - 27 -
                                                                                                                                                 11/16/2006 11:55:49

                                                                 U.S.Department of the Treasury
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System


                                                   GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                               Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                              Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Unexpended Appropriations - Earmarked Funds                     Account Type: E                                     F/N: B

                                                                          FY 2006-SEPTEMBER
F/N Line Item Description              FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

B   Net Position-Earmarked Funds            FR                                                202                          11/02/2006 15:35:13    DGEIGER

B        Unexpended Appropriations -    Entity                      202                                               0    11/02/2006 15:35:13    DGEIGER
    Earmarked Funds

                                                                          FY 2005-SEPTEMBER
F/N Line Item Description              FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

B        Unexpended Appropriations -    Entity                        0                         0                     0    11/02/2006 15:35:13    DGEIGER
    Earmarked Funds




                                                                              - 28 -
                                                                                                                                                         11/16/2006 11:55:49

                                                                         U.S.Department of the Treasury
                                                                          Financial Management Service
                                                                     Governmentwide Financial Report System


                                                           GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                       Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                      Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Unexpended Appropriations - All Other Funds                             Account Type: E                                     F/N: B

                                                                                   FY 2006-SEPTEMBER
F/N Line Item Description                      FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

B   Net Position-General Government               FR                                                68,068                         11/02/2006 16:24:50    DGEIGER

B         Unexpended Appropriations - All       Entity                    68,068                                              0    11/02/2006 16:24:50    DGEIGER
    Other Funds

                                                                                   FY 2005-SEPTEMBER
F/N Line Item Description                      FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

B   Net Position-Earmarked Funds                  FR                                                                               11/02/2006 16:24:50    DGEIGER
B   Net Position-Earmarked Funds and General      FR                                                63,182                         11/02/2006 16:24:50    DGEIGER
    Government
B         Unexpended Appropriations - All       Entity                    63,182                                              0    11/02/2006 16:24:50    DGEIGER
    Other Funds




                                                                                      - 29 -
                                                                                                                                                        11/16/2006 11:55:49

                                                                        U.S.Department of the Treasury
                                                                         Financial Management Service
                                                                    Governmentwide Financial Report System


                                                          GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                      Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                     Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Cumulative Results of Operations - Earmarked Funds                     Account Type: E                                     F/N: B

                                                                                  FY 2006-SEPTEMBER
F/N Line Item Description                     FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

B   Net Position-Earmarked Funds                 FR                                                31,614                         11/02/2006 15:34:59    DGEIGER

B        Cumulative Results of Operations -    Entity                    31,614                                              0    11/02/2006 15:34:59    DGEIGER
    Earmarked Funds

                                                                                  FY 2005-SEPTEMBER
F/N Line Item Description                     FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

B        Cumulative Results of Operations -    Entity                         0                         0                    0    11/02/2006 15:34:59    DGEIGER
    Earmarked Funds




                                                                                     - 30 -
                                                                                                                                                          11/16/2006 11:55:49

                                                                          U.S.Department of the Treasury
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System


                                                            GF003 - Reclassification Journal Voucher Report by Line Item

Statement: BALANCE SHEET                                                                        Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                       Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Cumulative Results of Operations - All Other Funds                       Account Type: E                                     F/N: B

                                                                                    FY 2006-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

B   Net Position-General Government                FR                                                15,030                         11/02/2006 16:25:21    DGEIGER

B          Cumulative Results of Operations -    Entity                    15,030                                              0    11/02/2006 16:25:21    DGEIGER
    All Other Funds

                                                                                    FY 2005-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

B   Net Position-Earmarked Funds and General       FR                                                52,126                         11/02/2006 16:25:21    DGEIGER
    Government
B   Net Position-Earmarked Funds                   FR                                                                               11/02/2006 16:25:21    DGEIGER

B          Cumulative Results of Operations -    Entity                    52,126                                              0    11/02/2006 16:25:21    DGEIGER
    All Other Funds




                                                                                       - 31 -
                                                                                                                                                             11/16/2006 11:55:49

                                                                          U.S.Department of the Treasury
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System


                                                            GF003 - Reclassification Journal Voucher Report by Line Item

Statement: CUSTODIAL ACTIVITY                                                                      Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                          Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Individual Income and FICA Taxes                                            Account Type: F                                     F/N: N

                                                                                       FY 2006-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                     Credit                    Variance             Date/Time               UserId

N   Individual Income Tax and Tax Witholdings      FR                                                 2,034,209                        11/02/2006 15:58:40    DGEIGER

N         Individual Income and FICA Taxes       Entity                    2,034,209                                              0    11/02/2006 15:58:40    DGEIGER


                                                                                       FY 2005-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                     Credit                    Variance             Date/Time               UserId

N   Individual Income Tax and Tax Witholdings      FR                                                 1,864,687                        11/02/2006 15:58:40    DGEIGER

N         Individual Income and FICA Taxes       Entity                    1,864,687                                              0    11/02/2006 15:58:40    DGEIGER




                                                                                          - 32 -
                                                                                                                                                 11/16/2006 11:55:49

                                                                U.S.Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                  GF003 - Reclassification Journal Voucher Report by Line Item

Statement: CUSTODIAL ACTIVITY                                                          Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                              Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Corporate Income Taxes                                          Account Type: F                                     F/N: N

                                                                           FY 2006-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                    Variance             Date/Time               UserId

N   Corporation Income Taxes                FR                                             380,426                         11/02/2006 15:58:53    DGEIGER

N         Corporate Income Taxes        Entity                   380,426                                              0    11/02/2006 15:58:53    DGEIGER


                                                                           FY 2005-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                    Variance             Date/Time               UserId

N   Corporation Income Taxes                FR                                             306,869                         11/02/2006 15:58:53    DGEIGER

N         Corporate Income Taxes        Entity                   306,869                                              0    11/02/2006 15:58:53    DGEIGER




                                                                              - 33 -
                                                                                                                                                11/16/2006 11:55:49

                                                                U.S.Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                  GF003 - Reclassification Journal Voucher Report by Line Item

Statement: CUSTODIAL ACTIVITY                                                         Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                             Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Estate and Gift Taxes                                          Account Type: F                                     F/N: N

                                                                          FY 2006-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Estate and Gift Taxes                   FR                                             28,688                         11/02/2006 15:59:06    DGEIGER

N         Estate and Gift Taxes         Entity                   28,688                                              0    11/02/2006 15:59:06    DGEIGER


                                                                          FY 2005-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Estate and Gift Taxes                   FR                                             25,605                         11/02/2006 15:59:06    DGEIGER

N         Estate and Gift Taxes         Entity                   25,605                                              0    11/02/2006 15:59:06    DGEIGER




                                                                             - 34 -
                                                                                                                                                11/16/2006 11:55:49

                                                                U.S.Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                  GF003 - Reclassification Journal Voucher Report by Line Item

Statement: CUSTODIAL ACTIVITY                                                         Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                             Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Excise Taxes                                                   Account Type: F                                     F/N: N

                                                                          FY 2006-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Excise Taxes                            FR                                             72,774                         11/03/2006 14:14:09    DGEIGER

N         Excise Taxes                  Entity                   72,774                                              0    11/03/2006 14:14:09    DGEIGER


                                                                          FY 2005-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Excise Taxes                            FR                                             71,970                         11/03/2006 14:14:09    DGEIGER

N         Excise Taxes                  Entity                   71,970                                              0    11/03/2006 14:14:09    DGEIGER




                                                                             - 35 -
                                                                                                                                                11/16/2006 11:55:49

                                                                U.S.Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                  GF003 - Reclassification Journal Voucher Report by Line Item

Statement: CUSTODIAL ACTIVITY                                                         Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                             Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Railroad Retirement Taxes                                      Account Type: F                                     F/N: N

                                                                         FY 2006-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Taxes and Receipts                FR                                              4,673                         11/02/2006 16:00:10    DGEIGER

N         Railroad Retirement Taxes     Entity                   4,673                                               0    11/02/2006 16:00:10    DGEIGER


                                                                         FY 2005-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Taxes and Receipts                FR                                              4,539                         11/02/2006 16:00:10    DGEIGER

N         Railroad Retirement Taxes     Entity                   4,539                                               0    11/02/2006 16:00:10    DGEIGER




                                                                             - 36 -
                                                                                                                                                11/16/2006 11:55:49

                                                                U.S.Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                  GF003 - Reclassification Journal Voucher Report by Line Item

Statement: CUSTODIAL ACTIVITY                                                         Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                             Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Unemployment Taxes                                             Account Type: F                                     F/N: N

                                                                         FY 2006-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Unemployment Taxes                      FR                                              7,533                         11/02/2006 16:00:23    DGEIGER

N         Unemployment Taxes            Entity                   7,533                                               0    11/02/2006 16:00:23    DGEIGER


                                                                         FY 2005-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Unemployment Taxes                      FR                                              6,948                         11/02/2006 16:00:23    DGEIGER

N         Unemployment Taxes            Entity                   6,948                                               0    11/02/2006 16:00:23    DGEIGER




                                                                             - 37 -
                                                                                                                                                          11/16/2006 11:55:49

                                                                          U.S.Department of the Treasury
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System


                                                            GF003 - Reclassification Journal Voucher Report by Line Item

Statement: CUSTODIAL ACTIVITY                                                                   Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                       Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Deposit of Earnings, Federal Reserve System                              Account Type: F                                     F/N: N

                                                                                    FY 2006-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Taxes and Receipts                       FR                                                29,945                         11/02/2006 16:00:43    DGEIGER

N        Deposit of Earnings, Federal Reserve    Entity                    29,945                                              0    11/02/2006 16:00:43    DGEIGER
    System

                                                                                    FY 2005-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Taxes and Receipts                       FR                                                19,297                         11/02/2006 16:00:43    DGEIGER

N        Deposit of Earnings, Federal Reserve    Entity                    19,297                                              0    11/02/2006 16:00:43    DGEIGER
    System




                                                                                       - 38 -
                                                                                                                                                        11/16/2006 11:55:49

                                                                        U.S.Department of the Treasury
                                                                         Financial Management Service
                                                                    Governmentwide Financial Report System


                                                          GF003 - Reclassification Journal Voucher Report by Line Item

Statement: CUSTODIAL ACTIVITY                                                                 Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                     Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Fines, Penalties, Interest & Other Revenue                             Account Type: F                                     F/N: B

                                                                                 FY 2006-SEPTEMBER
F/N Line Item Description                     FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Miscellaneous Earned Revenue                 FR                                                    1                          11/03/2006 14:27:34    DGEIGER
N   Other Taxes and Receipts                     FR                                                 2,298                         11/03/2006 14:27:34    DGEIGER
F   Other Financing Sources                      FR                                                 1,025                         11/03/2006 14:27:34    DGEIGER

B        Fines, Penalties, Interest & Other    Entity                    3,324                                               0    11/03/2006 14:27:34    DGEIGER
    Revenue

                                                                                 FY 2005-SEPTEMBER
F/N Line Item Description                     FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Miscellaneous Earned Revenue                 FR                                                   42                          11/03/2006 14:27:34    DGEIGER
N   Other Taxes and Receipts                     FR                                                 2,475                         11/03/2006 14:27:34    DGEIGER
F   Other Financing Sources                      FR                                                 1,035                         11/03/2006 14:27:34    DGEIGER

B        Fines, Penalties, Interest & Other    Entity                    3,552                                               0    11/03/2006 14:27:34    DGEIGER
    Revenue




                                                                                     - 39 -
                                                                                                                                                           11/16/2006 11:55:49

                                                                          U.S.Department of the Treasury
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System


                                                            GF003 - Reclassification Journal Voucher Report by Line Item

Statement: CUSTODIAL ACTIVITY                                                                    Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                        Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Less Refunds & Other Custodial Expenses                                   Account Type: F                                     F/N: N

                                                                                     FY 2006-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                   Credit                    Variance             Date/Time               UserId

N   Corporation Income Taxes                       FR                      30,463                                                    11/02/2006 16:05:14    DGEIGER
N   Excise Taxes                                   FR                         703                                                    11/02/2006 16:05:14    DGEIGER
N   Other Taxes and Receipts                       FR                           3                                                    11/02/2006 16:05:14    DGEIGER
N   Individual Income Tax and Tax Witholdings      FR                      245,186                                                   11/02/2006 16:05:14    DGEIGER
N   Unemployment Taxes                             FR                         143                                                    11/02/2006 16:05:14    DGEIGER
N   Estate and Gift Taxes                          FR                       1,280                                                    11/02/2006 16:05:14    DGEIGER

N        Less Refunds & Other Custodial          Entity                                              277,778                    0    11/02/2006 16:05:14    DGEIGER
    Expenses

                                                                                     FY 2005-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                   Credit                    Variance             Date/Time               UserId

N   Corporation Income Taxes                       FR                      35,095                                                    11/02/2006 16:05:14    DGEIGER
N   Excise Taxes                                   FR                         995                                                    11/02/2006 16:05:14    DGEIGER
N   Other Taxes and Receipts                       FR                           4                                                    11/02/2006 16:05:14    DGEIGER
N   Individual Income Tax and Tax Witholdings      FR                      230,019                                                   11/02/2006 16:05:14    DGEIGER
N   Unemployment Taxes                             FR                         118                                                    11/02/2006 16:05:14    DGEIGER
N   Estate and Gift Taxes                          FR                         883                                                    11/02/2006 16:05:14    DGEIGER

N        Less Refunds & Other Custodial          Entity                                              267,114                    0    11/02/2006 16:05:14    DGEIGER
    Expenses




                                                                                        - 40 -
                                                                                                                                                          11/16/2006 11:55:49

                                                                          U.S.Department of the Treasury
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System


                                                            GF003 - Reclassification Journal Voucher Report by Line Item

Statement: CUSTODIAL ACTIVITY                                                                   Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                       Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Accrual Adjustment                                                       Account Type: F                                     F/N: N

                                                                                   FY 2006-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Individual Income Tax and Tax Witholdings      FR                                                  250                          11/02/2006 16:10:04    DGEIGER
N   Other Taxes and Receipts                       FR                                                  304                          11/02/2006 16:10:04    DGEIGER

N         Accrual Adjustment                     Entity                      554                                               0    11/02/2006 16:10:04    DGEIGER


                                                                                   FY 2005-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Taxes and Receipts                       FR                        205                                                    11/02/2006 16:10:04    DGEIGER
N   Individual Income Tax and Tax Witholdings      FR                                                  855                          11/02/2006 16:10:04    DGEIGER
N   Excise Taxes                                   FR                          7                                                    11/02/2006 16:10:04    DGEIGER

N         Accrual Adjustment                     Entity                      643                                               0    11/02/2006 16:10:04    DGEIGER




                                                                                       - 41 -
                                                                                                                                                       11/16/2006 11:55:49

                                                                       U.S.Department of the Treasury
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System


                                                         GF003 - Reclassification Journal Voucher Report by Line Item

Statement: CUSTODIAL ACTIVITY                                                                Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                    Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Amounts Provided to Non Federal Entities                              Account Type: CL                                    F/N: B

                                                                                FY 2006-SEPTEMBER
F/N Line Item Description                    FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Taxes and Receipts                    FR                          7                                                    11/02/2006 16:10:24    DGEIGER
N   Excise Taxes                                FR                        367                                                    11/02/2006 16:10:24    DGEIGER

B          Amounts Provided to Non Federal    Entity                                                374                     0    11/02/2006 16:10:24    DGEIGER
    Entities

                                                                                FY 2005-SEPTEMBER
F/N Line Item Description                    FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Taxes and Receipts                    FR                         32                                                    11/02/2006 16:10:24    DGEIGER
N   Excise Taxes                                FR                        422                                                    11/02/2006 16:10:24    DGEIGER

B          Amounts Provided to Non Federal    Entity                                                454                     0    11/02/2006 16:10:24    DGEIGER
    Entities




                                                                                    - 42 -
                                                                                                                                                     11/16/2006 11:55:49

                                                                  U.S.Department of the Treasury
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System


                                                    GF003 - Reclassification Journal Voucher Report by Line Item

Statement: CUSTODIAL ACTIVITY                                                              Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                  Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Amounts Provided to Fund the Federal Government                     Account Type: CL                                    F/N: B

                                                                               FY 2006-SEPTEMBER
F/N Line Item Description               FR/Entity          Debit                     Credit                    Variance             Date/Time               UserId

F   Other Financing Sources                 FR                     2,283,420                                                   11/02/2006 16:11:02    DGEIGER

B        Amounts Provided to Fund the    Entity                                               2,283,420                   0    11/02/2006 16:11:02    DGEIGER
    Federal Government

                                                                               FY 2005-SEPTEMBER
F/N Line Item Description               FR/Entity          Debit                     Credit                    Variance             Date/Time               UserId

F   Other Financing Sources                 FR                     2,035,899                                                   11/02/2006 16:11:02    DGEIGER

B        Amounts Provided to Fund the    Entity                                               2,035,899                   0    11/02/2006 16:11:02    DGEIGER
    Federal Government




                                                                                  - 43 -
                                                                                                                                                          11/16/2006 11:55:49

                                                                          U.S.Department of the Treasury
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System


                                                            GF003 - Reclassification Journal Voucher Report by Line Item

Statement: CUSTODIAL ACTIVITY                                                                   Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                       Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Accrual Adjustment - (See Same Line Item Above)                          Account Type: CL                                    F/N: B

                                                                                   FY 2006-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Taxes and Receipts                       FR                        304                                                    11/02/2006 16:12:00    DGEIGER
N   Individual Income Tax and Tax Witholdings      FR                        250                                                    11/02/2006 16:12:00    DGEIGER

B          Accrual Adjustment - (See Same        Entity                                                554                     0    11/02/2006 16:12:00    DGEIGER
    Line Item Above)

                                                                                   FY 2005-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Individual Income Tax and Tax Witholdings      FR                        855                                                    11/02/2006 16:12:00    DGEIGER
N   Other Taxes and Receipts                       FR                                                  205                          11/02/2006 16:12:00    DGEIGER
N   Excise Taxes                                   FR                                                    7                          11/02/2006 16:12:00    DGEIGER

B         Accrual Adjustment - (See Same Line    Entity                                                643                     0    11/02/2006 16:12:00    DGEIGER
    Item Above)




                                                                                       - 44 -
                                                                                                                                                11/16/2006 11:55:49

                                                                U.S.Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                  GF003 - Reclassification Journal Voucher Report by Line Item

Statement: STATEMENT OF CHANGES IN NET POSITION                                       Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                             Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Beginning Balance                                              Account Type: BN                                    F/N: B

                                                                          FY 2006-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

B   Beginning Net Position                  FR                                             52,126                         11/02/2006 16:27:38    DGEIGER

B         Beginning Balance             Entity                   52,126                                              0    11/02/2006 16:27:38    DGEIGER


                                                                          FY 2005-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

B   Beginning Net Position                  FR                                             56,308                         11/02/2006 16:27:38    DGEIGER

B         Beginning Balance             Entity                   56,308                                              0    11/02/2006 16:27:38    DGEIGER




                                                                             - 45 -
                                                                                                                                                 11/16/2006 11:55:49

                                                                U.S.Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                  GF003 - Reclassification Journal Voucher Report by Line Item

Statement: STATEMENT OF CHANGES IN NET POSITION                                        Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                              Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Appropriations Used                                             Account Type: F                                     F/N: B

                                                                           FY 2006-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                    Variance             Date/Time               UserId

F   Other Financing Sources                 FR                                             412,414                         11/03/2006 14:54:34    DGEIGER

B         Appropriations Used           Entity                   412,414                                              0    11/03/2006 14:54:34    DGEIGER


                                                                           FY 2005-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                    Variance             Date/Time               UserId

F   Other Financing Sources                 FR                                             362,067                         11/03/2006 14:54:34    DGEIGER

B         Appropriations Used           Entity                   362,067                                              0    11/03/2006 14:54:34    DGEIGER




                                                                              - 46 -
                                                                                                                                                11/16/2006 11:55:49

                                                                U.S.Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                  GF003 - Reclassification Journal Voucher Report by Line Item

Statement: STATEMENT OF CHANGES IN NET POSITION                                       Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                             Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Non-exchange Revenue                                           Account Type: F                                     F/N: B

                                                                         FY 2006-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Taxes and Receipts                FR                                                56                          11/02/2006 16:32:09    DGEIGER

B         Non-exchange Revenue          Entity                     56                                                0    11/02/2006 16:32:09    DGEIGER


                                                                         FY 2005-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Other Financing Sources                 FR                                                 1                          11/02/2006 16:32:09    DGEIGER
N   Other Taxes and Receipts                FR                                                35                          11/02/2006 16:32:09    DGEIGER

B         Non-exchange Revenue          Entity                     36                                                0    11/02/2006 16:32:09    DGEIGER




                                                                             - 47 -
                                                                                                                                                       11/16/2006 11:55:49

                                                                       U.S.Department of the Treasury
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System


                                                         GF003 - Reclassification Journal Voucher Report by Line Item

Statement: STATEMENT OF CHANGES IN NET POSITION                                              Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                    Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Donations and Forfeitures of Cash and Cash Equivalents                Account Type: F                                     F/N: N

                                                                                FY 2006-SEPTEMBER
F/N Line Item Description                    FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Taxes and Receipts                    FR                                                   79                          11/02/2006 16:32:51    DGEIGER

N        Donations and Forfeitures of Cash    Entity                      79                                                0    11/02/2006 16:32:51    DGEIGER
    and Cash Equivalents

                                                                                FY 2005-SEPTEMBER
F/N Line Item Description                    FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Taxes and Receipts                    FR                                                  169                          11/02/2006 16:32:51    DGEIGER

N        Donations and Forfeitures of Cash    Entity                      169                                               0    11/02/2006 16:32:51    DGEIGER
    and Cash Equivalents




                                                                                    - 48 -
                                                                                                                                                11/16/2006 11:55:49

                                                                U.S.Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                  GF003 - Reclassification Journal Voucher Report by Line Item

Statement: STATEMENT OF CHANGES IN NET POSITION                                       Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                             Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Transfers In/Out without Reimbursement                         Account Type: F                                     F/N: F

                                                                         FY 2006-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Appropriation transfers-out             FR                     28                                                     11/02/2006 16:33:35    DGEIGER

F        Transfers In/Out without       Entity                                                28                     0    11/02/2006 16:33:35    DGEIGER
    Reimbursement

                                                                         FY 2005-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Appropriation transfers-out             FR                                                                            11/02/2006 16:33:35    DGEIGER

F        Transfers In/Out without       Entity                       0                         0                     0    11/02/2006 16:33:35    DGEIGER
    Reimbursement




                                                                             - 49 -
                                                                                                                                                        11/16/2006 11:55:49

                                                                        U.S.Department of the Treasury
                                                                         Financial Management Service
                                                                    Governmentwide Financial Report System


                                                          GF003 - Reclassification Journal Voucher Report by Line Item

Statement: STATEMENT OF CHANGES IN NET POSITION                                               Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                     Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Other Budgetary Financing Sources                                      Account Type: F                                     F/N: B

                                                                                 FY 2006-SEPTEMBER
F/N Line Item Description                     FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Other Financing Sources                      FR                        49                                                     11/07/2006 10:12:42    DGEIGER

B         Other Budgetary Financing Sources    Entity                                                 49                     0    11/07/2006 10:12:42    DGEIGER


                                                                                 FY 2005-SEPTEMBER
F/N Line Item Description                     FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

B         Other Budgetary Financing Sources    Entity                        0                         0                     0    11/07/2006 10:12:42    DGEIGER




                                                                                     - 50 -
                                                                                                                                                            11/16/2006 11:55:49

                                                                            U.S.Department of the Treasury
                                                                             Financial Management Service
                                                                        Governmentwide Financial Report System


                                                              GF003 - Reclassification Journal Voucher Report by Line Item

Statement: STATEMENT OF CHANGES IN NET POSITION                                                   Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                         Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Donations and Forfeitures of Property                                      Account Type: F                                     F/N: N

                                                                                     FY 2006-SEPTEMBER
F/N Line Item Description                         FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Taxes and Receipts                         FR                                                   61                          11/02/2006 16:36:57    DGEIGER

N         Donations and Forfeitures of Property    Entity                      61                                                0    11/02/2006 16:36:57    DGEIGER


                                                                                     FY 2005-SEPTEMBER
F/N Line Item Description                         FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Other Taxes and Receipts                         FR                                                   51                          11/02/2006 16:36:57    DGEIGER

N         Donations and Forfeitures of Property    Entity                      51                                                0    11/02/2006 16:36:57    DGEIGER




                                                                                         - 51 -
                                                                                                                                                          11/16/2006 11:55:49

                                                                          U.S.Department of the Treasury
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System


                                                            GF003 - Reclassification Journal Voucher Report by Line Item

Statement: STATEMENT OF CHANGES IN NET POSITION                                                 Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                       Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Accrued Interest & Discount on the Debt                                  Account Type: F                                     F/N: F

                                                                                   FY 2006-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Other Financing Sources                        FR                                                 8,991                         11/02/2006 16:37:23    DGEIGER

F          Accrued Interest & Discount on the    Entity                    8,991                                               0    11/02/2006 16:37:23    DGEIGER
    Debt

                                                                                   FY 2005-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Other Financing Sources                        FR                                                 9,879                         11/02/2006 16:37:23    DGEIGER

F          Accrued Interest & Discount on the    Entity                    9,879                                               0    11/02/2006 16:37:23    DGEIGER
    Debt




                                                                                       - 52 -
                                                                                                                                                    11/16/2006 11:55:49

                                                                    U.S.Department of the Treasury
                                                                     Financial Management Service
                                                                Governmentwide Financial Report System


                                                      GF003 - Reclassification Journal Voucher Report by Line Item

Statement: STATEMENT OF CHANGES IN NET POSITION                                           Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                 Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Transfers In/Out without Reimbursement                             Account Type: F                                     F/N: F

                                                                             FY 2006-SEPTEMBER
F/N Line Item Description                 FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Transfers-in Without Reimbursement       FR                                                    1                          11/02/2006 16:41:15    DGEIGER
F   Transfers-out Without Reimbursement      FR                        25                                                     11/02/2006 16:41:15    DGEIGER

F        Transfers In/Out without          Entity                                                 24                     0    11/02/2006 16:41:15    DGEIGER
    Reimbursement

                                                                             FY 2005-SEPTEMBER
F/N Line Item Description                 FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Transfers-in Without Reimbursement       FR                                                    2                          11/02/2006 16:41:15    DGEIGER
F   Transfers-out Without Reimbursement      FR                        135                                                    11/02/2006 16:41:15    DGEIGER

F        Transfers In/Out without          Entity                                                133                     0    11/02/2006 16:41:15    DGEIGER
    Reimbursement




                                                                                 - 53 -
                                                                                                                                                11/16/2006 11:55:49

                                                                U.S.Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                  GF003 - Reclassification Journal Voucher Report by Line Item

Statement: STATEMENT OF CHANGES IN NET POSITION                                       Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                             Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Imputed Financing Sources                                      Account Type: F                                     F/N: F

                                                                         FY 2006-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Imputed Financing Source                FR                                               732                          11/02/2006 16:41:48    DGEIGER

F         Imputed Financing Sources     Entity                     732                                               0    11/02/2006 16:41:48    DGEIGER


                                                                         FY 2005-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Imputed Financing Source                FR                                               722                          11/02/2006 16:41:48    DGEIGER

F         Imputed Financing Sources     Entity                     722                                               0    11/02/2006 16:41:48    DGEIGER




                                                                             - 54 -
                                                                                                                                                          11/16/2006 11:55:49

                                                                          U.S.Department of the Treasury
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System


                                                            GF003 - Reclassification Journal Voucher Report by Line Item

Statement: STATEMENT OF CHANGES IN NET POSITION                                                 Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                       Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Transfers to the General Fund and Other                                  Account Type: F                                     F/N: B

                                                                                    FY 2006-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Other Financing Sources                        FR                      14,561                                                   11/02/2006 16:43:31    DGEIGER
N   Other Taxes and Receipts                       FR                                                  682                          11/02/2006 16:43:31    DGEIGER

B           Transfers to the General Fund and    Entity                                              13,879                    0    11/02/2006 16:43:31    DGEIGER
    Other

                                                                                    FY 2005-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Other Financing Sources                        FR                      12,849                                                   11/02/2006 16:43:31    DGEIGER
N   Other Taxes and Receipts                       FR                                                  745                          11/02/2006 16:43:31    DGEIGER

B           Transfers to the General Fund and    Entity                                              12,104                    0    11/02/2006 16:43:31    DGEIGER
    Other




                                                                                       - 55 -
                                                                                                                                                11/16/2006 11:55:49

                                                                U.S.Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                  GF003 - Reclassification Journal Voucher Report by Line Item

Statement: STATEMENT OF CHANGES IN NET POSITION                                       Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                             Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Beginning Balance                                              Account Type: BN                                    F/N: B

                                                                          FY 2006-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

B   Beginning Net Position                  FR                                             63,182                         11/02/2006 16:44:12    DGEIGER

B         Beginning Balance             Entity                   63,182                                              0    11/02/2006 16:44:12    DGEIGER


                                                                          FY 2005-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

B   Beginning Net Position                  FR                                             56,850                         11/02/2006 16:44:12    DGEIGER

B         Beginning Balance             Entity                   56,850                                              0    11/02/2006 16:44:12    DGEIGER




                                                                             - 56 -
                                                                                                                                                          11/16/2006 11:55:49

                                                                          U.S.Department of the Treasury
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System


                                                            GF003 - Reclassification Journal Voucher Report by Line Item

Statement: STATEMENT OF CHANGES IN NET POSITION                                                 Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                       Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Corrections of Errors                                                    Account Type: P                                     F/N: B

                                                                                   FY 2006-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

B         Corrections of Errors                  Entity                        0                         0                     0    11/03/2006 14:55:14    DGEIGER


                                                                                   FY 2005-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Non-Federal Prior Period Adjustments (Not      FR                                                   48                          11/03/2006 14:55:14    DGEIGER
    Restated)
B         Corrections of Errors                  Entity                      48                                                0    11/03/2006 14:55:14    DGEIGER




                                                                                       - 57 -
                                                                                                                                                 11/16/2006 11:55:49

                                                                U.S.Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                  GF003 - Reclassification Journal Voucher Report by Line Item

Statement: STATEMENT OF CHANGES IN NET POSITION                                        Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                              Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Appropriations Received                                         Account Type: F                                     F/N: B

                                                                           FY 2006-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                    Variance             Date/Time               UserId

F   Appropriations Received                 FR                                             417,766                         11/02/2006 16:45:25    DGEIGER

B         Appropriations Received       Entity                   417,766                                              0    11/02/2006 16:45:25    DGEIGER


                                                                           FY 2005-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                    Variance             Date/Time               UserId

F   Appropriations Received                 FR                                             369,312                         11/02/2006 16:45:25    DGEIGER

B         Appropriations Received       Entity                   369,312                                              0    11/02/2006 16:45:25    DGEIGER




                                                                              - 58 -
                                                                                                                                                          11/16/2006 11:55:49

                                                                          U.S.Department of the Treasury
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System


                                                            GF003 - Reclassification Journal Voucher Report by Line Item

Statement: STATEMENT OF CHANGES IN NET POSITION                                                 Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                       Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Appropriations Transferred In/Out                                        Account Type: F                                     F/N: B

                                                                                   FY 2006-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Unexpended Appropriations transferred in       FR                                                   14                          11/02/2006 16:46:31    DGEIGER

B         Appropriations Transferred In/Out      Entity                      14                                                0    11/02/2006 16:46:31    DGEIGER


                                                                                   FY 2005-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Unexpended Appropriations transferred in       FR                                                  415                          11/02/2006 16:46:31    DGEIGER
F   Unexpended Appropriations transferred out      FR                      1,009                                                    11/02/2006 16:46:31    DGEIGER

B         Appropriations Transferred In/Out      Entity                                                594                     0    11/02/2006 16:46:31    DGEIGER




                                                                                       - 59 -
                                                                                                                                                     11/16/2006 11:55:49

                                                                     U.S.Department of the Treasury
                                                                      Financial Management Service
                                                                 Governmentwide Financial Report System


                                                       GF003 - Reclassification Journal Voucher Report by Line Item

Statement: STATEMENT OF CHANGES IN NET POSITION                                            Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                  Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Other Adjustments                                                   Account Type: F                                     F/N: B

                                                                              FY 2006-SEPTEMBER
F/N Line Item Description                  FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Other Adjustments (recissions, etc.)      FR                        278                                                    11/02/2006 16:47:08    DGEIGER

B         Other Adjustments                 Entity                                                278                     0    11/02/2006 16:47:08    DGEIGER


                                                                              FY 2005-SEPTEMBER
F/N Line Item Description                  FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

F   Other Adjustments (recissions, etc.)      FR                        367                                                    11/02/2006 16:47:08    DGEIGER

B         Other Adjustments                 Entity                                                367                     0    11/02/2006 16:47:08    DGEIGER




                                                                                  - 60 -
                                                                                                                                                 11/16/2006 11:55:49

                                                                U.S.Department of the Treasury
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                  GF003 - Reclassification Journal Voucher Report by Line Item

Statement: STATEMENT OF CHANGES IN NET POSITION                                        Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                              Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Appropriations Used                                             Account Type: F                                     F/N: B

                                                                           FY 2006-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                    Variance             Date/Time               UserId

F   Other Financing Sources                 FR                   412,414                                                   11/02/2006 16:50:45    DGEIGER

B         Appropriations Used           Entity                                             412,414                    0    11/02/2006 16:50:45    DGEIGER


                                                                           FY 2005-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                    Variance             Date/Time               UserId

F   Other Financing Sources                 FR                   362,067                                                   11/02/2006 16:50:45    DGEIGER

B         Appropriations Used           Entity                                             362,067                    0    11/02/2006 16:50:45    DGEIGER




                                                                              - 61 -
                                                                                                                                                      11/16/2006 11:55:49

                                                                     U.S.Department of the Treasury
                                                                      Financial Management Service
                                                                 Governmentwide Financial Report System


                                                       GF003 - Reclassification Journal Voucher Report by Line Item

Statement: STATEMENT OF NET COST                                                            Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                   Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Total Gross Costs                                                    Account Type: GC                                    F/N: B

                                                                                FY 2006-SEPTEMBER
F/N Line Item Description                  FR/Entity          Debit                   Credit                    Variance             Date/Time               UserId

F   Borrowing and Other Interest Expense      FR                       5,437                                                    11/03/2006 16:04:11    DGEIGER
N   Interest on Debt Held by the Public       FR                      221,527                                                   11/03/2006 16:04:11    DGEIGER
F   Federal Securities Interest Expense       FR                      182,584                                                   11/03/2006 16:04:11    DGEIGER
N   Non-Federal Gross Cost                    FR                      19,607                                                    11/03/2006 16:04:11    DGEIGER
F   Buy/Sell Costs                            FR                       1,625                                                    11/03/2006 16:04:11    DGEIGER
F   Benefit Program Costs                     FR                       1,708                                                    11/03/2006 16:04:11    DGEIGER
F   Imputed Costs                             FR                         733                                                    11/03/2006 16:04:11    DGEIGER

B         Total Gross Costs                 Entity                                              433,221                    0    11/03/2006 16:04:11    DGEIGER


                                                                                FY 2005-SEPTEMBER
F/N Line Item Description                  FR/Entity          Debit                   Credit                    Variance             Date/Time               UserId

F   Borrowing and Other Interest Expense      FR                        4,650                                                   11/03/2006 16:04:11    DGEIGER
N   Interest on Debt Held by the Public       FR                      181,166                                                   11/03/2006 16:04:11    DGEIGER
F   Federal Securities Interest Expense       FR                      173,790                                                   11/03/2006 16:04:11    DGEIGER
N   Non-Federal Gross Cost                    FR                      19,419                                                    11/03/2006 16:04:11    DGEIGER
F   Borrowing Losses                          FR                                                                                11/03/2006 16:04:11    DGEIGER
F   Buy/Sell Costs                            FR                        1,455                                                   11/03/2006 16:04:11    DGEIGER
F   Benefit Program Costs                     FR                        1,659                                                   11/03/2006 16:04:11    DGEIGER
F   Imputed Costs                             FR                         722                                                    11/03/2006 16:04:11    DGEIGER

B         Total Gross Costs                 Entity                                              382,861                    0    11/03/2006 16:04:11    DGEIGER




                                                                                   - 62 -
                                                                                                                                                     11/16/2006 11:55:49

                                                                     U.S.Department of the Treasury
                                                                      Financial Management Service
                                                                 Governmentwide Financial Report System


                                                       GF003 - Reclassification Journal Voucher Report by Line Item

Statement: STATEMENT OF NET COST                                                           Fiscal Year: 2006                          Period: SEPTEMBER

Entity: 2000 - Department of the Treasury                                                  Reported In: MILLIONS              Decimal Point: ZERO

Agency Line Item: Total Earned Revenues                                               Account Type: ER                                    F/N: B

                                                                               FY 2006-SEPTEMBER
F/N Line Item Description                  FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Non-Federal Earned Revenue                FR                                                 4,136                         11/03/2006 16:05:50    DGEIGER
F   Borrowings Gains                          FR                                                   12                          11/03/2006 16:05:50    DGEIGER
F   Borrowing and Other Interest Revenue      FR                                                14,526                         11/03/2006 16:05:50    DGEIGER
    (Exchange)
F   Buy/Sell Revenue                          FR                                                  712                          11/03/2006 16:05:50    DGEIGER

B         Total Earned Revenues             Entity                    19,386                                              0    11/03/2006 16:05:50    DGEIGER


                                                                               FY 2005-SEPTEMBER
F/N Line Item Description                  FR/Entity          Debit                  Credit                    Variance             Date/Time               UserId

N   Non-Federal Earned Revenue                FR                                                 3,136                         11/03/2006 16:05:50    DGEIGER
F   Buy/Sell Revenue                          FR                                                  972                          11/03/2006 16:05:50    DGEIGER
F   Other Revenue (without reciprocals)       FR                         41                                                    11/03/2006 16:05:50    DGEIGER
F   Borrowings Gains                          FR                                                   15                          11/03/2006 16:05:50    DGEIGER
F   Borrowing and Other Interest Revenue      FR                                                13,910                         11/03/2006 16:05:50    DGEIGER
    (Exchange)
B         Total Earned Revenues             Entity                    17,992                                              0    11/03/2006 16:05:50    DGEIGER




                                                                                  - 63 -
                                                                                                                                                                                                  11/16/2006 08:47:05

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF006G - All Notes Report

    Note: 01             Federal Reserve Earnings and Subsequent Events                                                                    Fiscal Year: 2006               Period: SEPTEMBER
    Entity: 2000         Department of the Treasury                                                                                        Agency Notes:     22

 Status: Complete

Tab: Other Notes Info.

      Section: A             Section Name: Related Information                                                                Rounding Method: Millions                           Decimal: Zero

Line Line Description     2006 - SEPTEMBER               2005 - SEPTEMBER                   Previously Rptd        Line Item Changes                                                                    Line    NB
 No                                                                                                                                                                                                  Attributes
  1 Treasury                               764,639                      732,745                       732,745                          0                                                              Dollars Credit
     securities
     including those
     held by the
     Federal Reserve
     Bank (FRB)
  2 FRB earnings on                         29,945                       19,297                        19,297                          0                                                               Dollars    Credit
     Treasury
     securities that
     exceed the
     statutory amount.
Tab: Text Data

 Line No           Question                                                                                            Answer
1                  Describe any significant events that occured after the date of the balance sheet but prior to       LEGAL ACTION SETTLEMENT
                   the agency's audited financial statements being issued.                                             The Department of the Interior, Justice and Treasury settled an Indian Tribal Trust case
                                                                                                                       for $20M on October 23, 2006. This settlement was paid from the Department of the
                                                                                                                       Treasury's Judgment Fund.

2                  Describe any departures from U.S. Generally Accepted Accounting Procedures (GAAP).                  NA
3                  Describe any change in accounting if a collecting entity adopts accounting standards that           NA
                   embody a fuller application of accrual accounting concepts that differs from that prescribed
                   by the standard-SFFAS no. 7, par.64.
4                  Provide any other relevant information pertaining to this note.                                     None




                                                                                                            -1-
                                                                                                                                                                                                      11/16/2006 08:47:05

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                          GF006G - All Notes Report

     Note: 02             Cash and Other Monetary Assets                                                                                        Fiscal Year: 2006              Period: SEPTEMBER
  Entity: 2000            Department of the Treasury                                                                                            Agency Notes:    Note 5, 6,8

 Status: Complete

Tab: Line Item Notes
                                                                                      Acct
      Closing Package Line Description                                         NB     Type      2006 - SEPTEMBER          2005 - SEPTEMBER             Rounding Method: Millions
       Cash and Other Monetary Assets                                          D        A                      81,496                   71,703
                                                                                                                                                                    Decimal: Zero
                                                                                   Variance:                       0                            0

Line No     Line Description            2006 - SEPTEMBER              2005 - SEPTEMBER                 Previously Rptd               Line Item Changes
 1          Operating Cash                              43,587                       28,344                          28,344                                  0
 2          Other cash - not                               596                           10                              10                                  0
            restricted
 3          Other cash - restricted                            267                             703                           703                             0
 4          International monetary                          25,984                          31,713                        31,713                             0
            assets
 5          Gold                                            11,041                          10,933                        10,933                             0
 6          Domestic monetary                                   21
            assets
            Total                                            81,496                         71,703                        71,703                             0

Threshold
Line Description                                                Question                                                                    Answer
Line Item Notes - Other cash - not restricted (2006 -           Please provide explanations for any amounts that have                       FY 06 classification of Governmentwide Cash misc. items to Cash - Not
SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000 between                  Restricted
                                                                the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - International monetary assets (2006 -         Please provide explanations for any amounts that have                       Decline in the U.S. Reserve Position in the IMF from 13,247M to $6,621M.
SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000 between                  Ref. Treasury PAR Note 8.
                                                                the current fiscal year and prior fiscal year. (Unaudited)
Tab: Other Notes Info.

      Section: A              Section Name: Other Related Information                                                              Rounding Method: Millions                          Decimal: Zero

Line Line Description      2006 - SEPTEMBER                2005 - SEPTEMBER                  Previously Rptd            Line Item Changes                                                                  Line     NB
 No                                                                                                                                                                                                     Attributes
  1 IMF Letter of                            48,019                     40,419                        40,419                                0                                                            Dollars   Debit
     Credit - available
     balance
  2 Reserve Position                          6,621                     13,247                        13,247                                0                                                             Dollars      Debit
     in the IMF
  3 SDR Holdings-                             8,710                        8,245                       8,245                                0                                                             Dollars      Debit
     Exchange
     Stabilization Fund
  4 SDR Certificates                          2,200                        2,200                       2,200                                0                                                             Dollars      Debit
     outstanding with
     the FRB


                                                                                                          -2-
                                                                                                                                                                                      11/16/2006 08:47:05

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF006G - All Notes Report

   Note: 02                Cash and Other Monetary Assets                                                                          Fiscal Year: 2006             Period: SEPTEMBER
  Entity: 2000             Department of the Treasury                                                                              Agency Notes:   Note 5, 6,8

 Status: Complete

Tab: Other Notes Info.

    Section: A                 Section Name: Other Related Information                                              Rounding Method: Millions                         Decimal: Zero

  5 Interest bearing                          -7,234                     -7,102                  -7,102                        0                                                          Dollars    Credit
    liability to the IMF
    for SDR
    Allocations
  6 (I) Market value                                                                                                                                                                      Dollars    Debit
    of 1 fine troy
    ounce of gold
  7 Gold certificates                        -11,037                   -10,924                  -10,924                        0                                                          Dollars    Credit




    Section: B                 Section Name: Gold

Line Line Description       2006 - SEPTEMBER                2005 - SEPTEMBER            Previously Rptd    Line Item Changes                                                               Line       NB
 No                                                                                                                                                                                     Attributes
  1 Number of fine                 261,498,900.0000            258,713,310.0000         258,713,310.0000                .0000                                                             Units       N/A
     troy ounces of
     gold
  2 Statutory price of                       42.2222                   42.2222                  42.2222                 .0000                                                              Units      N/A
     1 fine troy ounce
     of gold
  3 Market value of 1                      599.2500                   473.2500                 473.2500                 .0000                                                              Units      N/A
     fine troy ounce of
     gold




                                                                                                     -3-
                                                                                                                                                                                               11/16/2006 08:47:05

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF006G - All Notes Report

    Note: 02          Cash and Other Monetary Assets                                                                                 Fiscal Year: 2006                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                     Agency Notes:       Note 5, 6,8

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                        Answer
1                  Describe the nature of the amount in the line item "other cash - not restricted".
                                                                                                                   $588M consists of misellaneous items from Governmentwide Cash remainder relates to
                                                                                                                   imprest funds and other miscellaneous holdings. See Department Note 5


2                  Describe the restrictions on the cash reported in the line item "Other cash - restricted" and   IRS - various deposits from taxpayers, U.S. Territories and other sources over which
                   any statutory authority.                                                                        IRS
                                                                                                                   Misc. Items FMS Governmentwide Cash - Department Note 5 and cash held by FMS
                                                                                                                   Government Cash that has a corresponding liability to the public.


                                                                                                                   has a fiduciary responsibility.
                                                                                                                   Departmental Offices - The Office of International Affairs maintains funds at the
                                                                                                                   Federal
                                                                                                                   Reserve Bank in New York in two accounts that are restricted for use by the IMF. The
                                                                                                                   articles of agreement with the IMF provide for the return of these funds should the U.S.
                                                                                                                   withdraw from the fund.
                                                                                                                   Seized Cash - pending judicial proceedings.
3                  Provide any other relevant information pertaining to this note.                                 None




                                                                                                             -4-
                                                                                                                                                                                           11/16/2006 08:47:05

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF006G - All Notes Report

     Note: 03           Accounts and Taxes Receivable                                                                             Fiscal Year: 2006                 Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                                Agency Notes:      Note 10

 Status: Complete

Tab: Line Item Notes
                                                                                  Acct
      Closing Package Line Description                                    NB      Type      2006 - SEPTEMBER     2005 - SEPTEMBER         Rounding Method: Millions
       Accounts and Taxes Receivable                                       D        A                  22,041                21,485
                                                                                                                                                      Decimal: Zero
                                                                               Variance:                   0                      0

Line No     Line Description           2006 - SEPTEMBER           2005 - SEPTEMBER                Previously Rptd         Line Item Changes
 1          Accounts receivable,                            146                            102                      102                         0
            gross
 2          Related interest                                894                            383                      383                         0
            receivable - accounts
            receivable
 3          Penalties, fines, and                             6                              5                        5                         0
            administrative fees
            receivable
 4          Less: allowance for                              -2                             -2                       -2                         0
            loss on accounts
            receivable
 5          Less: allowance for                              -2                             -2                       -2                         0
            loss on interest
            receivable
 6          Less: allowance for                              -3                             -3                       -3                         0
            loss on penalties,
            fines, and admin. fees
            rec.
 7          Taxes receivable,                            91,009                         88,010                   88,010                         0
            gross
 8          Less: allowance for                         -70,007                     -67,008                     -67,008                         0
            loss on taxes
            receivable
            Total                                        22,041                         21,485                   21,485                          0

Threshold
Line Description                                             Question                                                           Answer
Line Item Notes - Accounts receivable, gross (2006 -         Please provide explanations for any amounts that have             The Department's A/R are an aggregate of multiple bureau A/R. Some
SEPTEMBER)                                                   changed by 10% or more and or greater than 500,000 between        bureaus had increases and some had decreases. The flux was not
                                                             the current fiscal year and prior fiscal year. (Unaudited)        significant enough for the Department to request bureau explanations in it's
                                                                                                                               internal flux analysis.




                                                                                                     -5-
                                                                                                                                                                                               11/16/2006 08:47:05

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF006G - All Notes Report

   Note: 03             Accounts and Taxes Receivable                                                                                  Fiscal Year: 2006                Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                                     Agency Notes:      Note 10

 Status: Complete




Threshold
Line Description                                                Question                                                             Answer
Line Item Notes - Related interest receivable - accounts        Please provide explanations for any amounts that have               "The variance for the Receivable on Deposit of Federal Reserve Earnings
receivable (2006 - SEPTEMBER)                                   changed by 10% or more and or greater than 500,000 between          increased by $460 million because of economic conditions (i.e., higher
                                                                the current fiscal year and prior fiscal year. (Unaudited)          interest rate), the Federal Reserve Banks' costs of operations, payment of
                                                                                                                                    dividends, and reservation of an amount necessary to equate surplus with
                                                                                                                                    capital paid-in. Also, the interest receivable for TT&L increased by $25
                                                                                                                                    million because the average daily balance of funds invested in the The
                                                                                                                                    variance for the Receivable on Deposit of Earnings increased by $460
                                                                                                                                    million because of economic conditions (i.e., higher interest rate), the
                                                                                                                                    Federal Reserve Banks' costs of operations, payment of dividends, and
                                                                                                                                    reservation of an amount necessary to equate surplus with capital paid-in.
                                                                                                                                    Also, the interest receivable for TT&L increased by $25 million because the
                                                                                                                                    average daily balance of funds invested in the TT&L program increased.
Tab: Other Notes Info.

    Section: A              Section Name: (To be completed by the Depts. of Treasury, Labor                                  Rounding Method: Millions                         Decimal: Zero
                                          and Homeland Security)

Line Line Description    2006 - SEPTEMBER                  2005 - SEPTEMBER                                                                                                                          Line     NB
 No                                                                                                                                                                                               Attributes
  1 Interest on                                  2                            2                                                                                                                    Dollars   Debit
     uncollectible
     accounts (SFFAS
     No. 1, par. 55)




                                                                                                       -6-
                                                                                                                                                                                                 11/16/2006 08:47:05

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF006G - All Notes Report

    Note: 03          Accounts and Taxes Receivable                                                                                    Fiscal Year: 2006                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                       Agency Notes:       Note 10

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                         Answer
1                  Describe the method(s) used to calculate the allowances on accounts receivable.                  Allowances are calculated differently at each bureau and they are also dependent on
                                                                                                                    the nature of the balances: Aging analysis and estimates
                                                                                                                    based on historical collection data.
                                                                                                                    IRS sites the adoption of policies in conformity with OMB Circular A-129.
2                  Describe the method(s) used to calculate the allowance on taxes receivable.                      IRS - The allowance is the Gross Taxes Receivable figure minus a adjusted estimate
                                                                                                                    (taxes receivable that should be reclassified into Write-Offs, Compliance Assessments,
                                                                                                                    or Memo Modules), minus the estimate of collectibility to yield an allowance. SFFAS
                                                                                                                    No. 7 par. 56, states that the allowance results in and adjustment of non-exchange
                                                                                                                    revenue, rather than a bad debt expense. The allowance reflects an estimate of the
                                                                                                                    portion of the total Taxes Receivable deemed to be uncollectible.
                                                                                                                    TTB - In order to calculate the allowance on taxes receivable, the aging of taxes
                                                                                                                    receivable was reviewed, individual account balances were analyzed, and collections
                                                                                                                    were analyzed and projected into future periods. To estimate the net realizable value of
                                                                                                                    receivables, an analysis
                                                                                                                    was performed of the aged receivables. Offers in compromise (OICs) were analyzed
                                                                                                                    using information provided by TTB's National Revenue Center. Individual account
                                                                                                                    receivable balances over $100,000 in which no OIC has been submitted were analyzed
                                                                                                                    and information was provided by TTB's National Revenue Center. Historical collections
                                                                                                                    on receivables was scheduled out by FY and the remaining receivables were reviewed
                                                                                                                    to project what was expected to be collected in future periods. The projected collection
                                                                                                                    rates were analyzed and applied to the net receivable balances (adjusted for OICs and
                                                                                                                    known uncollectible accounts) to produce an estimated allowance amount.
3                  Provide the disclosures relating to factors affecting collectibility and timing of taxes         Taxes receivable consist of unpaid assessments (taxes and associated penalties and
                   receivable and the amount involved (SFFAS No. 7, par 65.1).                                      interest) due from taxpayer for which the internal Revenue Service can support the
                                                                                                                    existence of a receivable through taxpayer agreement, such as filing of a tax return
                                                                                                                    without sufficient
                                                                                                                    payment, or a court ruling in favor of the Internal Revenue Service. Factors affecting the
                                                                                                                    collectibility of the taxes receivable include taxpayer's bankruptcy, insolvency, or death.
                                                                                                                    Other factors include write-offs and Offers-in-Compromise.
                                                                                                                    TTB - The likelihood of collecting any tax receivable with an allowance is remote. Many
                                                                                                                    of the recievables are due from entities that are no longer solvent. If not required by law
                                                                                                                    to carry the receivable for 10 years, many would be written off.
4                  Provide any other relevant information pertaining to this note.                                  na




                                                                                                              -7-
                                                                                                                                                                                                11/16/2006 08:47:05

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF006G - All Notes Report

      Note: 04A          Direct Loans Receivable                                                                                        Fiscal Year: 2006                Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                     Agency Notes:     NOTE 3

 Status: Complete

Tab: Line Item Notes
                                                                                    Acct
       Closing Package Line Description                                     NB      Type      2006 - SEPTEMBER     2005 - SEPTEMBER            Rounding Method: Millions
        Loans Receivable                                                     D        A                      288                    670
                                                                                                                                                            Decimal: Zero
                                                                                 Variance:                    0                         0

Line No     Line Description             CY: Face Value of Loans     CY: Long-Term Cost of            CY Net Loans           PY: Face Value of Loans        PY: Long-Term Cost of               PY Net Loans
                                                Oustanding                      Loans                                               Oustanding                         Loans
 13         Entity & Non-Entity                              275                       -13                           288                          651                         -19                                 670
            Non-Federal
 14
 15
 16
 17
 18         All other loans
            receivable
            Total                                             275                            -13                     288                           651                            -19                             670

Threshold
Line Description                                               Question                                                             Answer
Line Item Notes - Entity & Non-Entity Non-Federal (CY:         Please provide explanations for any amounts that have                The balance will continue to decrease because no new loans are being
Face Value of Loans Oustanding)                                changed by 10% or more and or greater than 500,000 between           made, and the United Kingdom and Greece are continuing to make
                                                               the current fiscal year and prior fiscal year. (Unaudited)           repayments of principal and interest payments. Also, Russia prepaid in full
                                                                                                                                    its loan on August 21, 2006 in the amount of $237 million.
Tab: Other Notes Info.

       Section: A              Section Name: Direct loans disbursed and subsidy expense                                     Rounding Method: Millions                           Decimal: Zero

Line Line Description         CY Loans Disbursed       CY Subsidy expense D         PY Loans disbursed D     PY Subsidy Expense D                                                                    Line         NB
 No                                            D                                                                                                                                                  Attributes
 13 Departmental                                   9                        2                           8                           3                                                              Dollars        N/A
     Offices-CDFI
 14                                                                                                                                                                                                 Dollars       N/A
 15                                                                                                                                                                                                 Dollars       N/A
 16                                                                                                                                                                                                 Dollars       N/A
 17                                                                                                                                                                                                 Dollars       N/A
 18 All other laons                                                                                                                                                                                 Dollars       N/A
     receivable
 19 Total                                          9                        2                           8                           3                                                               Dollars       N/A




                                                                                                       -8-
                                                                                                                                                                               11/16/2006 08:47:05

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                      GF006G - All Notes Report

   Note: 04A             Direct Loans Receivable                                                                                 Fiscal Year: 2006        Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                              Agency Notes:   NOTE 3

 Status: Complete

Tab: Other Notes Info.

    Section: B               Section Name: Reconciliation Schedule for Subsidy Cost Allowance                     Rounding Method: Millions                    Decimal: Zero
                                           Balance - Direct Loans

Line Line Description     2006 - SEPTEMBER              2005 - SEPTEMBER              Previously Rptd    Line Item Changes                                                          Line     NB
 No                                                                                                                                                                              Attributes
  1 Beginning                                      23                    21                        21                        0                                                    Dollars   Debit
     balance of the
     subsidy cost
     allowance
  2 Interest rate                                   1                      2                        2                        0                                                     Dollars   Debit
     differential cost
  3 Default costs (net                              1                      1                        1                        0                                                     Dollars   Debit
     of operations)
  4 Fees and other                                                                                                                                                                 Dollars   Credit
     collections
  5 Other subsidy                                                                                                                                                                  Dollars   Debit
     costs
  6 Total of the above                              2                      3                        3                        0                                                     Dollars    N/A
     subsidy expense
     components
  7 Loan                                                                                                                                                                           Dollars   Debit
     modificatiions
  8 Fees received                                                                                                                                                                  Dollars   Debit
  9 Foreclosed                                                                                                                                                                     Dollars   Debit
     propery acquired
 10 Loans written off                                                                                                                                                              Dollars   Credit
 11 Subsidy                                        -1                    -1                        -1                        0                                                     Dollars   Debit
     allowance
     amortization
 12 Other                                                                                                                                                                          Dollars   Debit
 13 Ending balance of                              24                    23                        23                        0                                                     Dollars    N/A
     the subsidy cost
     allowance before
     reestimates
 14 Interest rate                                                                                                                                                                  Dollars   Debit
     reestimate
 15 Technical/default                              -1                      0                                                 0                                                     Dollars   Debit
     reestimate
 16 Total of the above                             -1                      0                                                 0                                                     Dollars    N/A
     reestimate
     components
 17 Ending balance of                              23                    23                        23                        0                                                     Dollars    N/A
     the subsidy cost
     allowance


                                                                                                   -9-
                                                                                                                                                                          11/16/2006 08:47:05

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF006G - All Notes Report

   Note: 04A         Direct Loans Receivable                                                                         Fiscal Year: 2006              Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                      Agency Notes:    NOTE 3

 Status: Complete

Tab: Other Notes Info.

    Section: C            Section Name: Subsidy Rates for Direct Loans

Line Line Description CY Interest Differential             CY Defaults           CY Fees and Other       CY Other                    CY Total      CY Loan Modification        Line      NB
 No                                                                                   Collections                                                                           Attributes
  1 SUBSIDIARY                          21.0000                  17.0000                     .0000           .0000                       38.0000                             Percent     N/A
     RATES FOR
     DIRECT LOANS
  2                                                                                                                                                                          Percent     N/A
  3                                                                                                                                                                          Percent     N/A
  4                                                                                                                                                                          Percent     N/A
  5                                                                                                                                                                          Percent     N/A
  6                                                                                                                                                                          Percent     N/A
  7                                                                                                                                                                          Percent     N/A
  8                                                                                                                                                                          Percent     N/A
  9                                                                                                                                                                          Percent     N/A
 10                                                                                                                                                                          Percent     N/A
 11                                                                                                                                                                          Percent     N/A
 12                                                                                                                                                                          Percent     N/A
 13                                                                                                                                                                          Percent     N/A
 14                                                                                                                                                                          Percent     N/A
 15                                                                                                                                                                          Percent     N/A
 16                                                                                                                                                                          Percent     N/A
 17                                                                                                                                                                          Percent     N/A
 18                                                                                                                                                                          Percent     N/A
 19                                                                                                                                                                          Percent     N/A
 20                                                                                                                                                                          Percent     N/A
 21                                                                                                                                                                          Percent     N/A
 22                                                                                                                                                                          Percent     N/A
 23                                                                                                                                                                          Percent     N/A
 24                                                                                                                                                                          Percent     N/A
 25                                                                                                                                                                          Percent     N/A
 26                                                                                                                                                                          Percent     N/A
 27                                                                                                                                                                          Percent     N/A
 28                                                                                                                                                                          Percent     N/A
 29                                                                                                                                                                          Percent     N/A
 30                                                                                                                                                                          Percent     N/A
 31                                                                                                                                                                          Percent     N/A
 32                                                                                                                                                                          Percent     N/A
 33                                                                                                                                                                          Percent     N/A
 34                                                                                                                                                                          Percent     N/A


                                                                                              - 10 -
                                                                                                                                                                         11/16/2006 08:47:05

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                     GF006G - All Notes Report

    Note: 04A           Direct Loans Receivable                                                                        Fiscal Year: 2006            Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                     Agency Notes:     NOTE 3

  Status: Complete

 Tab: Other Notes Info.

     Section: C               Section Name: Subsidy Rates for Direct Loans

  35 All other                                                                                                                                                              Percent     N/A
     programs
Line Line Description     PY Interest differential             PY Defaults         PY Fees and other        PY Other                   PY Total   PY Loan Modification        Line      NB
 No                                                                                     collections                                                                        Attributes
   1 SUBSIDIARY                            21.0000                  17.0000                                                             38.0000                             Percent     N/A
     RATES FOR
     DIRECT LOANS
   2                                                                                                                                                                        Percent     N/A
   3                                                                                                                                                                        Percent     N/A
   4                                                                                                                                                                        Percent     N/A
   5                                                                                                                                                                        Percent     N/A
   6                                                                                                                                                                        Percent     N/A
   7                                                                                                                                                                        Percent     N/A
   8                                                                                                                                                                        Percent     N/A
   9                                                                                                                                                                        Percent     N/A
  10                                                                                                                                                                        Percent     N/A
  11                                                                                                                                                                        Percent     N/A
  12                                                                                                                                                                        Percent     N/A
  13                                                                                                                                                                        Percent     N/A
  14                                                                                                                                                                        Percent     N/A
  15                                                                                                                                                                        Percent     N/A
  16                                                                                                                                                                        Percent     N/A
  17                                                                                                                                                                        Percent     N/A
  18                                                                                                                                                                        Percent     N/A
  19                                                                                                                                                                        Percent     N/A
  20                                                                                                                                                                        Percent     N/A
  21                                                                                                                                                                        Percent     N/A
  22                                                                                                                                                                        Percent     N/A
  23                                                                                                                                                                        Percent     N/A
  24                                                                                                                                                                        Percent     N/A
  25                                                                                                                                                                        Percent     N/A
  26                                                                                                                                                                        Percent     N/A
  27                                                                                                                                                                        Percent     N/A
  28                                                                                                                                                                        Percent     N/A
  29                                                                                                                                                                        Percent     N/A
  30                                                                                                                                                                        Percent     N/A



                                                                                                 - 11 -
                                                                                                                                                                               11/16/2006 08:47:05

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                    GF006G - All Notes Report

   Note: 04A              Direct Loans Receivable                                                                               Fiscal Year: 2006         Period: SEPTEMBER
  Entity: 2000            Department of the Treasury                                                                            Agency Notes:    NOTE 3

 Status: Complete

Tab: Other Notes Info.

    Section: C                Section Name: Subsidy Rates for Direct Loans

31                                                                                                                                                                                Percent      N/A
32                                                                                                                                                                                Percent      N/A
33                                                                                                                                                                                Percent      N/A
34                                                                                                                                                                                Percent      N/A
35 All other                                                                                                                                                                      Percent      N/A
   programs




    Section: D                Section Name: Foreclosed assets- Number of units (SFFAS No. 3,     No Data Flag: YES
                                            par. 91)

Line Line Description      2006 - SEPTEMBER            2005 - SEPTEMBER               Previously Rptd       Line Item Changes                                                       Line       NB
 No                                                                                                                                                                              Attributes
  1 Number of                                                                                                                                                                      Units      N/A
     properties in the
     foreclosure
     process
  2 Number of                                                                                                                                                                       Units     N/A
     properties held
  3 Average holding                                                                                                                                                                 Units     N/A
     period for
     properties held in
     months

    Section: E                Section Name: Foreclosed Assets- Balances (SFFAS No. 3, par. 91)   No Data Flag: YES   Rounding Method: Millions                 Decimal: Zero

Line Line Description      2006 - SEPTEMBER            2005 - SEPTEMBER               Previously Rptd       Line Item Changes                                                       Line     NB
 No                                                                                                                                                                              Attributes
  1 Balances for                                                                                                                                                                  Dollars   Debit
     property held Pre
     1992
  2 Balances for                                                                                                                                                                   Dollars    Debit
     property held
     Post 1991




                                                                                                   - 12 -
                                                                                                                                                                         11/16/2006 08:47:05

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF006G - All Notes Report

     Note: 04A        Direct Loans Receivable                                                                                   Fiscal Year: 2006        Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                Agency Notes:   NOTE 3

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                        Answer
1                  Modifications: Enter the program name and basis for recognizing a gain or loss.                 NONE
2                  Modifications: Enter the program name and nature of modifications.                              NONE
3                  Foreclosed assets: describe the restrictions on the use/disposal of forclosed property.         NONE
4                  Forseclosed assets: describe the valuation basis for foreclosed property.                       NONE
5                  Foreclosed assets: disclose any changes from the prior-year's accounting method.                NONE
6                  Provide analysis that explains the underlying causes for significant fluctuations in subsidy    NONE-SUBSIDY RATES HAVE REMAINED FAIRLY CONSISTENT
                   rates (SFFAS No. 18, par. 11).
7                  Provide explanation of events and changes in economic conditions, other risk factors,           NONE
                   legislation, credit policies, and subsidy estimation methodologies, and assumptions for
                   significant and measurable effect on subsidy rates, subsidy expenses, and su
8                  Provide the changes in borrowers' eligibility, the levels of fees or interest rate charges to   NONE
                   borrowers, the maturity terms of loans, and the percentage of a private loan that is
                   guaranteed (SFFAS No. 18, par. 11).
9                  Provide a disclosure that includes events and changes at the reporting date that have           NONE
                   occurred and are more likely than not to have a significant impact for changes whose effects
                   are not measurable at the reporting date (SFFAS No. 18, par. 11).
10                 Provide a broad description of foreclosed property.                                             NONE
11                 Provide any other relevant information pertaining to this note                                  NONE




                                                                                                          - 13 -
                                                                                                                                                                                              11/16/2006 08:47:05

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                      GF006G - All Notes Report

      Note: 04B           Loan Guarantees                                                                                                Fiscal Year: 2006              Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                                     Agency Notes:     Note 15

  Status: Complete

Tab: Line Item Notes
                                                                                     Acct
       Closing Package Line Description                                    NB        Type      2006 - SEPTEMBER       2005 - SEPTEMBER          Rounding Method: Millions
        Loan Guarantee Liabilities                                            C        L                          0                   555
                                                                                                                                                             Decimal: Zero
                                                                                  Variance:                       0                  -555

 Line No    Line Description            2006 - SEPTEMBER            2005 - SEPTEMBER                 Previously Rptd             Line Item Changes
  9         Air Transportation
            Stabilization Board
 13         Air Transportation                                 0                              555                       555                           0
            Stabilization Board
 14
 15
 16
 17
 18         All other loan
            guarantee liabilities
            Total                                               0                             555                        555                          0

 Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                                                         Rounding Method: Millions                      Decimal: Zero

Line Line Description      CY Face Value of             CY Amount Guaranteed        CY Loans Disbursed D         CY Subsidy Expense D       PY Face Value of Loans     PY Amount Guaranteed    Line          NB
 No                    Loans Outstanding D               by the Government D                                                                       Outstanding D        by the Government D Attributes
  9 Air Transportation                      0                              0                                                                                  879                       799  Dollars         N/A
     Stabilization
     Board
 13                                                                                                                                                                                               Dollars    N/A
 14                                                                                                                                                                                               Dollars    N/A
 15                                                                                                                                                                                               Dollars    N/A
 16                                                                                                                                                                                               Dollars    N/A
 17                                                                                                                                                                                               Dollars    N/A
 18 All other loans                                                                                                                                                                               Dollars    N/A
     guarantee
     liabilities
Line Line Description       PY Loans Disbursed         PY Subsidy Expense D                                                                                                                        Line      NB
 No                                          D                                                                                                                                                  Attributes
   9 Air Transportation                                                                                                                                                                          Dollars     N/A
     Stabilization
     Board
  13                                                                                                                                                                                              Dollars    N/A



                                                                                                        - 14 -
                                                                                                                                                                                    11/16/2006 08:47:05

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF006G - All Notes Report

   Note: 04B             Loan Guarantees                                                                                             Fiscal Year: 2006         Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                  Agency Notes:   Note 15

 Status: Complete

Tab: Other Notes Info.

    Section: A               Section Name: Other Related Information                                                  Rounding Method: Millions                     Decimal: Zero

14                                                                                                                                                                                      Dollars    N/A
15                                                                                                                                                                                      Dollars    N/A
16                                                                                                                                                                                      Dollars    N/A
17                                                                                                                                                                                      Dollars    N/A
18 All other loans                                                                                                                                                                      Dollars    N/A
   guarantee
   liabilities




    Section: B               Section Name: Reconciliation of Loan Guarantee Liability Balances                        Rounding Method: Millions                     Decimal: Zero

Line Line Description     2006 - SEPTEMBER             2005 - SEPTEMBER                Previously Rptd       Line Item Changes                                                           Line    NB
 No                                                                                                                                                                                   Attributes
  1 Beginning                                 -555                       724                       724                           0                                                     Dollars Credit
     balance of the
     loan guarantee
     liability
  2 Interest                                                                                                                                                                            Dollars   Credit
     supplement costs
  3 Default costs (net                                                  -124                      -124                           0                                                      Dollars   Credit
     of recoveries)
  4 Fees and other                                                       -22                       -22                           0                                                      Dollars   Debit
     collections
  5 Other subsidy                               -5                                                                                                                                      Dollars   Credit
     costs
  6 Total of the above                           5                       102                       102                           0                                                      Dollars    N/A
     subsidy expense
     components
  7 Loan guarantee                             537                                                                                                                                      Dollars   Credit
     modifications
  8 Fees received                                5                         69                       69                           0                                                      Dollars   Credit
  9 Interest                                                                                                                                                                            Dollars   Debit
     supplements paid
 10 Foreclosed                                                                                                                                                                          Dollars   Credit
     property and
     loans acquired
 11 Claim payments                                                                                                                                                                      Dollars   Debit
     to lenders



                                                                                                    - 15 -
                                                                                                                                                                                          11/16/2006 08:47:05

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                      GF006G - All Notes Report

   Note: 04B           Loan Guarantees                                                                                            Fiscal Year: 2006                Period: SEPTEMBER
  Entity: 2000         Department of the Treasury                                                                                 Agency Notes:     Note 15

 Status: Complete

Tab: Other Notes Info.

    Section: B              Section Name: Reconciliation of Loan Guarantee Liability Balances                          Rounding Method: Millions                          Decimal: Zero

 12 Interest                                                               7                            7                     0                                                               Dollars       Credit
     accumulation on
     the liability
     balance
 13 Other Loan                                                                                                                                                                                Dollars       Credit
     Guarantees
 14 Ending balance of                          18                      -698                         -698                      0                                                               Dollars        N/A
     the loan
     guarantee before
     reestimates
 15 Interest rate                                                                                                                                                                             Dollars       Debit
     reestimate
 16 Technical/default                         -18                        143                          143                     0                                                               Dollars       Debit
     reestimate
 17 Total of the above                        -18                        143                          143                     0                                                               Dollars        N/A
     reestimate
     components
 18 Ending balance of                           0                      -555                         -555                      0                                                               Dollars        N/A
     loan guarantee
     liability
Threshold
 Line Description                                             Question                                                         Answer
 Other Notes Info - Fees received (2006 - SEPTEMBER)          Please provide explanations for any amounts that have            The dollar effect of the 2006 loan sale transaction was captured in a 2006
                                                              changed by 10% or more and or greater than 500,000               modification, not a reestimate. All other changes were captured in a
                                                              between the current fiscal year and prior fiscal year.           reestinmate and are therefore due too changes in economic conditions.
                                                              (Unaudited)                                                      Three airlines exited the program.
 Other Notes Info - Total of the above subsidy expense        Please provide explanations for any amounts that have            ATSB is a limited life program, No new guarantees are being issued.
 components (2006 - SEPTEMBER)                                changed by 10% or more and or greater than 500,000               Liability is declining.
                                                              between the current fiscal year and prior fiscal year.
                                                              (Unaudited)
 Other Notes Info - Ending balance of the loan guarantee      Please provide explanations for any amounts that have            The ATSB program is winding down.
 before reestimates (2006 - SEPTEMBER)                        changed by 10% or more and or greater than 500,000
                                                              between the current fiscal year and prior fiscal year.
                                                              (Unaudited)




                                                                                                      - 16 -
                                                                                                                                                                             11/16/2006 08:47:05

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                    GF006G - All Notes Report

   Note: 04B            Loan Guarantees                                                                                     Fiscal Year: 2006            Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                          Agency Notes:    Note 15

 Status: Complete

Tab: Other Notes Info.

    Section: C              Section Name: Subsidy Rates for Loan Gurantees                   No Data Flag: YES


Line Line Description              CY Interest              CY Defaults            CY Fees and Other             CY Other                   CY Total   PY Interest Supplements      Line      NB
 No                             Supplements                                             Collections                                                                              Attributes
  1                                                                                                                                                                               Percent     N/A
  2                                                                                                                                                                               Percent     N/A
  3                                                                                                                                                                               Percent     N/A
  4                                                                                                                                                                               Percent     N/A
  5                                                                                                                                                                               Percent     N/A
  6                                                                                                                                                                               Percent     N/A
  7                                                                                                                                                                               Percent     N/A
  8                                                                                                                                                                               Percent     N/A
  9                                                                                                                                                                               Percent     N/A
 10                                                                                                                                                                               Percent     N/A
 11                                                                                                                                                                               Percent     N/A
 12                                                                                                                                                                               Percent     N/A
 13                                                                                                                                                                               Percent     N/A
 14                                                                                                                                                                               Percent     N/A
 15                                                                                                                                                                               Percent     N/A
 16                                                                                                                                                                               Percent     N/A
 17                                                                                                                                                                               Percent     N/A
 18                                                                                                                                                                               Percent     N/A
 19                                                                                                                                                                               Percent     N/A
 20                                                                                                                                                                               Percent     N/A
 21                                                                                                                                                                               Percent     N/A
 22                                                                                                                                                                               Percent     N/A
 23                                                                                                                                                                               Percent     N/A
 24                                                                                                                                                                               Percent     N/A
 25                                                                                                                                                                               Percent     N/A
 26                                                                                                                                                                               Percent     N/A
 27                                                                                                                                                                               Percent     N/A
 28                                                                                                                                                                               Percent     N/A
 29                                                                                                                                                                               Percent     N/A
 30                                                                                                                                                                               Percent     N/A
 31                                                                                                                                                                               Percent     N/A
 32                                                                                                                                                                               Percent     N/A
 33                                                                                                                                                                               Percent     N/A
 34                                                                                                                                                                               Percent     N/A
 35 All other                                                                                                                                                                     Percent     N/A



                                                                                                - 17 -
                                                                                                                                                                     11/16/2006 08:47:05

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                    GF006G - All Notes Report

    Note: 04B           Loan Guarantees                                                                                    Fiscal Year: 2006         Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                         Agency Notes:   Note 15

  Status: Complete

 Tab: Other Notes Info.

     Section: C             Section Name: Subsidy Rates for Loan Gurantees                  No Data Flag: YES


     programs
Line Line Description            PY Defaults           PY Fees and Other                PY Other                PY Total                                                    Line      NB
 No                                                         Collections                                                                                                  Attributes
   1                                                                                                                                                                      Percent     N/A
   2                                                                                                                                                                      Percent     N/A
   3                                                                                                                                                                      Percent     N/A
   4                                                                                                                                                                      Percent     N/A
   5                                                                                                                                                                      Percent     N/A
   6                                                                                                                                                                      Percent     N/A
   7                                                                                                                                                                      Percent     N/A
   8                                                                                                                                                                      Percent     N/A
   9                                                                                                                                                                      Percent     N/A
  10                                                                                                                                                                      Percent     N/A
  11                                                                                                                                                                      Percent     N/A
  12                                                                                                                                                                      Percent     N/A
  13                                                                                                                                                                      Percent     N/A
  14                                                                                                                                                                      Percent     N/A
  15                                                                                                                                                                      Percent     N/A
  16                                                                                                                                                                      Percent     N/A
  17                                                                                                                                                                      Percent     N/A
  18                                                                                                                                                                      Percent     N/A
  19                                                                                                                                                                      Percent     N/A
  20                                                                                                                                                                      Percent     N/A
  21                                                                                                                                                                      Percent     N/A
  22                                                                                                                                                                      Percent     N/A
  23                                                                                                                                                                      Percent     N/A
  24                                                                                                                                                                      Percent     N/A
  25                                                                                                                                                                      Percent     N/A
  26                                                                                                                                                                      Percent     N/A
  27                                                                                                                                                                      Percent     N/A
  28                                                                                                                                                                      Percent     N/A
  29                                                                                                                                                                      Percent     N/A
  30                                                                                                                                                                      Percent     N/A
  31                                                                                                                                                                      Percent     N/A
  32                                                                                                                                                                      Percent     N/A
  33                                                                                                                                                                      Percent     N/A


                                                                                               - 18 -
                                                                                                                                                                               11/16/2006 08:47:05

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                      GF006G - All Notes Report

   Note: 04B              Loan Guarantees                                                                                      Fiscal Year: 2006          Period: SEPTEMBER
  Entity: 2000            Department of the Treasury                                                                           Agency Notes:    Note 15

 Status: Complete

Tab: Other Notes Info.

    Section: C                Section Name: Subsidy Rates for Loan Gurantees                   No Data Flag: YES


34                                                                                                                                                                                Percent      N/A
35 All other                                                                                                                                                                      Percent      N/A
   programs




    Section: D                Section Name: Foreclosed Assets - Units                          No Data Flag: YES


Line Line Description      2006 - SEPTEMBER            2005 - SEPTEMBER              Previously Rptd       Line Item Changes                                                        Line       NB
 No                                                                                                                                                                              Attributes
  1 (I) Number of                                                                                                                                                                  Units      N/A
     properties in the
     foreclosure
     process
  2 (I) Number of                                                                                                                                                                   Units     N/A
     properties held
  3 (I) Average                                                                                                                                                                     Units     N/A
     holding period for
     properties held

    Section: E                Section Name: Foreclosed Assets - Balances                       No Data Flag: YES    Rounding Method: Millions                  Decimal: Zero

Line Line Description      2006 - SEPTEMBER            2005 - SEPTEMBER              Previously Rptd       Line Item Changes                                                        Line     NB
 No                                                                                                                                                                              Attributes
  1 (I) Balances for                                                                                                                                                              Dollars   Debit
     property held Pre
     1992
  2 (I) Balances for                                                                                                                                                               Dollars    Debit
     property held
     Post 1991




                                                                                                  - 19 -
                                                                                                                                                                                                  11/16/2006 08:47:05

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF006G - All Notes Report

    Note: 04B         Loan Guarantees                                                                                                   Fiscal Year: 2006                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                        Agency Notes:       Note 15

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                           Answer
1                  Provide an analysis that explains the underlying causes for the significant fluctuations in        The change subsidy rates is due to multiple airlines exiting the program, eliminating the
                   subsidy rates                                                                                      financial exposure of the government. At the end of FY 2006, the government had no
                                                                                                                      loan guarantee liability and no subsidy.
2                  Provide an explanation of events and changes in economic conditions, other risk factors,           The dollar effects of the 2006 loan sale transactions was captured in a 2006
                   legislation, credit policies, and subsidy estimation methodologies and assumptions for             modification, not a reestimate. All other changes were captured in a reestimate and are
                   significant and measurable effect on subsidy rates, subsidy expenses and s                         therefore due to changes in economic conditions. Three airlines exited the program.
3                  Provide the changes in borrowers eligibility, the levels of fees or interest rate charges to       There were no changes in these items except for the fact that three airlines loans were
                   borrowers, the maturity terms, and the percentage of a private loan that is guaranteed             either sold or refinanced, resulting in an elimination of the federal guarantee.
                   (SFFAS No. 18, par. 11).
4                  Provide a disclosure that includes events and changes at the reporting date that have              There are no events or changes at the reporting date that are more likely than not to
                   occurred and are more likely than not to have a significant impact for changes whose effects       have an un-measurable significant impact.
                   are not measurable at the reporting date (SFFAS No. 18, par. 11).
5                  Provide any other relevant information pertaining to this note.                                    na




                                                                                                             - 20 -
                                                                                                                                                                                                    11/16/2006 08:47:05

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF006G - All Notes Report

     Note: 05             Inventories and Related Property                                                                                      Fiscal Year: 2006              Period: SEPTEMBER
  Entity: 2000            Department of the Treasury                                                                                            Agency Notes:    Note 11

 Status: Complete

Tab: Line Item Notes
                                                                                       Acct
      Closing Package Line Description                                          NB     Type      2006 - SEPTEMBER           2005 - SEPTEMBER           Rounding Method: Millions
       Inventory and Related Property                                           D        A                          389                       468
                                                                                                                                                                    Decimal: Zero
                                                                                    Variance:                        0                          0

Line No    Line Description              2006 - SEPTEMBER              2005 - SEPTEMBER                 Previously Rptd                Line Item Changes
 1         Gross Inventory -                                     468                            468                            468                           0
           balance beginning of
           year
 2         Prior-period
           adjustment (not
           restated)
 3         Capitalized                                         1,084                            978                            978                           0
           acquisitions from the
           public
 4         Capitalized
           acquisitions from
           Government agencies
 5         Inventory sold or used                             -1,157                          -963                            -963                           0
 6         Total allowance for                                    -6                           -15                             -15                           0
           inventories and related
           property
           Total                                                 389                            468                            468                           0

Tab: Other Notes Info.

      Section: A               Section Name: Inventory Yearend Balances by Category Type                                             Rounding Method: Millions                      Decimal: Zero

Line Line Description       2006 - SEPTEMBER                 2005 - SEPTEMBER                 Previously Rptd             Line Item Changes                                                              Line     NB
 No                                                                                                                                                                                                   Attributes
  1 Inventory                                                                                                                                                                                          Dollars   Debit
     purchased for
     sale
  2 Inventory held in                                                                                                                                                                                   Dollars   Debit
     reserve for future
     sale to the public
  3 Inventory and                                                                                                                                                                                       Dollars   Debit
     operating material
     and supplies held
     for repair
  4 Inventory -                                                                                                                                                                                         Dollars   Debit
     excess, obsolete,
     and
     unserviceable


                                                                                                           - 21 -
                                                                                                                                                                        11/16/2006 08:47:05

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                     GF006G - All Notes Report

   Note: 05              Inventories and Related Property                                                               Fiscal Year: 2006          Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                     Agency Notes:    Note 11

 Status: Complete

Tab: Other Notes Info.

    Section: A                Section Name: Inventory Yearend Balances by Category Type                      Rounding Method: Millions                  Decimal: Zero

  5 Operating                                    15                      16                    16                   0                                                       Dollars   Debit
    materials and
    supplies held for
    use
  6 Operating                                    23                      22                    22                   0                                                       Dollars   Debit
    materials and
    supplies held in
    reserve for future
    use
  7 Operating                                                                                                                                                               Dollars   Debit
    materials and
    supplies excess,
    obsolete, and
    unserviceable
  8 Stockpile                                                                                                                                                               Dollars   Debit
    materials
  9 Stockpile                                                                                                                                                               Dollars   Debit
    materials held for
    sale
 10 Forfeited property                          59                       57                    57                   0                                                       Dollars   Debit
 11 Other related                              304                      388                   388                   0                                                       Dollars   Debit
    property
 12 Total allowance                              12                      15                    15                   0                                                       Dollars   Credit
    for inventories
    and related
    property
 13 Total inventories                          389                      468                   468                   0                                                       Dollars    N/A
    and related
    property, net




                                                                                               - 22 -
                                                                                                                                                                               11/16/2006 08:47:05

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                      GF006G - All Notes Report

   Note: 05              Inventories and Related Property                                                                      Fiscal Year: 2006          Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                            Agency Notes:    Note 11

 Status: Complete

Tab: Other Notes Info.

    Section: B                Section Name: Capitalized Acquitions From Government Agencies    No Data Flag: YES    Rounding Method: Millions                  Decimal: Zero
                                            by Trading Patrner

Line Line Description      2006 - SEPTEMBER                 2005 - SEPTEMBER         Previously Rptd       Line Item Changes                                                        Line     NB
 No                                                                                                                                                                              Attributes
  1 General Services                                                                                                                                                              Dollars   Debit
     Administration
  2 Department of                                                                                                                                                                  Dollars   Debit
     Defense
  3 Department of                                                                                                                                                                  Dollars   Debit
     Interior
  4 Department of                                                                                                                                                                  Dollars   Debit
     Justice
  5 National                                                                                                                                                                       Dollars   Debit
     Aeronautics and
     Space
     Administration
  6 All other                                                                                                                                                                      Dollars   Debit
     departments
  7 Total Capitalized                                                                                                                                                              Dollars   N/A
     Assets from
     Federal Agencies

    Section: C                Section Name: Other Information                                  No Data Flag: YES    Rounding Method: Millions                  Decimal: Zero

Line Line Description      2006 - SEPTEMBER                 2005 - SEPTEMBER                                                                                                        Line     NB
 No                                                                                                                                                                              Attributes
  1 Difference                                                                                                                                                                    Dollars   Debit
     between stockpile
     material carrying
     amount and its
     estimated selling
     price
  2 Difference                                                                                                                                                                     Dollars   Debit
     between excess,
     obsolete, or
     unserviceable
     material carrying
     amount and its
     estimated selling
     price
  3 Amount of                                                                                                                                                                      Dollars   Debit
     inventory
     revalued by


                                                                                                  - 23 -
                                                                                                                                                                                                  11/16/2006 08:47:05

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF006G - All Notes Report

      Note: 05             Inventories and Related Property                                                                               Fiscal Year: 2006                Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                     Agency Notes:     Note 11

  Status: Complete

 Tab: Other Notes Info.

       Section: C               Section Name: Other Information                                        No Data Flag: YES     Rounding Method: Millions                            Decimal: Zero

       holding gains and
       losses
     4 Change in                                                                                                                                                                                      Dollars     Debit
       allowance




       Section: D               Section Name: Seized Property-Analysis of Change in Dollar Value                             Rounding Method: Millions                            Decimal: Zero

Line Line Description           CY Balance at the             CY Seized during the      CY Disposed of during CY Balance at end of the           PY Balance at the          PY Seized during the  Line             NB
 No                          Beginning of the year                        year D                  the year C                   year        Beginning of the year D                      year D Attributes
                                                D
     1 Change in dollar                         858                           803                         621                     1,040                          867                           699    Dollars     N/A
       value Seized
       Property
     2                                                                                                                                                                                                Dollars     N/A
     3                                                                                                                                                                                                Dollars     N/A
     4                                                                                                                                                                                                Dollars     N/A
Line Line Description      PY Disposed of during        PY Balance at the end of                                                                                                                        Line       NB
 No                                  the year C                       the year                                                                                                                       Attributes
  1 Change in dollar                           708                          858                                                                                                                       Dollars      N/A
     value Seized
     Property
  2                                                                                                                                                                                                   Dollars      N/A
  3                                                                                                                                                                                                   Dollars      N/A
  4                                                                                                                                                                                                   Dollars      N/A
 Tab: Text Data

 Line No             Question                                                                                          Answer
 1                   Method used to calculate allowance for each category of inventory                                 All inventory that is not sale has an allowance of 100% of the original value (US Mint).
                                                                                                                       Note that the Department had nominal allowances on all inventory (FY 06 $12M, FY 05
                                                                                                                       $15M)
 2                   Restrictions on inventory for each category of inventory                                          None are known
 3                   Changes from the prior year's accounting method, if any for each category of inventory            Mint Gold and silver working stock and reserve previously held in inventory reclassed to
                                                                                                                       Gold and Silver Reserves


                                                                                                              - 24 -
                                                                                                                                                                                         11/16/2006 08:47:05

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF006G - All Notes Report

    Note: 05            Inventories and Related Property                                                                              Fiscal Year: 2006            Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                    Agency Notes:   Note 11

  Status: Complete

 Tab: Other Notes Info.

     Section: E              Section Name: Seized Property-Analysis of Change in the Number
                                           of Items

Line Line Description      CY Balance at the               CY Seized during the      CY Disposed of during CY Balance at the end of           PY Balance at the     PY Seized during the    Line        NB
 No                   beginning of the year                              year                    the year                the year        beginning of the year                    year   Attributes
  1 Change in units                21,356.0000                     52,616.0000               -50,883.0000              23,089.0000                 24,677.0000              56,326.0000    Units        N/A
     Seized Property
  2                                                                                                                                                                                           Units     N/A
  3                                                                                                                                                                                           Units     N/A
  4                                                                                                                                                                                           Units     N/A
Line Line Description   PY Disposed of during        PY Balance at the end of                                                                                                                 Line      NB
 No                                 the year                       the year                                                                                                                Attributes
  1 Change in units               -59,647.0000                  21,356.0000                                                                                                                  Units      N/A
     Seized Property
  2                                                                                                                                                                                           Units     N/A
  3                                                                                                                                                                                           Units     N/A
  4                                                                                                                                                                                           Units     N/A

     Section: F              Section Name: Forfeited Property-Analysis of Change in Dollar                               Rounding Method: Millions                       Decimal: Zero
                                           Value

Line Line Description        CY Balance at the        CY Additions during the        CY Disposed of during CY Balance at end of the           PY Balance at the   PY Additions during the  Line         NB
 No                       beginning of the year                      year D                    the year C                   year        beginning of the year D                  year D Attributes
                                             D
   1 Change in Dollar                         60                           251                        237                       74                          46                      298      Dollars    N/A
     Value Forfeited
     Property
   2                                                                                                                                                                                         Dollars    N/A
   3                                                                                                                                                                                         Dollars    N/A
   4                                                                                                                                                                                         Dollars    N/A
Line Line Description   PY Disposed of during        PY Balance at end of the                                                                                                                 Line      NB
 No                               the year C                          year                                                                                                                 Attributes
  1 Change in Dollar                        284                            60                                                                                                               Dollars     N/A
     Value Forfeited
     Property
  2                                                                                                                                                                                          Dollars    N/A
  3                                                                                                                                                                                          Dollars    N/A
  4                                                                                                                                                                                          Dollars    N/A




                                                                                                       - 25 -
                                                                                                                                                                                               11/16/2006 08:47:05

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF006G - All Notes Report

      Note: 05            Inventories and Related Property                                                                            Fiscal Year: 2006                Period: SEPTEMBER
      Entity: 2000        Department of the Treasury                                                                                  Agency Notes:      Note 11

  Status: Complete

 Tab: Other Notes Info.

        Section: G             Section Name: Forfeited Property-Analysis of Change in the Number
                                             of Items

Line Line Description        CY Balance at the          CY Additions during the      CY Disposed of during CY Balance at the end of           PY Balance at the PY Additionals during the    Line             NB
 No                     beginning of the year                            year                    the year                the year        beginning of the year                     year   Attributes
  1 Change in units                  10,386.0000                   33,854.0000               -34,333.0000               9,907.0000                 14,169.0000               40,574.0000    Units             N/A
     related to
     forfeited property
  2                                                                                                                                                                                                 Units     N/A
  3                                                                                                                                                                                                 Units     N/A
  4                                                                                                                                                                                                 Units     N/A
Line Line Description     PY Disposed of during        PY Balance at the end of                                                                                                                     Line      NB
 No                                   the year                       the year                                                                                                                    Attributes
  1 Change in units                 -44,357.0000                  10,386.0000                                                                                                                       Units     N/A
     related to
     forfeited property
  2                                                                                                                                                                                                 Units     N/A
  3                                                                                                                                                                                                 Units     N/A
  4                                                                                                                                                                                                 Units     N/A

        Section: H             Section Name: Goods Held Under Price Support and Stabilization       No Data Flag: YES     Rounding Method: Millions                           Decimal: Zero
                                             Programs-Analysis of Change in Dollar Value

Line Line Description       CY Beginning of year         CY Acquired during the      CY Disposed of during CY Balance at the end of     PY Beginning of year D        PY Acquired during the  Line            NB
 No                                           D                        year D                  the year C                the year                                                   year D Attributes
  1                                                                                                                                                                                          Dollars          N/A
  2                                                                                                                                                                                          Dollars          N/A
  3                                                                                                                                                                                          Dollars          N/A
  4                                                                                                                                                                                          Dollars          N/A
Line Line Description     PY Disposed of during        PY Balance at the end of                                                                                                                     Line      NB
 No                                 the year C                       the year                                                                                                                    Attributes
  1                                                                                                                                                                                               Dollars     N/A
  2                                                                                                                                                                                               Dollars     N/A
  3                                                                                                                                                                                               Dollars     N/A
  4                                                                                                                                                                                               Dollars     N/A
 Tab: Text Data

  Line No            Question                                                                                       Answer
  4                  Basis for valuation for each category of inventory                                             All inventories held by the US Mint are valued using a weighted average.



                                                                                                       - 26 -
                                                                                                                                                                                         11/16/2006 08:47:05

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF006G - All Notes Report

    Note: 05              Inventories and Related Property                                                                            Fiscal Year: 2006            Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                                  Agency Notes:   Note 11

  Status: Complete

 Tab: Other Notes Info.

     Section: I                Section Name: Goods Held Under Price Support and Stabilization       No Data Flag: YES
                                             Programs-Analysis of Change in Volume

Line Line Description      CY Balance at the             CY Acquired during the      CY Disposed of during CY Balance at the end of           PY Balance at the   PY Acquired during the    Line         NB
 No                   beginning of the year                              year                   the year                 the year        beginning of the year                    year   Attributes
  1                                                                                                                                                                                        Units         N/A
  2                                                                                                                                                                                        Units         N/A
  3                                                                                                                                                                                        Units         N/A
  4                                                                                                                                                                                        Units         N/A
Line Line Description     PY Disposed of during        PY Balance at the end of                                                                                                               Line       NB
 No                                  the year                        the year                                                                                                              Attributes
  1                                                                                                                                                                                          Units       N/A
  2                                                                                                                                                                                          Units       N/A
  3                                                                                                                                                                                          Units       N/A
  4                                                                                                                                                                                          Units       N/A

     Section: J                Section Name: Goods Held Under Price Support and Stabilization       No Data Flag: YES    Rounding Method: Millions                       Decimal: Zero
                                             Programs-Other Information

Line Line Description       2006 - SEPTEMBER                 2005 - SEPTEMBER                                                                                                                 Line     NB
 No                                                                                                                                                                                        Attributes
  1 Estimate to be                                                                                                                                                                          Dollars   Debit
     donated or
     transferred during
     the coming period
  2 Goods received                                                                                                                                                                           Dollars    Debit
     as a result of
     surrender of
     collateral related
     to nonrecourse
     loans outstanding
  3 Dollar value of                                                                                                                                                                          Dollars    Debit
     purchase
     commitments
  4 Contingent loss if                                                                                                                                                                       Dollars    Credit
     it is at least
     reasonably
     possible




                                                                                                       - 27 -
                                                                                                                                                                                          11/16/2006 08:47:05

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF006G - All Notes Report

    Note: 05             Inventories and Related Property                                                                        Fiscal Year: 2006                 Period: SEPTEMBER
    Entity: 2000         Department of the Treasury                                                                              Agency Notes:       Note 11

 Status: Complete

Tab: Other Notes Info.

      Section: K              Section Name: Goods Held Under Price Support and Stabilization   No Data Flag: YES
                                            Programs-Volume

Line Line Description      2006 - SEPTEMBER                 2005 - SEPTEMBER                                                                                                                    Line      NB
 No                                                                                                                                                                                          Attributes
  1 Volume of                                                                                                                                                                                  Units      N/A
     purchase
     agreement
     commitments




      Section: L              Section Name: Forfeited Property by Type                                               Rounding Method: Millions                            Decimal: Zero

Line Line Description      2006 - SEPTEMBER                 2005 - SEPTEMBER                                                                                                                    Line     NB
 No                                                                                                                                                                                          Attributes
  1 Estimate of value                             2                        17                                                                                                                 Dollars   Debit
     to be distributed
     to other Federal
     agencies or State
     and local
     governments



Tab: Text Data

 Line No           Question                                                                                    Answer
                                                                                                               All inventories held by the Bureau of Engraving and Printing are valued at standard
                                                                                                               cost, except for finished goods in inventories, which are valued at weighted average
                                                                                                               unit cost. Both methods approximate actual cost. Cost elements included in work-in-
                                                                                                               process and finished goods inventories are direct materials, direct labor, manufacturing
                                                                                                               overhead and
                                                                                                               manufacturing support.
5                  Decision criteria for categorizing inventory                                                Inventory is categorized as Raw Material, Work-In-Process or Finished Goods. Raw
                                                                                                               Materials are virgin or precious metals, Work-In-Process is anything that has been
                                                                                                               worked on at all, and Finished Goods are goods available for sale.




                                                                                                 - 28 -
                                                                                                                                                                                                   11/16/2006 08:47:05

                                                                                           U.S. Department of the Treasury
                                                                                            Financial Management Service
                                                                                       Governmentwide Financial Report System
                                                                                              GF006G - All Notes Report

     Note: 05         Inventories and Related Property                                                                                  Fiscal Year: 2006                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                        Agency Notes:       Note 11

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                          Answer
6                  Any changes in criteria for categorizing inventory                                                Inventories consist of the following:
                                                                                                                     Raw materials and supplies
                                                                                                                     Work-in-process
                                                                                                                     Finished goods - regular currency
                                                                                                                     Finished goods - postage stamps and special products
                                                                                                                     Finished goods - uncut currency
7                  What constitutes a seizure related to seized property                                             A seizure normally constitutes taking into custody the property, real or personal, of a
                                                                                                                     person or entity against whom the judgment of a competent court has passed or the
                                                                                                                     consequence of a violation of public law has occurred. Property may be simultaneously
                                                                                                                     seized for more than
                                                                                                                     one purpose, i.e. seized as evidence of criminal activity and seized for tax enforcement.
8                  Provide a general description of seized property                                                  Seized property includes monetary instruments, real property, tangible and personal
                                                                                                                     property of others (Currency, other monetary instruments, real property, general
                                                                                                                     property, vessels, aircraft, vehicles and prohibited property).
9                  Provide method of disposal related to seized property                                             The methods of disposal for seized property are recognized through redemption,
                                                                                                                     release, abandonment, or acquired for the United States. Before sale or abandonment
                                                                                                                     can occur, seized property must convert to a forfeited status by legal proceedings. The
                                                                                                                     exception to this falls under IRS code 6331 where levy and sale of taxpayer property
                                                                                                                     can occur without regard to the forfeiture process.
10                 Provide information about any liens or other claims against property related to seized            Valuation of property seized under Internal Revenue Code will be based on market
                   property                                                                                          value less any liens or claims from a third party. A valuation allowance would be
                                                                                                                     established for liens or claims from a third party. For tax receivables, the valuation is
                                                                                                                     limited to the amount due to the
                                                                                                                     federal government.
11                 Discuss method of disposition as it relates to forfeited property                                 Disposition of forfeited property is achieved through sale, transfer, remissions,
                                                                                                                     destructions, or it is held for internal use. This applies to all categories of forfeited
                                                                                                                     property.
12                 Discuss restrictions on use or distribution of forfeited property                                 If property is sold, there are no restrictions on the property except as noted and integral
                                                                                                                     to the sale; if the property is destroyed, there are no restrictions; and if the property is
                                                                                                                     transferred, it is subject to the Government policy which authorizes the transfer. This
                                                                                                                     applies
                                                                                                                     to all categories of property.
                                                                                                                     Forfeited property that cannot be sold or distributed due to legal restrictions, i.e., guns,
                                                                                                                     drugs are destroyed and have no financial value.
13                 Discuss the basis for valuing commodities including method and cost flow assumptions as it        na
                   relates to goods held under price support and stabilization programs
14                 Discuss changes from the prior year's accounting method, if any, as it relates to goods held      na
                   under price support and stabilization programs
15                 Discuss restrictions on the use, disposal, or sale as it relates to goods held under price        na
                   support and stabilization programs
16                 Provide any other relevant information.                                                           na




                                                                                                            - 29 -
                                                                                                                                                                                                 11/16/2006 08:47:05

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                     GF006G - All Notes Report

     Note: 06           Property, Plant, and Equipment                                                                                      Fiscal Year: 2006              Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                                          Agency Notes:    Note 12

 Status: Complete

Tab: Line Item Notes
                                                                                   Acct
      Closing Package Line Description                                      NB     Type      2006 - SEPTEMBER         2005 - SEPTEMBER             Rounding Method: Millions
       Property, Plant and Equipment                                        D        A                      2,182                    2,398
                                                                                                                                                                Decimal: Zero
                                                                                Variance:                       0                           0

Line No    Line Description                         CY PP&E         CY Accum. Depr.                   CY Net PP& E                          PY PP&E               PY Accum. Depr.                PY Net PP&E
 1         PP&E - balance                                  5,400                   3,002                          2,398                            5,280                         2,535                     2,745
           beginning of year
 2         Prior-period                                        0                                                           0                             3                                                        3
           adjustments (not
           restated)
 3         Capitalized                                       405                                                         405                          360                                                       360
           acquisitions from the
           public
 4         Capitalized                                        27                              1                           26                           41                           3                            38
           acquisitions from
           Government agencies
 5         Deletions from the                               -345                          -216                          -129                         -278                        -134                          -144
           Balance Sheet
 6         Revaluations                                       -9                                                          -9                           -6                          -2                            -4
 7         Stewardship
           reclassifications
 8         Depreciation/amortizati                                                          509                         -509                                                      600                          -600
           on
           Total                                            5,478                         3,296                        2,182                         5,400                       3,002                         2,398

Tab: Other Notes Info.

      Section: A            Section Name: Gross cost for PP&E for each category                                                Rounding Method: Millions                         Decimal: Zero

Line Line Description    2006 - SEPTEMBER                2005 - SEPTEMBER                 Previously Rptd           Line Item Changes                                                                 Line     NB
 No                                                                                                                                                                                                Attributes
  1 Buildings,                                642                      583                            583                               0                                                           Dollars   Debit
     structures, and
     facilities
     (including
     improvement to
     land)
  2 Furniture,                              3,182                     2,602                         2,602                               0                                                            Dollars   Debit
     fixtures, and
     equipment
  3 Construction in                            14                      172                            172                               0                                                            Dollars   Debit
     progress



                                                                                                       - 30 -
                                                                                                                                                                                               11/16/2006 08:47:05

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF006G - All Notes Report

   Note: 06             Property, Plant, and Equipment                                                                               Fiscal Year: 2006                Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                                   Agency Notes:      Note 12

 Status: Complete

Tab: Other Notes Info.

     Section: A              Section Name: Gross cost for PP&E for each category                                          Rounding Method: Millions                            Decimal: Zero

  4 Land                                          12                         11                           11                     0                                                                 Dollars     Debit
  5 Automated data                             1,027                        901                          901                     0                                                                 Dollars     Debit
     processing
     software
  6 Assets under                                  22                         86                           86                     0                                                                 Dollars     Debit
     capital lease
  7 Leasehold                                    487                        461                          461                     0                                                                 Dollars     Debit
     improvements
  8 Other property,                               92                        584                          584                     0                                                                 Dollars     Debit
     plant and
     equipment
  9 Total property,                            5,478                      5,400                        5,400                     0                                                                 Dollars     N/A
     plant and
     equipment
Threshold
 Line Description                                                Question                                                         Answer
 Other Notes Info - Furniture, fixtures, and equipment (2006 -   Please provide explanations for any amounts that have            aggregate increase in many bureaus, no single factor
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000
                                                                 between the current fiscal year and prior fiscal year.
                                                                 (Unaudited)
 Other Notes Info - Construction in progress (2006 -             Please provide explanations for any amounts that have            multiple bureau reclassification from CIP.
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000
                                                                 between the current fiscal year and prior fiscal year.
                                                                 (Unaudited)
 Other Notes Info - Automated data processing software           Please provide explanations for any amounts that have            internal use software projects primarily at IRS, and some at various other
 (2006 - SEPTEMBER)                                              changed by 10% or more and or greater than 500,000               bureaus.
                                                                 between the current fiscal year and prior fiscal year.
                                                                 (Unaudited)
 Other Notes Info - Assets under capital lease (2006 -           Please provide explanations for any amounts that have            Reduction in capital leases at IRS. See IRS standalone report Notes 6 & 8.
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000
                                                                 between the current fiscal year and prior fiscal year.
                                                                 (Unaudited)
 Other Notes Info - Other property, plant and equipment          Please provide explanations for any amounts that have            Moved IRS wip internal use software as deployed from Other to internal use
 (2006 - SEPTEMBER)                                              changed by 10% or more and or greater than 500,000
                                                                 between the current fiscal year and prior fiscal year.
                                                                 (Unaudited)




                                                                                                         - 31 -
                                                                                                                                                                                    11/16/2006 08:47:05

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF006G - All Notes Report

   Note: 06              Property, Plant, and Equipment                                                                              Fiscal Year: 2006         Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                  Agency Notes:   Note 12

 Status: Complete

Tab: Other Notes Info.

    Section: B               Section Name: Accumulated Depreciation/Amortization                                      Rounding Method: Millions                     Decimal: Zero

Line Line Description     2006 - SEPTEMBER                2005 - SEPTEMBER             Previously Rptd       Line Item Changes                                                           Line    NB
 No                                                                                                                                                                                   Attributes
  1 Buildings,                                 249                       216                       216                           0                                                     Dollars Credit
     structures, and
     facilities
  2 Furniture,                               2,317                     1,796                     1,796                           0                                                      Dollars   Credit
     fixtures, and
     equipment
  3 Automated data                             431                       285                       285                           0                                                      Dollars   Credit
     processing
     software
  4 Assets under                                  7                       48                        48                           0                                                      Dollars   Credit
     capital lease
  5 Leasehold                                  292                       245                       245                           0                                                      Dollars   Credit
     improvements
  6 Other property,                               0                      412                       412                           0                                                      Dollars   Credit
     plant, and
     equipment
  7 Total                                   -3,296                    -3,002                    -3,002                           0                                                      Dollars    N/A
     accumulated
     depreciation/amor
     tization

    Section: C               Section Name: Intragovernmental Capitalized acquisition amounts                          Rounding Method: Millions                     Decimal: Zero

Line Line Description     2006 - SEPTEMBER                2005 - SEPTEMBER             Previously Rptd       Line Item Changes                                                           Line     NB
 No                                                                                                                                                                                   Attributes
  1 General Services                            23                        35                        35                           0                                                     Dollars   Debit
     Administration
  2 Department of                                                                                                                                                                       Dollars   Debit
     Defense
  3 Department of the                                                                                                                                                                   Dollars   Debit
     Interior
  4 Department of                                                                                                                                                                       Dollars   Debit
     Justice
  5 National                                                                                                                                                                            Dollars   Debit
     Aeronautics and
     Space
     Administration
  6 All other                                     1                          3                       3                           0                                                      Dollars   Debit
     departments



                                                                                                    - 32 -
                                                                                                                                                                                  11/16/2006 08:47:05

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF006G - All Notes Report

   Note: 06             Property, Plant, and Equipment                                                                             Fiscal Year: 2006         Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                                 Agency Notes:   Note 12

 Status: Complete

Tab: Other Notes Info.

    Section: C              Section Name: Intragovernmental Capitalized acquisition amounts                         Rounding Method: Millions                     Decimal: Zero

  7 Total capitalized                          24                         38                       38                          0                                                      Dollars    N/A
    assets from
    Federal agencies




    Section: D              Section Name: Estimated useful life

Line Line Description        CY Low Estimate             CY High Estimate             PY Low Estimate       PY High Estimate                                                           Line      NB
 No                                                                                                                                                                                 Attributes
  1 Building,                         25,000.0000                 50,000.0000              25,000.0000            50,000.0000                                                         Units      N/A
     structures, and
     facilities
     (including
     improvement to
     land)
  2 Furniture,                        25,000.0000                 50,000.0000              25,000.0000            50,000.0000                                                          Units     N/A
     fixtures, and
     equipment
  3 Construction in                   25,000.0000                 50,000.0000              25,000.0000            50,000.0000                                                          Units     N/A
     progress
  4 Land                              25,000.0000                 50,000.0000              25,000.0000            50,000.0000                                                          Units     N/A
  5 Automated data                    25,000.0000                 50,000.0000              25,000.0000            50,000.0000                                                          Units     N/A
     processing
     software
  6 Assets under                      25,000.0000                 50,000.0000              25,000.0000            50,000.0000                                                          Units     N/A
     capital lease
  7 Leasehold                         25,000.0000                 50,000.0000              25,000.0000            50,000.0000                                                          Units     N/A
     improvements
  8 Other property,                   25,000.0000                 50,000.0000              25,000.0000            50,000.0000                                                          Units     N/A
     plant, and
     equipment




                                                                                                   - 33 -
                                                                                                                                                                                     11/16/2006 08:47:05

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF006G - All Notes Report

   Note: 06                Property, Plant, and Equipment                                                                             Fiscal Year: 2006         Period: SEPTEMBER
  Entity: 2000             Department of the Treasury                                                                                 Agency Notes:   Note 12

 Status: Complete

Tab: Other Notes Info.

     Section: E                Section Name: Capitalization threshold for PP&E (SFFAS No. 6, par.                         Rounding Method: Whole-Dollars             Decimal: Zero
                                             45)

Line Line Description                    CY Low                      CY High                        PY Low                PY High                                                         Line     NB
 No                                                                                                                                                                                    Attributes
  1 Building,                                 25,000                    50,000                       25,000                  50,000                                                     Dollars   Debit
     structures, and
     facilities
     (including
     improvement to
     land)
  2 Furniture,                                25,000                    50,000                       25,000                  50,000                                                      Dollars   Debit
     fixtures, and
     equipment
  3 Construction in                           25,000                    50,000                       25,000                  50,000                                                      Dollars   Debit
     progress
  4 Land                                      25,000                    50,000                       25,000                  50,000                                                      Dollars   Debit
  5 Automated data                            25,000                    50,000                       25,000                  50,000                                                      Dollars   Debit
     processing
     software
  6 Assets under                              25,000                    50,000                       25,000                  50,000                                                      Dollars   Debit
     capital lease
  7 Leasehold                                 25,000                    50,000                       25,000                  50,000                                                      Dollars   Debit
     improvements
  8 Other property,                           25,000                    50,000                       25,000                  50,000                                                      Dollars   Debit
     plant, and
     equipment

     Section: F                Section Name: Gains/Loss on Sale/Disposition                           No Data Flag: YES   Rounding Method: Millions                  Decimal: Zero

Line Line Description       2006 - SEPTEMBER                2005 - SEPTEMBER                                                                                                              Line     NB
 No                                                                                                                                                                                    Attributes
  1 Gain/Loss on                                                                                                                                                                        Dollars   Debit
     sale/disposition of
     property, plant
     and equipment




                                                                                                        - 34 -
                                                                                                                                                                                              11/16/2006 08:47:05

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF006G - All Notes Report

    Note: 06          Property, Plant, and Equipment                                                                                   Fiscal Year: 2006               Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                       Agency Notes:    Note 12

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                        Answer
1                  Enter the method of amortization and depreciation for each category/class of property, plant,   The Department uses straight line depreciation on all PP&E with varying service lives.
                   and equipment (SFFAS No. 6, par 45).                                                            Buildings, structures and facilities 3-50 years
                                                                                                                   Furniture, fixtures and equipment 2-20 years
                                                                                                                   Construction in progress n/a
                                                                                                                   ADP software 2-10 years
                                                                                                                   Assets under capital lease 2-25 years
                                                                                                                   Leasehold improvements 2-25 years
                                                                                                                   Other PP&E (ADP equipment, etc.) 2-30 years
2                  Explain any changes from the prior-year's capitalization threshold, if any, for each            NONE
                   category/class of property, plant, and equipment (SFFAS No. 6, par 45).
3                  Disclose any restrictions on the use or convertibility of general property, plant, and          no restrictions identified
                   equipment, if any, for each category/class of property, plant, and equipment (SFFAS No. 6,
                   par 45).
4                  Provide the physical quantity information by category for multiuse heritage assets that are     ONE- The Main Treasury Building and Annex
                   included in the "Line Item Notes" tab of this note (SFFAS No. 16, par 9).
5                  Disclose any transfer of land where the book value is not known by the receiving entity, if     NONE
                   material (SFFAS No. 6, par.72).
6                  Provide any other relevant information pertaining to this note.                                 NONE




                                                                                                          - 35 -
                                                                                                                                                                                               11/16/2006 08:47:05

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                      GF006G - All Notes Report

     Note: 07           Securities and Investments                                                                                      Fiscal Year: 2006               Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                                      Agency Notes:      Note 7

 Status: Complete

Tab: Line Item Notes
                                                                                     Acct
      Closing Package Line Description                                       NB      Type      2006 - SEPTEMBER      2005 - SEPTEMBER          Rounding Method: Millions
       Securities and Investments                                             D        A                    9,325                   9,404
                                                                                                                                                            Decimal: Zero
                                                                                  Variance:                      0                      0

Line No     Line Description           2006 - SEPTEMBER              2005 - SEPTEMBER                Previously Rptd            Line Item Changes
 2          Exchange Stabilization                           9,277                          9,216                   9,404                           -188
            Fund
 3
 4
 5
 6
 7          Other securities and                               48                             188                                                    188
            investments
            Total                                            9,325                          9,404                     9,404                            0

Threshold
Line Description                                                Question                                                              Answer
Line Item Notes - Other securities and investments (2006 -      Please provide explanations for any amounts that have                The Air Transportation Safety Board disposed of stock warrants during FY
SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000 between           2006.
                                                                the current fiscal year and prior fiscal year. (Unaudited)



Tab: Other Notes Info.

      Section: A             Section Name: Gain/Loss on Disposition of Securities and                No Data Flag: YES        Rounding Method: Millions                        Decimal: Zero
                                           Investments

Line Line Description     2006 - SEPTEMBER              2005 - SEPTEMBER                                                                                                                            Line     NB
 No                                                                                                                                                                                              Attributes
  1 Gain/Loss on                                                                                                                                                                                  Dollars   Debit
     disposition of
     securities and
     investments




                                                                                                        - 36 -
                                                                                                                                                                                             11/16/2006 08:47:05

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF006G - All Notes Report

    Note: 07          Securities and Investments                                                                                       Fiscal Year: 2006                Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                       Agency Notes:      Note 7

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                           Answer
1                  Provide a description of the programs reported on the "Line Item Notes" tab for lines 1            See Departmental Note 7 - The balance is mostly comprised of investments held by
                   through 6.                                                                                         the Exchange Stabilzation Fund
2                  Provide a description and related amounts for balances that exceed $1 billion in the line title    Euro Bonds $4
                   "Other Assets" on the "Line Item Notes" tab.                                                       Japanese Government Bonds $ 5
3                  Provide any other relevant information pertaining to this note.                                    none




                                                                                                             - 37 -
                                                                                                                                                                                                        11/16/2006 08:47:05

                                                                                          U.S. Department of the Treasury
                                                                                           Financial Management Service
                                                                                      Governmentwide Financial Report System
                                                                                             GF006G - All Notes Report

     Note: 08             Other Assets                                                                                                           Fiscal Year: 2006                Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                             Agency Notes:      Note 9

 Status: Complete

Tab: Line Item Notes
                                                                                           Acct
        Closing Package Line Description                                            NB     Type      2006 - SEPTEMBER         2005 - SEPTEMBER           Rounding Method: Millions
        Other Assets                                                                D        A                      5,510                   5,486
                                                                                                                                                                     Decimal: Zero
                                                                                        Variance:                         0                     0

Line No     Line Description               2006 - SEPTEMBER               2005 - SEPTEMBER                   Previously Rptd            Line Item Changes
 1          Advances and                                            11                              12                           12                            0
            prepayments
 2          (I) Securities and
            investments
 3          Other Assets                                         5,499                            5,474                       5,474                            0
             Total                                               5,510                            5,486                       5,486                            0




Tab: Text Data

 Line No               Question                                                                                                Answer
 1                     Provide a description of advances and prepayments on the "Line Item Notes" tab for line 1.              Advances are the aggregate at every bureau. Most of this balance applies to IRS and is
                                                                                                                               not significant to the IRS or Departmental Balance Sheet.
 2                     Provide a description and related amounts for balances that exceed $1 billion in the line titled        see Departmental Note 9, concerning $5,488 Investments in International Financial
                       "Other Assets" on the "Line Item Notes" tab.                                                            Institutions
 3                     Provide any other relevant information pertaining to this note.                                         none




                                                                                                                - 38 -
                                                                                                                                                                                        11/16/2006 08:47:05

                                                                            U.S. Department of the Treasury
                                                                             Financial Management Service
                                                                        Governmentwide Financial Report System
                                                                               GF006G - All Notes Report

   Note: 09            Accounts Payable                                                                                         Fiscal Year: 2006                Period: SEPTEMBER
  Entity: 2000         Department of the Treasury                                                                               Agency Notes:      Note 18

 Status: Complete

Tab: Line Item Notes
                                                                              Acct
     Closing Package Line Description                                 NB      Type      2006 - SEPTEMBER        2005 - SEPTEMBER        Rounding Method: Millions
     Accounts Payable                                                  C        L                         704                495
                                                                                                                                                    Decimal: Zero
                                                                           Variance:                       0                   0

Line No     Line Description         2006 - SEPTEMBER         2005 - SEPTEMBER                Previously Rptd           Line Item Changes
 1          Accounts Payable                            704                            495                        495                         0
            Total                                       704                            495                        495                         0

Threshold
Line Description                                         Question                                                             Answer
Line Item Notes - Accounts Payable (2006 - SEPTEMBER)    Please provide explanations for any amounts that have               increase in accounts payble is the aggregate result from all bureaus, no
                                                         changed by 10% or more and or greater than 500,000 between          single reason for the increase
                                                         the current fiscal year and prior fiscal year. (Unaudited)




Tab: Other Notes Info.




                                                                                                 - 39 -
                                                                                                                                                                                       11/16/2006 08:47:05

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                      GF006G - All Notes Report

      Note: 10A          Federal Debt Securities Held by the Public                                                                     Fiscal Year: 2006              Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                     Agency Notes:    Note 14

 Status: Complete

Tab: Line Item Notes
                                                                                     Acct
       Closing Package Line Description                                      NB      Type      2006 - SEPTEMBER       2005 - SEPTEMBER         Rounding Method: Millions
        Federal Debt Securities Held by the Public                            C        L               4,844,074                4,600,668
                                                                                                                                                            Decimal: Zero
                                                                                  Variance:           -4,844,074               -4,600,668

Line No     Line Description             2006 - SEPTEMBER             2005 - SEPTEMBER               Previously Rptd           Line Item Changes
 1           Marketable Securities                      908,474                      910,323                      910,323                            0
            - Treasury bills
 2           Marketable Securities                       2,445,307                    2,328,212                    2,328,212                         0
            - Treasury notes
 3           Marketable Securities                         534,473                     520,507                      520,507                          0
            - Treasury bonds
 4           Marketable Securities                         395,550                     307,011                      307,011                          0
            - Treasury inflation
            protected securities
 5           Non-marketable                                559,317                     535,186                      535,186                          0
            securities
 6           Unamortized premium                              6,293                         6,973                     6,973                          0
            on Treasury securities
 7           Unamortized discount                          -46,459                     -42,504                      -42,504                          0
            on Treasury securities
 8          Accrued interest                                41,119                         34,960                    34,960                          0
            payable on debt
            issued by Treasury
  9         Securities at par
 10          Unamortized premium
            on securities
 11          Unamortized discount
            on securities
 12          Accrued interest
            payable on agency
            securities
            Total                                         4,844,074                   4,600,668                    4,600,668                         0

Tab: Other Notes Info.




                                                                                                        - 40 -
                                                                                                                                                                                       11/16/2006 08:47:05

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                          GF006G - All Notes Report

   Note: 10A              Federal Debt Securities Held by the Public                                                                    Fiscal Year: 2006         Period: SEPTEMBER
  Entity: 2000            Department of the Treasury                                                                                    Agency Notes:   Note 14

 Status: Complete

Tab: Other Notes Info.

    Section: A                 Section Name: Federal Debt Held By the Public: Other Related                              Rounding Method: Millions                     Decimal: Zero
                                             Information

Line Line Description       2006 - SEPTEMBER               2005 - SEPTEMBER              Previously Rptd        Line Item Changes                                                           Line    NB
 No                                                                                                                                                                                      Attributes
  1 Debt subject to                        8,420,278                   7,871,040                 7,871,040                          0                                                     Dollars Credit
     statutory limit
  2 Statutory debt                         8,965,000                   8,184,000                 8,184,000                          0                                                      Dollars    Credit
     limit




    Section: B                 Section Name: Federal Debt Held By The Public: Average Interest
                                             Rate

Line Line Description       2006 - SEPTEMBER               2005 - SEPTEMBER                                                                                                                 Line       NB
 No                                                                                                                                                                                      Attributes
  1 Marketable                                5.0000                     3.4000                                                                                                           Percent      N/A
     securities -
     Treasury bills
  2 Marketable                                4.2000                     3.7000                                                                                                           Percent      N/A
     securities -
     Tresury notes
  3 Marketable                                7.6000                     7.9000                                                                                                           Percent      N/A
     securities -
     Treasury bonds
  4 Marketable                                2.3000                     2.4000                                                                                                           Percent      N/A
     securities -
     Treasury inflation
     protected
     securities
  5 Non-marketable                            5.0000                     4.9000                                                                                                           Percent      N/A
     securities




                                                                                                       - 41 -
                                                                                                                                                                                           11/16/2006 08:47:05

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF006G - All Notes Report

    Note: 10B             Treasury securities held by the Government trust, revolving, and special funds                                 Fiscal Year: 2006            Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                                     Agency Notes:   None Eliminated

  Status: Complete

 Tab: Other Notes Info.

     Section: A                Section Name: Investments in Federal Debt securities                                          Rounding Method: Millions                     Decimal: Zero

Line Line Description         CY Par value of the                CY Unamortized CY Unamortized premium              CY Net Investment             PY Par Value D PY Unamortized discount   Line           NB
 No                               investment D                      Discount C                       D                                                                                C Attributes
 19 Department of                           15,711                                                                              15,711                    15,238                         Dollars          N/A
     Treasury,
     Exchange
     Stabilization Fund
 21                                                                                                                                                                                            Dollars    N/A
 22                                                                                                                                                                                            Dollars    N/A
 23                                                                                                                                                                                            Dollars    N/A
 24 All other                                  5,441                            13                         117                   5,545                       5,123                    18       Dollars    N/A
     programs and
     funds
Line Line Description            PY Unamortized             PY Net Investment                                                                                                                   Line      NB
 No                                 premium D                                                                                                                                                Attributes
  19 Department of                                                         15,238                                                                                                             Dollars     N/A
     Treasury,
     Exchange
     Stabilization Fund
  21                                                                                                                                                                                           Dollars    N/A
  22                                                                                                                                                                                           Dollars    N/A
  23                                                                                                                                                                                           Dollars    N/A
  24 All other                                  162                         5,267                                                                                                              Dollars    N/A
     programs and
     funds




                                                                                                           - 42 -
                                                                                                                                                                                            11/16/2006 08:47:05

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF006G - All Notes Report

     Note: 11           Federal Employee and Veteran Benefits Payable                                                                Fiscal Year: 2006               Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                                   Agency Notes:     no seperate note - ref 18

 Status: Complete

Tab: Line Item Notes
                                                                                Acct
      Closing Package Line Description                                    NB    Type     2006 - SEPTEMBER      2005 - SEPTEMBER             Rounding Method: Millions

                                                                                                                                                         Decimal: Zero
                                                                            Variance:

Line No    Line Description           2006 - SEPTEMBER            2005 - SEPTEMBER               Previously Rptd             Line Item Changes
 1         Pension and accrued
           benefits
 2         Post-retirement health
           and accrued benefits
 3         Veteran's
           compensation and
           burial benefits
 4         Life Insurance and
           accrued benefits
 5         FECA Benefits                                    635                         684                        684                            0
 6         Liability for other
           retirement and
           postemployment
           benefits
           Total                                            635                         684                          684                          0

Tab: Other Notes Info.

      Section: A            Section Name: Pension and Accrued Benefits Liability-To be           No Data Flag: YES         Rounding Method: Millions                        Decimal: Zero
                                          completed for the amount entered for pension and
                                          accrued benefits in the "Line Item Notes" tab

Line Line Description    2006 - SEPTEMBER              2005 - SEPTEMBER                Previously Rptd       Line Item Changes                                                                   Line    NB
 No                                                                                                                                                                                           Attributes
  1 Pension and                                                                                                                                                                                Dollars Credit
     accrued benefits
     liability-
     beginning of
     period
  2 Prior-period                                                                                                                                                                                Dollars   Credit
     adjustments(not
     restated)
  3 Plan amendment                                                                                                                                                                              Dollars   Credit
     liability
  4 (I) Plan                                                                                                                                                                                    Dollars    N/A
     amendment
     liability



                                                                                                    - 43 -
                                                                                                                                                                                        11/16/2006 08:47:05

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF006G - All Notes Report

   Note: 11                Federal Employee and Veteran Benefits Payable                                                         Fiscal Year: 2006               Period: SEPTEMBER
  Entity: 2000             Department of the Treasury                                                                            Agency Notes:     no seperate note - ref 18

 Status: Complete

Tab: Other Notes Info.

       Section: A              Section Name: Pension and Accrued Benefits Liability-To be          No Data Flag: YES   Rounding Method: Millions                        Decimal: Zero
                                             completed for the amount entered for pension and
                                             accrued benefits in the "Line Item Notes" tab

  5 Assumption                                                                                                                                                                              Dollars    Credit
    Change Liability
  6 Normal Costs                                                                                                                                                                            Dollars    Credit
    (SFFAS No. 5,
    par. 72)
  7 Interest on                                                                                                                                                                             Dollars    Credit
    Liability
  8 Prior (and past)                                                                                                                                                                        Dollars    Credit
    service cost (or
    the initiation of a
    new plan)
  9 Actuarial                                                                                                                                                                               Dollars    Credit
    (gains)/losses
 10 Total pension                                                                                                                                                                           Dollars     N/A
    expense (SFFAS
    No. 5, par.72)
 11 Less Benefits                                                                                                                                                                           Dollars    Debit
    Paid
 12 Pension and                                                                                                                                                                             Dollars     N/A
    Accrued Benefits
    Liability-end of
    period

       Section: B              Section Name: Pension Liability Long-Term Significant Assumptions   No Data Flag: YES
                                             Used in 2006 and 2005 Valuation (SFFAS No. 5,
                                             par.67)

Line   Line Description                       CY                           PY                                                                                                                Line       NB
 No                                                                                                                                                                                       Attributes
  1    Rate of Interest                                                                                                                                                                    Percent      N/A
  2    Rate of inflation                                                                                                                                                                   Percent      N/A
  3    Projected salary                                                                                                                                                                    Percent      N/A
       increases




                                                                                                     - 44 -
                                                                                                                                                                                           11/16/2006 08:47:05

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                      GF006G - All Notes Report

   Note: 11                 Federal Employee and Veteran Benefits Payable                                                            Fiscal Year: 2006              Period: SEPTEMBER
  Entity: 2000              Department of the Treasury                                                                               Agency Notes:    no seperate note - ref 18

 Status: Complete

Tab: Other Notes Info.

     Section: C                 Section Name: Postretirement Health and Accrued Benefits             No Data Flag: YES    Rounding Method: Millions                        Decimal: Zero

Line Line Description        2006 - SEPTEMBER              2005 - SEPTEMBER                Previously Rptd       Line Item Changes                                                              Line    NB
 No                                                                                                                                                                                          Attributes
  1 Postretirement                                                                                                                                                                            Dollars Credit
     health and
     accrued benefits
     liability-beginning
     of period (SFFAS
     No. 5, par.88)
  2 Prior-period                                                                                                                                                                               Dollars   Credit
     adjustments (not
     restated)
  3 Plan amendment                                                                                                                                                                             Dollars   Credit
     liability
  4 Assumption                                                                                                                                                                                 Dollars   Credit
     change liability
  5 Normal costs                                                                                                                                                                               Dollars   Credit
  6 Interest on liability                                                                                                                                                                      Dollars   Credit
  7 Change in                                                                                                                                                                                  Dollars   Credit
     medical inflation
     rate assumption
     (gains)/losses
  8 Other actuarial                                                                                                                                                                            Dollars   Credit
     (gains)/losses
  9 Total                                                                                                                                                                                      Dollars    N/A
     postretirement
     health benefits
     expense
 10 Less claims paid                                                                                                                                                                           Dollars   Debit
 11 Postretirement                                                                                                                                                                             Dollars    N/A
     health and
     accrued benefits
     liability-end of
     period




                                                                                                        - 45 -
                                                                                                                                                                                         11/16/2006 08:47:05

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                      GF006G - All Notes Report

   Note: 11                Federal Employee and Veteran Benefits Payable                                                            Fiscal Year: 2006             Period: SEPTEMBER
  Entity: 2000             Department of the Treasury                                                                               Agency Notes:   no seperate note - ref 18

 Status: Complete

Tab: Other Notes Info.

     Section: D                Section Name: Postretirement Health Liability Significant          No Data Flag: YES
                                             Assumptions Used in Determining the 2006 and 2005
                                             Valuation

Line Line Description       2006 - SEPTEMBER              2005 - SEPTEMBER              Previously Rptd        Line Item Changes                                                              Line      NB
 No                                                                                                                                                                                        Attributes
  1 Rate of Interest                                                                                                                                                                        Percent     N/A
  2 Rate of health                                                                                                                                                                          Percent     N/A
     care cost inflation
  4 (I) Normal costs                                                                                                                                                                        Percent     N/A
  5 (I) Interest on                                                                                                                                                                         Percent     N/A
     liability
  6 (I) Change in                                                                                                                                                                           Percent     N/A
     medical inflation
     rate assumption
     (gains)/losses
  7 (I) Other                                                                                                                                                                               Percent     N/A
     actuarial
     (gains)/losses
  9 (I) Less claims                                                                                                                                                                         Percent     N/A
     paid
 10 (I) Postretirement                                                                                                                                                                      Percent     N/A
     health and
     accrued benefits
     liability-end of
     period

     Section: E                Section Name: Veteran's Compensation and Burial Benefits (to be    No Data Flag: YES     Rounding Method: Millions                        Decimal: Zero
                                             completed by the Department of Veterans Affairs)

Line Line Description         2006 - SEPTEMBER          2005 - SEPTEMBER D             Previously Rptd D      Line Item Changes D                                                             Line      NB
 No                                          D                                                                                                                                             Attributes
  4 Total                                                                                                                                                                                   Dollars     N/A
     compensation
     and burial
     benefits payable




                                                                                                     - 46 -
                                                                                                                                                                                              11/16/2006 08:47:05

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                           GF006G - All Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                     Fiscal Year: 2006             Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                        Agency Notes:   no seperate note - ref 18

 Status: Complete

Tab: Other Notes Info.

       Section: G             Section Name: Assets                                                         No Data Flag: YES     Rounding Method: User-Defined                   Decimal: User-Defined

Line Line Description      2006 - SEPTEMBER                2005 - SEPTEMBER                   Previously Rptd           Line Item Changes                                                           Line     NB
 No                                                                                                                                                                                              Attributes
  1 Non-marketable                                                                                                                                                                                Dollars   Debit
     Treasury
     securities held by
     Thrift Savings
     Plan (TSP) Fund
  2 Total assets of                                                                                                                                                                                Dollars   Debit
     pension and other
     retirment and
     benefit plans
  3 Market value of                                                                                                                                                                                Dollars   Debit
     investments in
     market-based
     and marketable
     securities
     included in line 2
Tab: Text Data                         No Data Flag: YES

 Line No            Question                                                                                                Answer
 1                  Provide the following information as it relates to whole life insurance (SFFAS No. 5, par.
                    121): a description of each component of the liability for future policy benefits, an explanation
                    of its projected use, and any other potential uses.
 2                  Provide the following information as it relates to life insurance (other than whole life)
                    (SFFAS No. 5, par. 110, table 9): a description of each component of the liability for future
                    policy benefits, an explanation of its projected use, and any oth
 3                  Provide additional disclosures required by SFFAS No. 5, par. 117 for whole life insurance
                    programs.
 4                  For pension plans that differ from the Civil Service Retirement System (CSRS), the Federal
                    Employee Retirement System (FERS), and the Military Retirement System (MRS), describe
                    assumptiions used (SFFAS 5, par. 67).
 5                  Provide the long-term projection (25 years) of the significant assumptions used in
                    determining the pension liability and the related expense.
 6                  Provide the long-term projection (25 years) of the significant assumptions used in
                    determining the post-retirement health benefits liability and the related expense.
 7                  Provide any other relevant information pertaining to this note.




                                                                                                              - 47 -
                                                                                                                                                                                    11/16/2006 08:47:05

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                     GF006G - All Notes Report

   Note: 12              Environmental and Disposal Liabilities                                                                    Fiscal Year: 2006              Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                Agency Notes:   N/A

 Status: Complete

Tab: Line Item Notes
                                                                                  Acct
     Closing Package Line Description                                        NB   Type     2006 - SEPTEMBER      2005 - SEPTEMBER         Rounding Method: Millions

                                                                                                                                                       Decimal: Zero
                                                                              Variance:

Line No   Line Description              2006 - SEPTEMBER           2005 - SEPTEMBER                Previously Rptd        Line Item Changes
 1
 2
 3
 4
 5
 6        Other Environmental
          and Disposal Liabilities
          Total




Tab: Other Notes Info.

    Section: A                Section Name: Other Related Information                              No Data Flag: YES    Rounding Method: User-Defined                  Decimal: User-Defined

Line Line Description      2006 - SEPTEMBER               2005 - SEPTEMBER               Previously Rptd       Line Item Changes                                                          Line     NB
 No                                                                                                                                                                                    Attributes
  1 Amount of                                                                                                                                                                           Dollars   Debit
     operating and
     capital
     expenditures
     used to remediate
     legacy waste
  2 Unrecognized                                                                                                                                                                         Dollars   Debit
     portion of
     estimated total
     cleanup costs
     associated with
     general property,
     plant, and
     equipment
  3 Estimated                                                                                                                                                                            Dollars   Debit
     cleanup costs
     when general
     property, plant
     and equipment is


                                                                                                      - 48 -
                                                                                                                                                                              11/16/2006 08:47:05

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF006G - All Notes Report

    Note: 12              Environmental and Disposal Liabilities                                                                     Fiscal Year: 2006      Period: SEPTEMBER
    Entity: 2000          Department of the Treasury                                                                                 Agency Notes:   N/A

 Status: Complete

Tab: Other Notes Info.

      Section: A               Section Name: Other Related Information                                  No Data Flag: YES   Rounding Method: User-Defined        Decimal: User-Defined

     placed into
     service
  4 Changes in total                                                                                                                                                               Dollars   Debit
     estimated
     cleanup costs
     due to changes in
     law and
     technology
  5 Portion of the                                                                                                                                                                 Dollars   Debit
     change in
     estimated costs
     due to changes in
     law and
     technology that is
     related to prior
     periods
Tab: Text Data                          No Data Flag: YES

 Line No           Question                                                                                             Answer
1                   Describe the method for assigning estimated cleanup cost to operating periods (SFFAS No.
                    6, par. 108)
2                   Provide the formulation of estimates regarding possible changes to cleanup costs due to
                    inflation, deflation, technology, or applicable laws and regulations (SFFAS No. 6, par. 111).
3                   List the applicable laws and regulations covering cleanup requirements
4                   Provide a description of type of environmental and disposal liabilties identified.
5                   Provide any other relevant information pertaining to this note.




                                                                                                            - 49 -
                                                                                                                                                                     11/16/2006 08:47:05

                                                                     U.S. Department of the Treasury
                                                                      Financial Management Service
                                                                 Governmentwide Financial Report System
                                                                        GF006G - All Notes Report

      Note: 13          Benefits Due and Payable                                                                      Fiscal Year: 2006              Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                    Agency Notes:   N/A

 Status: Complete

Tab: Line Item Notes
                                                                       Acct
       Closing Package Line Description                         NB     Type     2006 - SEPTEMBER      2005 - SEPTEMBER       Rounding Method: Millions
        Benefits Due and Payable                                C        L                        0                  0
                                                                                                                                          Decimal: Zero
                                                                    Variance:                     0                  0

Line No     Line Description          2006 - SEPTEMBER   2005 - SEPTEMBER             Previously Rptd         Line Item Changes
 9          Other Benefits Due
            and Payable
 10         (I)
 11         (I)
 12         (I)
            Total




Tab: Other Notes Info.




                                                                                         - 50 -
                                                                                                                                                                                                         11/16/2006 08:47:05

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF006G - All Notes Report

     Note: 14           Insurance Programs Other Than Veterans Affairs                                                                       Fiscal Year: 2006                  Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                           Agency Notes:       N/A - None

 Status: Complete

Tab: Line Item Notes
                                                                                       Acct
        Closing Package Line Description                                        NB     Type     2006 - SEPTEMBER         2005 - SEPTEMBER             Rounding Method: Millions
        Insurance Programs                                                      C        L                          13                     12
                                                                                                                                                                 Decimal: Zero
                                                                                    Variance:                       0                        0

Line No     Line Description            2006 - SEPTEMBER              2005 - SEPTEMBER                  Previously Rptd            Line Item Changes
 4          Other Insurance                                      13                             12                                                         12
            Programs
 5          (I) Other insurance                                                                                             12                            -12
            programs
             Total                                               13                             12                          12                               0




Tab: Text Data

 Line No             Question                                                                                             Answer
 1                   Provide a description for the type of insurance programs identified in the "Line Item Notes"         The accuarial laibility relates to an insurance program at the Office of the
                     tab.                                                                                                 Comptroller of the Currency. Change is less than 10%
 2                   Provide a description and related amounts for balances that exceed $1 billion entered on the         N/A
                     line titled "Other insurance prorams" in the "Line Item Notes" tab.
 3                   Provide any other relevant information pertaining to this note.                                      None




                                                                                                           - 51 -
                                                                                                                                                                                                     11/16/2006 08:47:05

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF006G - All Notes Report

      Note: 15              Other Liabilities                                                                                              Fiscal Year: 2006                  Period: SEPTEMBER
  Entity: 2000              Department of the Treasury                                                                                     Agency Notes:       Note 5, 6, 8, 18

 Status: Complete

Tab: Line Item Notes
                                                                                           Acct
       Closing Package Line Description                                            NB      Type      2006 - SEPTEMBER    2005 - SEPTEMBER           Rounding Method: Millions
        Other Liabilities                                                           C        L                  33,591                33,608
                                                                                                                                                               Decimal: Zero
                                                                                        Variance:              -33,591               -33,608

Line No     Line Description                    2006 - SEPTEMBER           2005 - SEPTEMBER                Previously Rptd         Line Item Changes
 1          Deferred revenue                                        271                             248                      248                          0
 2          Accrued wages and                                       348                             278                      830                       -552
            benefits
 3          Gold certificates                                  11,037                            10,924                  10,924                            0
 4          Other debt
 5          Exchange Stabilization                                 9,433                          9,302                   9,302                            0
            Fund
 6          Deposited funds and                                     497                             844                      844                           0
            undeposited
            collections
  7         Capital lease liability                                   4                              26                       26                           0
  8         Contingent liability                                      2
  9         Accrued grant liability
 10         Federal aid highway
            grant accruals
 11         Actuarial liabilities
 12         Nuclear waste fund
 13         D.C. pension liability                                 9,068                          8,511                   8,511                           0
 14         Custodial liability                                        3                              3                       3                           0
 15         Accrued annual leave                                     573                            552                                                 552
 16         (I) Other accrued
            liabilities
 17
 18
 19
 20          Other Liabilities                                  2,468                             2,920                   2,920                            0
             Total                                             33,704                            33,608                  33,608                            0

Threshold
Line Description                                                      Question                                                           Answer
Line Item Notes - Accrued wages and benefits (2006 -                  Please provide explanations for any amounts that have              Reclass of 50M in accrued annual leave related to Treasury Public
SEPTEMBER)                                                            changed by 10% or more and or greater than 500,000 between         Entrerprise Funds.
                                                                      the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - Deposited funds and undeposited                     Please provide explanations for any amounts that have              The change is related to fluctuations both positive and negative related to
collections (2006 - SEPTEMBER)                                        changed by 10% or more and or greater than 500,000 between         multiple Treasury Bureaus.
                                                                      the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                              - 52 -
                                                                                                                                                                                             11/16/2006 08:47:05

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF006G - All Notes Report

     Note: 15           Other Liabilities                                                                                                 Fiscal Year: 2006                  Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                        Agency Notes:       Note 5, 6, 8, 18

 Status: Complete




Threshold
Line Description                                                 Question                                                              Answer
Line Item Notes - Capital lease liability (2006 -                Please provide explanations for any amounts that have                 Declining calital lease at IRS.
SEPTEMBER)                                                       changed by 10% or more and or greater than 500,000 between
                                                                 the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - Other Liabilities (2006 - SEPTEMBER)           Please enter a description for any amounts over $50 million.          Accrued liabilities from various bureaus.




Tab: Other Notes Info.
Tab: Text Data

 Line No            Question                                                                                           Answer
 1                   Provide a description of the liabilities reported on the "Line Item Notes" tab for lines 1        Same as defined line items note.
                     through 18.
 2                   Provide a description and related amounts for balances that exceed $2 billion on the "Line        Various accrued liabilities at multiple bureaus
                     Item Notes" tab for the line titled "Other liabilities".
 3                   Provide any other relevant information pertaining to this note.                                   none




                                                                                                            - 53 -
                                                                                                                                                                                 11/16/2006 08:47:05

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF006G - All Notes Report

   Note: 16             Collections and Refunds of Federal Revenue                                                             Fiscal Year: 2006            Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                             Agency Notes:   Note 1, 22

 Status: Complete

Tab: Other Notes Info.

    Section: A              Section Name: Collections of Federal Revenue                                        Rounding Method: Millions                        Decimal: Zero

Line Line Description                    2006                          2005                   2004           Prior Years                                                              Line    NB
 No                                                                                                                                                                                Attributes
  1 Individual income                   1,309,338                     690,831                 17,307               16,733                                                           Dollars Credit
     and tax
     withholdings
  2 Corporation                           259,140                     103,803                  1,669               15,814                                                            Dollars   Credit
     income taxes
  3 Unemployment                            5,080                       2,276                     52                  125                                                            Dollars   Credit
     taxes
  4 Excise taxes                           53,488                      18,999                     91                  196                                                            Dollars   Credit
  5 Estate and gift                            50                      18,806                  1,240                8,592                                                            Dollars   Credit
     taxes
  6 Railroad                                3,577                       1,094                      0                       2                                                         Dollars   Credit
     retirement taxes
  7 Federal Reserve                        24,141                       5,804                                                                                                        Dollars   Credit
     earnings
  8 Fines, penalties,                       1,862                         436                                                                                                        Dollars   Credit
     interest, and
     other revenue
  9 Custom duties                                                                                                                                                                    Dollars   Credit
 10 Subtotal                           -1,656,676                    -842,049                -20,359              -41,462                                                            Dollars    N/A
 11 Amounts                                   374                                                                                                                                    Dollars   Debit
     collected for
     Non-Federal
     entities
 12 Total                              -1,656,302                    -842,049                -20,359              -41,462                                                            Dollars    N/A

    Section: B              Section Name: PP Collections of Federal Revenue                                     Rounding Method: Millions                        Decimal: Zero

Line Line Description                    2005                          2004                   2003           Prior Years                                                              Line    NB
 No                                                                                                                                                                                Attributes
  1 Individual income                   1,211,866                     620,914                 13,873               18,034                                                           Dollars Credit
     and tax
     withholdings
  2 Corporation                           209,398                      83,098                  1,178               13,195                                                            Dollars   Credit
     income taxes
  3 Unemployment                            4,915                       1,890                     37                  106                                                            Dollars   Credit
     taxes
  4 Excise taxes                           52,330                      18,954                    104                  582                                                            Dollars   Credit
  5 Estate and gift                            77                      16,616                  1,278                7,634                                                            Dollars   Credit
     taxes


                                                                                                 - 54 -
                                                                                                                                                                                  11/16/2006 08:47:05

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF006G - All Notes Report

   Note: 16              Collections and Refunds of Federal Revenue                                                             Fiscal Year: 2006            Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                             Agency Notes:   Note 1, 22

 Status: Complete

Tab: Other Notes Info.

    Section: B               Section Name: PP Collections of Federal Revenue                                     Rounding Method: Millions                        Decimal: Zero

  6 Railroad                                 3,464                       1,071                      1                       3                                                         Dollars   Credit
    retirement taxes
  7 Federal Reserve                         14,208                       5,089                                                                                                        Dollars   Credit
    earnings
  8 Fines, penalties,                        2,157                         360                                                                                                        Dollars   Credit
    interest, and
    other revenue
  9 Customs duties                                                                                                                                                                    Dollars   Credit
 10 Subtotal                            -1,498,415                    -747,992                -16,471              -39,554                                                            Dollars    N/A
 11 Amounts                                    454                                                                                                                                    Dollars   Debit
    collected for non-
    Federal entities
 12 Total                               -1,497,961                    -747,992                -16,471              -39,554                                                            Dollars    N/A

    Section: C               Section Name: Federal Tax Refunds Disbursed                                         Rounding Method: Millions                        Decimal: Zero

Line Line Description                     2006                          2005                   2004           Prior Years                                                              Line     NB
 No                                                                                                                                                                                 Attributes
  1 Individual income                            612                   225,503                 13,465                5,606                                                           Dollars   Debit
     and tax
     withholdings
  2 Corporation                              1,238                       8,805                  3,906               16,514                                                            Dollars   Debit
     income taxes
  3 Unemployment                                                            86                     19                   38                                                            Dollars   Debit
     taxes
  4 Excise taxes                                                           479                     46                  178                                                            Dollars   Debit
  5 Estate and gift                              429                       240                    332                  279                                                            Dollars   Debit
     taxes
  6 Railroad                                                               -31                     15                   19                                                            Dollars   Debit
     retirement taxes
  7 Federal Reserve                                                                                                                                                                   Dollars   Debit
     earnings
  8 Fines, penalties,                                                                                                                                                                 Dollars   Debit
     interest, and
     other revenue
  9 Customs Duties                                                                                                                                                                    Dollars   Debit
 10 Total                                    2,279                     235,082                 17,783               22,634                                                            Dollars    N/A




                                                                                                  - 55 -
                                                                                                                                                                                       11/16/2006 08:47:05

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF006G - All Notes Report

   Note: 16             Collections and Refunds of Federal Revenue                                                                   Fiscal Year: 2006            Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                                   Agency Notes:   Note 1, 22

 Status: Complete

Tab: Other Notes Info.

    Section: D              Section Name: PP Fed Tax Refunds Disbursed for the FY                                     Rounding Method: Millions                        Decimal: Zero

Line Line Description                    2005                         2004                       2003              Prior Years                                                              Line     NB
 No                                                                                                                                                                                      Attributes
  1 Individual income                           586                  211,102                    12,842                    5,489                                                           Dollars   Debit
     and tax
     withholdings
  2 Corporation                                 970                    7,167                     5,500                   21,458                                                            Dollars   Debit
     income taxes
  3 Unemployment                                  1                      73                         13                       31                                                            Dollars   Debit
     taxes
  4 Excise taxes                                329                     337                         46                      283                                                            Dollars   Debit
  5 Estate and gift                               0                     257                        373                      253                                                            Dollars   Debit
     taxes
  6 Railroad                                      0                          2                       0                           2                                                         Dollars   Debit
     retirement taxes
  7 Federal Reserve                                                                                                                                                                        Dollars   Debit
     earnings
  8 Fines, penalties,                                                                                                                                                                      Dollars   Debit
     interest, and
     other revenue
  9 Customs duties                                                                                                                                                                         Dollars   Debit
 10 Total                                   1,886                    218,938                    18,774                   27,516                                                            Dollars    N/A

    Section: E              Section Name: Miscellaneous                                                               Rounding Method: Millions                        Decimal: Zero

Line Line Description    2006 - SEPTEMBER              2005 - SEPTEMBER                Previously Rptd       Line Item Changes                                                              Line     NB
 No                                                                                                                                                                                      Attributes
  1 Portion due from                              0                          0                                                   0                                                        Dollars   Debit
     identified non-
     compliance
     assessments
  2 Portion due from                              0                          0                                                   0                                                         Dollars   Debit
     pre-assessment
     work in process




                                                                                                    - 56 -
                                                                                                                                                                                                      11/16/2006 08:47:05

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                          GF006G - All Notes Report

    Note: 16          Collections and Refunds of Federal Revenue                                                                                Fiscal Year: 2006              Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                                Agency Notes:    Note 1, 22

 Status: Complete

Tab: Other Notes Info.

      Section: F            Section Name: Tax Gap                                                                                  Rounding Method: Millions                          Decimal: Zero

Line Line Description CY Low end of range               CY High end of range           PY Low end of range            PY High end of range                                                                 Line     NB
 No                                                                                                                                                                                                     Attributes
  1 Tax gap estimate                             0                       345,000                       312,000                        353,000                                                            Dollars   Debit




Tab: Text Data

 Line No           Question                                                                                                  Answer
1                  Disclose the basis of accounting related to Collections and Disbursements of Federal                      The Department's Statement of Custodial Activity is presented on a modified accrual
                   Revenue.                                                                                                  basis of accounting. Revenues are recognized as cash is collected. The Balance Sheet
                                                                                                                             includes an estimated amount for taxes receivable and payable to the General Fund of
                                                                                                                             the United States government (ref: Department Note 1, M)
2                  Provide a brief description of any other material types of revenue transactions that relate to            See IRS stand alone Audited Financial Statements, Notes 1H, I, and supplemental
                   the custodial responsibility of the collecting entity (SFFAS No. 7, par. 65.2).                           information.
3                  Disclose the reasons for any trust fund revenues that are not recorded in accordance with                 Trust Fund Revenues are recorded in accordance with applicable law.
                   applicable law (SFFAS No. 7, par. 66).
4                  Provide any other relevant information pertaining to this note.                                           Ref: IRS Standalone audited financial statements.
                                                                                                                             NOTE: IRS could not calculate a Tax Gap Low End Estimate, they were only able to
                                                                                                                             provide the High End.




                                                                                                             - 57 -
                                                                                                                                                                           11/16/2006 08:47:05

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                      GF006G - All Notes Report

    Note: 17            Prior-Period Adjustments                                                                                  Fiscal Year: 2006      Period: SEPTEMBER
    Entity: 2000        Department of the Treasury                                                                                Agency Notes:   NA

 Status: Complete

Tab: Other Notes Info.

      Section: A            Section Name: Prior Period Adjustments                                   No Data Flag: YES   Rounding Method: User-Defined        Decimal: User-Defined

Line Line Description    2006 - SEPTEMBER                                                                                                                                        Line    NB
 No                                                                                                                                                                           Attributes
  1 Amounts that                                                                                                                                                               Dollars Credit
     adjusted CY
     beginning net
     position - for
     change in
     accounting
     principles
  2 Amounts that                                                                                                                                                                Dollars   Credit
     adjusted CY
     beginning net
     position - for
     correction of
     errors in PP not
     restated
Tab: Text Data                        No Data Flag: YES

 Line No           Question                                                                                          Answer
1                  Describe the adjustments to beginning net position that resulted from changes in accounting
                   principles and all corrections of errors that were not restated.
2                  List the line items that were restated and the amount they were restated by, for all
                   corrections of errors restated.
3                  Describe the corrections of error that were restated.
4                  Describe any Federal prior-period adjustments.
5                  Provide any other relevant information pertaining to this note.




                                                                                                        - 58 -
                                                                                                                                                                                      11/16/2006 08:47:05

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                      GF006G - All Notes Report

    Note: 18            Contingencies                                                                                                Fiscal Year: 2006          Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                   Agency Notes:   Note 17

  Status: Complete

 Tab: Other Notes Info.

     Section: A             Section Name: Insurance Contingencies (Reasonably Possible Only)     No Data Flag: YES    Rounding Method: Millions                       Decimal: Zero

Line Line Description     2006 - SEPTEMBER              2005 - SEPTEMBER               Previously Rptd       Line Item Changes                                                             Line       NB
 No                                                                                                                                                                                     Attributes
  1                                                                                                                                                                                      Dollars     Credit
  2                                                                                                                                                                                      Dollars     Credit
  3                                                                                                                                                                                      Dollars     Credit
  4                                                                                                                                                                                      Dollars     Credit
  5 Other insurance                                                                                                                                                                      Dollars     Credit
     contingencies



     Section: B             Section Name: Insurance in force (Sum of Policy Face Value and       No Data Flag: YES    Rounding Method: Millions                       Decimal: Zero
                                          Dividends Paid)

Line Line Description     2006 - SEPTEMBER              2005 - SEPTEMBER               Previously Rptd       Line Item Changes                                                             Line       NB
 No                                                                                                                                                                                     Attributes
  1                                                                                                                                                                                      Dollars     Credit
  2                                                                                                                                                                                      Dollars     Credit
  3                                                                                                                                                                                      Dollars     Credit
  4                                                                                                                                                                                      Dollars     Credit
  5 Other insurance                                                                                                                                                                      Dollars     Credit
     in force


     Section: C             Section Name: Civil Litigation, Claims and Assessments                                    Rounding Method: Millions                       Decimal: Zero

Line Line Description     CYAccrued/Estimated        CY Estimated Range(Low          CY Estimated Range CY Claim amount(Unable           PYAccrued/Estimated PY Estimated Range(Low     Line    NB
 No                                 amount                            end)                  (High end)      to determine loss)          amount rued/Estimated                 end)   Attributes
                                                                                                                                                    amount
   1 Probable                                   0                          0                         0                           0                         0                       0  Dollars Credit
   2 Reasonably                                 0                        488                         0                                                     0                       0  Dollars Credit
     Possible
Line Line Description     PY Estimated Range         PY Claim amunt (unable                                                                                                                Line     NB
 No                               (High end)                 to determine)                                                                                                              Attributes
  1 Probable                                   0                           0                                                                                                             Dollars   Credit
  2 Reasonably                                 0                           0                                                                                                             Dollars   Credit
     Possible




                                                                                                    - 59 -
                                                                                                                                                                                   11/16/2006 08:47:05

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF006G - All Notes Report

    Note: 18            Contingencies                                                                                              Fiscal Year: 2006          Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                 Agency Notes:   Note 17

  Status: Complete

 Tab: Other Notes Info.

     Section: D             Section Name: Environmental Litigation, Claims, and Assessments     No Data Flag: YES      Rounding Method: Millions                   Decimal: Zero

Line Line Description     CYAccrued/Estimated             CY Estimated Range        CY Estimated Range     CY Claim amunt(unable       PY Accrued/Estimated    PY Estimated Range    Line    NB
 No                                 amount                        (Low end)                (High end)              to determine)                  amount               (Low end)  Attributes
  1 Probable                                                                                                                                                                       Dollars Credit
  2 Reasonably                                                                                                                                                                     Dollars Credit
     Possible
Line Line Description     PY Estimated Range         PY Claim amount (unable                                                                                                            Line     NB
 No                            (High Range)                    to determine)                                                                                                         Attributes
  1 Probable                                                                                                                                                                          Dollars   Credit
  2 Reasonably                                                                                                                                                                        Dollars   Credit
     Possible

     Section: E             Section Name: Other Contingencies                                                          Rounding Method: Millions                   Decimal: Zero

Line Line Description     2006 - SEPTEMBER               2005 - SEPTEMBER                                                                                                               Line    NB
 No                                                                                                                                                                                  Attributes
  1 Terrorism Risk                              0                           0                                                                                                         Dollars Credit
     Insurance
     Program - see
     text data
  2                                                                                                                                                                                    Dollars   Credit
  3                                                                                                                                                                                    Dollars   Credit
  4                                                                                                                                                                                    Dollars   Credit
  5                                                                                                                                                                                    Dollars   Credit




                                                                                                  - 60 -
                                                                                                                                                                                                   11/16/2006 08:47:05

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF006G - All Notes Report

    Note: 18          Contingencies                                                                                                     Fiscal Year: 2006                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                         Agency Notes:      Note 17

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                           Answer
1                  Describe the risk insurance programs that are in force.                                            none
2                  Provide the nature of the isurance contingencies.                                                  none
3                  Provide the nature of the litigation contingencies, including the range of loss for probable       Treasury is subject to contingent liabilities which include litigation cases. These
                   liabilities.                                                                                       contingent liabilities arise in the normal course of operations and their ultimate
                                                                                                                      disposition is unknown.
                                                                                                                      Based on information currently available, however, it is management¿s opinion that the
                                                                                                                      expected outcome of these matters, individually or in the aggregate, will not have a
                                                                                                                      materially adverse effect on the financial statements, except for the litigation described
                                                                                                                      in 5.

                                                                                                                      Treasury is a party in various administrative proceedings, legal actions, and claims
                                                                                                                      brought by or against it. At September 30, 2006 and 2005, no claims were reported in
                                                                                                                      which a loss is probable, and no contingencies existed relative to proceedings and
                                                                                                                      claims for which it is reasonably possible that a loss may be incurred, with the exception
                                                                                                                      of American Council of the Blind vs John W. Snow.
4                  Provide the nature of the litigation contingencies including the range of loss for reasonably      Treasury is subject to contingent liabilities which include litigation cases. These
                   possible contingencies.                                                                            contingent liabilities arise in the normal course of operations and their ultimate
                                                                                                                      disposition is unknown.
                                                                                                                      Based on information currently available, however, it is management's opinion that the
                                                                                                                      expected outcome of these matters, individually or in the aggregate, will not have a
                                                                                                                      materially adverse effect on the financial statements, except for the litigation described
                                                                                                                      in 5.

                                                                                                                      Treasury is a party in various administrative proceedings, legal actions, and claims
                                                                                                                      brought by or against it. At September 30, 2005 and 2004, no claims were reported in
                                                                                                                      which a loss is probable, and no contingencies existed relative to proceedings and
                                                                                                                      claims for which it is reasonably possible that a loss may be incurred, with the exception
                                                                                                                      of American Council of the Blind vs John W. Snow.




                                                                                                             - 61 -
                                                                                                                                                                                                  11/16/2006 08:47:05

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF006G - All Notes Report

    Note: 18          Contingencies                                                                                                    Fiscal Year: 2006                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                       Agency Notes:       Note 17

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                         Answer
5                  Provide the total claim amount for cases assessed as "unable to determine" if significant.       PENDING LEGAL ACTIONS
                   Also, provide a statement on whether this materiality affects the financial statements.          Based on the information provided by legal counsel and in the opinion of management,
                                                                                                                    the ultimate resolution of the following legal actions, for which a range of potential loss
                                                                                                                    could not be determined, may materially affect Treasury's financial position or results.
                                                                                                                    These specific
                                                                                                                    cases are summarized as follows:

                                                                                                                    Cobell v. Kempthorne (formerly Cobell v. Norton): Native Americans allege that the
                                                                                                                    Departments of Interior and Treasury have breached trust obligations with respect to
                                                                                                                    the management of the plaintiffs¿ individual Indian monies. The plaintiffs have not
                                                                                                                    made claims for specific dollar amounts in the Federal district court proceedings, but in
                                                                                                                    public statements have asserted that the class is owed $27.487 billion.

                                                                                                                    Tribal Trust Fund Cases: Numerous cases have been filed in which Native American
                                                                                                                    Tribes seek a declaration that the U.S. has not provided the tribes with a full and
                                                                                                                    complete accounting of their trust funds, and seek an order requiring the government to
                                                                                                                    provide such an accounting. In addition, there are a number of other related cases for
                                                                                                                    damages which do not name Treasury as a defendant. It is probable that additional
                                                                                                                    tribes may file claims. It is not possible at this time to determine the number of suits
                                                                                                                    that may be filed or the amount of damages that may be claimed.

                                                                                                                    Ferreiro v. United States: Plaintiffs claim allegedly past due civil service retirement
                                                                                                                    benefits relating to individuals¿ employment by the U.S. government in Cuba prior to
                                                                                                                    1963.

                                                                                                                    There are also other legal actions pending where the ultimate resolution of the legal
                                                                                                                    actions, for which the possibility of loss could not be determined, may materially affect
                                                                                                                    Treasury¿s financial position or results. As of September 30, 2006, 12 legal claims
                                                                                                                    amounting to approximately $3.9 billion existed for which the possibility of loss could not
                                                                                                                    be determined.

                                                                                                                    The Department also had employment cases (e.g., discrimination, Equal Employment
                                                                                                                    Opportunity Commission, Merit System Protection Board, etc.) in which a loss may be
                                                                                                                    reasonably possible, but for which a range of potential loss could not be determined.




                                                                                                           - 62 -
                                                                                                                                                                                               11/16/2006 08:47:05

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF006G - All Notes Report

    Note: 18          Contingencies                                                                                                Fiscal Year: 2006                   Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                   Agency Notes:       Note 17

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                     Answer
6                  Provide any other relevant information pertaining to this note.                              POSSIBLE LEGAL ACTIONS
                                                                                                                Terrorism Risk Insurance Program: The Terrorism Risk Insurance Act (TRIA) was
                                                                                                                signed into law on November 26, 2002. This law was enacted to address market
                                                                                                                disruptions resulting from terrorist attacks on September 11, 2001. The act helps to
                                                                                                                ensure available and affordable commercial property and casualty insurance for
                                                                                                                terrorism risk, and simultaneously allows private markets to stabilize. If a certified act of
                                                                                                                terrorism occurs, insurers may be eligible to receive Federal government insured losses
                                                                                                                above a designated deductible amount. Insured losses above this amount will be
                                                                                                                shared between insurance companies and the Federal government. The Terrorism
                                                                                                                Risk Insurance Program is activated upon the certification of an ¿act of terrorism¿ by
                                                                                                                the Secretary of the Treasury in concurrence with the Secretary of State and the
                                                                                                                Attorney General.

                                                                                                                The original TRIA program was scheduled to expire on December 31, 2005. However,
                                                                                                                this program was subsequently extended through December 31, 2007 when President
                                                                                                                Bush signed the Terrorism Risk Insurance Extension Act of 2005. This law includes the
                                                                                                                following changes: a reduced Federal role in terrorism risk insurance markets by
                                                                                                                increasing insurer deductibles and the exclusion of certain types of previously covered
                                                                                                                insurance. The act also reduces the Federal governments¿ share of insured losses.
                                                                                                                Another noteworthy change is a ¿Program Trigger¿ provision which precludes Federal
                                                                                                                payments unless insured losses from a certified terrorism event exceed $50 million in
                                                                                                                FY 2006 and $100 million in FY 2007.




                                                                                                      - 63 -
                                                                                                                                                                                               11/16/2006 08:47:05

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF006G - All Notes Report

   Note: 19             Commitments                                                                                                      Fiscal Year: 2006                Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                                       Agency Notes:    Note 17, 21

 Status: Complete

Tab: Other Notes Info.

    Section: A              Section Name: Capital leases-Asset                                                              Rounding Method: Millions                          Decimal: Zero

Line Line Description             CY Federal              CY Non-Federal                       PY Federal           PY Non-Federal                                                                  Line     NB
 No                                                                                                                                                                                              Attributes
  1 Combined                                      2                        20                              1                       85                                                             Dollars   Debit
     Department
  2                                                                                                                                                                                                Dollars   Debit
  3                                                                                                                                                                                                Dollars   Debit
  4                                                                                                                                                                                                Dollars   Debit
  5                                                                                                                                                                                                Dollars   Debit
  6 Accumulated                                   1                         6                              1                       48                                                              Dollars   Credit
     depreciation/amor
     tization
  7 Net assets under                              1                        14                              0                       37                                                              Dollars    N/A
     capital leases
Threshold
 Line Description                                            Question                                                                Answer
 Other Notes Info - Combined Department (CY Non-Federal)     Please provide explanations for any amounts that have                  Declining capital leases at IRS
                                                             changed by 10 percent or more between the
                                                             current fiscal year and prior fiscal year. (unaudited)
 Other Notes Info - Net assets under capital leases (CY      Please provide explanations for any amounts that have                  Declining capital leases at IRS
 Federal)                                                    changed by 10% or more between the current fiscal year
                                                             and prior fiscal year. (unaudited)
 Other Notes Info - Net assets under capital leases (CY      Please provide explanations for any amounts that have                  Declining capital leases at IRS
 Non-Federal)                                                changed by 10 percent or more between the
                                                             current fiscal year and prior fiscal year. (unaudited)
 Other Notes Info - Accumulated depreciation/amortization    Please provide explanations for any amounts that have                  Declining capital leases at the IRS
 (CY Non-Federal)                                            changed by 10 percent or more between the
                                                             current fiscal year and prior fiscal year. (unaudited)

    Section: B              Section Name: Capital leases - Liability                                                        Rounding Method: Millions                          Decimal: Zero

Line Line Description              CY Federal             CY Non-Federal                     PY Federal            PY Non-Federal                                                                   Line    NB
 No                                                                                                                                                                                              Attributes
  1 Future minimum                               1                          9                            1                          27                                                            Dollars Credit
     lease programs
  2 Imputed interest                             0                          1                            0                           1                                                             Dollars   Debit
  3 Executory costs                              0                          4                            0                                                                                         Dollars   Debit
     including any
     profit
  4 Total capital                               -1                         -4                          -1                         -26                                                              Dollars    N/A
     lease liability



                                                                                                       - 64 -
                                                                                                                                                                                              11/16/2006 08:47:05

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                      GF006G - All Notes Report

   Note: 19           Commitments                                                                                                    Fiscal Year: 2006                 Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                                     Agency Notes:      Note 17, 21

 Status: Complete

Tab: Other Notes Info.

    Section: B             Section Name: Capital leases - Liability                                                      Rounding Method: Millions                            Decimal: Zero

Threshold
 Line Description                                             Question                                                             Answer
 Other Notes Info - Future minimum lease programs (CY         Please provide explanations for any amounts that have                Declining capital leases at IRS . IRS standalone f/s Note 1
 Non-Federal)                                                 changed by 10 percent or more between
                                                              current fiscal year and prior fiscal year. (unaudited)




    Section: C             Section Name: Commitments: Operating leases and undelivered                                   Rounding Method: Millions                            Decimal: Zero
                                         orders

Line Line Description             CY Federal              CY Non-Federal                    PY Federal            PY Non-Federal                                                                    Line    NB
 No                                                                                                                                                                                              Attributes
  1 Operating leases                         477                          53                          588                       65                                                                Dollars Credit
  2 Undelivered                              248                      51,134                          515                   58,505                                                                Dollars Credit
     orders
Threshold
 Line Description                                             Question                                                             Answer
 Other Notes Info - Operating leases (CY Federal)             Please provide explanations for any amounts that have                The variance is comprised of changes at multiple Treasury bureaus. It was
                                                              changed by 10% or more and or greater than $500,000                  not significant to the Department's f/s
                                                              between the current fiscal year and prior fiscal year.
                                                              (unaudited)
 Other Notes Info - Operating leases (CY Non-Federal)         Please provide explanations for any amounts that have                The variance is comprised of changes at multiple Treasury bureaus. It was
                                                              changed by 10% or more and or greater than $500,000                  not significant to the Department's f/s.
                                                              between the current fiscal year and prior fiscal year.
                                                              (unaudited)
 Other Notes Info - Undelivered orders (CY Non-Federal)       Please provide explanations for any amounts that have                In FY 2005 we included $14B in undelivered orders related to the Exchange
                                                              changed by 10% or more and or greater than $500,000                  Stabilization Fund. The SGLs for ESF are included in our system.
                                                              between the current fiscal year and prior fiscal year.               However, special budgetary accounting is performed for the ESF SBR. The
                                                              (unaudited)                                                          ESF SGLs are not used in the Department's SBR. The Department is
                                                                                                                                   currently working with OMB and FMS to determine an SGL solution.
 Other Notes Info - Undelivered orders (CY Federal)           Please provide explanations for any amounts that have                Represents changes at multiple bureaus. Change is not significant to an
                                                              changed by 10% or more and or greater than $500,000                  entity the size of Treasury.
                                                              between the current fiscal year and prior fiscal year.
                                                              (unaudited)




                                                                                                      - 65 -
                                                                                                                                                                          11/16/2006 08:47:05

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF006G - All Notes Report

   Note: 19             Commitments                                                                                    Fiscal Year: 2006             Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                     Agency Notes:   Note 17, 21

 Status: Complete

Tab: Other Notes Info.

    Section: D              Section Name: Other Commitments                                                Rounding Method: Millions                      Decimal: Zero

Line Line Description             CY Federal          CY Non-Federal               PY Federal       PY Non-Federal                                                             Line    NB
 No                                                                                                                                                                         Attributes
  1 Mutilateral                                 0               62,124                      0                 62,028                                                         Dollars Credit
     Development
     Banks
  2                                                                                                                                                                           Dollars   Credit
  3                                                                                                                                                                           Dollars   Credit
  4                                                                                                                                                                           Dollars   Credit
  5                                                                                                                                                                           Dollars   Credit




                                                                                           - 66 -
                                                                                                                                                                                             11/16/2006 08:47:05

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF006G - All Notes Report

    Note: 19          Commitments                                                                                                   Fiscal Year: 2006                 Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                    Agency Notes:      Note 17, 21

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                       Answer
1                  Describe the lessee's leasing arrangements including the basis on which contingent rental      FY 05 response from Treasury bureaus that responded to this inquiry. It is reasonable
                   payments are determined, the existence and terms of renewal or purchase options,               to assume that in a diverse entity such as Treasury that there are numerous lease
                   escalation clauses and restrictions imposed by lease agreement.                                agreements with differing terms with regard to contingent lease payments, renewal or
                                                                                                                  purchase options, escalation clauses, and restrictions imposed by the lease agreement.
                                                                                                                  US Mint- We lease space in the building that we partially rent to IRS, Customs, Public
                                                                                                                  Debt and the Treasury Executive Institute. These leases are ongoing and we do not
                                                                                                                  anticipate any significant changes. Should these tenants eventually leave, we would
                                                                                                                  most likely not have a problem subletting to another tenant.
                                                                                                                  Bureau of Engraving and Printing- Lease arrangements are based on rentable square
                                                                                                                  feet. Additions may be made for parking, security, and maintenance. The agreement
                                                                                                                  may have predetermined escalation in the annual rental amount.

                                                                                                                  Community Development Financial Institutions- Leases office space from GSA under
                                                                                                                  and operating lease which expires January 2007. CDFI also leases office equipment
                                                                                                                  under various operating leases that expire at various times with options for renewal.

                                                                                                                  We lease space in the building that we partially rent to IRS, Customs, Public Debt,
                                                                                                                  Treasury Executive Institute. These leases are ongoing and we do not anticipate any
                                                                                                                  significant changes. Should these tenants eventually leave, we would most likely have
                                                                                                                  no problem subletting to another tenant. Total amount of rent payments we receive per
                                                                                                                  year is approximately $2 million. (MINT)

                                                                                                                  Lease agreements are based on rentable square feet. Additions may be made for
                                                                                                                  parking, security, and maintenance. The agreement may have predetermined
                                                                                                                  escalation in the annual rental amount. (BPF)

                                                                                                                  CDFI leases office space from GSA under an operating lease which expires January
                                                                                                                  2007. CDFI also leases office equipment under various operating leases that expire at
                                                                                                                  various times with options for annual renewal. (CDF)

                                                                                                                  N/A- All Bureaus except MINT, BPF, and CDF

2                  Provide any other relevant information pertaining to this note.                                Multilateral Development Banks (MDBs): Treasury has subscribed to capital for certain
                                                                                                                  MDBs, portions of which are callable under certain limited circumstances to meet the
                                                                                                                  obligations of the respective MDBs. There has never been, nor is there anticipated, a
                                                                                                                  call on
                                                                                                                  Treasury's subscriptions. See Department Note 17.




                                                                                                         - 67 -
                                                                                                                                                                                            11/16/2006 08:47:05

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF006G - All Notes Report

   Note: 20             Dedicated Collections (Excluding Funds Identified as Earmarked and Reported in Note 22 - Earmarked               Fiscal Year: 2006            Period: SEPTEMBER
                        Funds for Fiscal 2006
                                                                                                                                         Agency Notes:    FY 2006 Note 23 Earmarked
  Entity: 2000          Department of the Treasury

 Status: Complete

Tab: Other Notes Info.

    Section: A              Section Name: Assets - Current Year                                      No Data Flag: YES        Rounding Method: Millions                     Decimal: Zero

Line Line Description           Inv. in Fed debt           Fund balance with          Other Fed assets D          Non-Federal assets D              Total assets                                 Line      NB
 No                          securities - net D                 Treasury D                                                                                                                    Attributes
  1                                                                                                                                                                                            Dollars     N/A
  2                                                                                                                                                                                            Dollars     N/A
  3                                                                                                                                                                                            Dollars     N/A
  4                                                                                                                                                                                            Dollars     N/A
  5                                                                                                                                                                                            Dollars     N/A




    Section: B              Section Name: Assets - Prior year                                                                 Rounding Method: Millions                     Decimal: Zero

Line Line Description Inv. in Fed Debt Sec. -              Fund balance with       Other Federal assets D         Non-Federal assets D              Total assets                                 Line      NB
 No                                    net D                    Treasury D                                                                                                                    Attributes
 18 Variious Treasury                      754                            3                               6                         49                        812                              Dollars     N/A
     Held Trust Funds
     (D.C. Pensions,
     OCC, etc.)
 19                                                                                                                                                                                             Dollars    N/A
 20                                                                                                                                                                                             Dollars    N/A




    Section: C              Section Name: Liabilities - Current Year                                 No Data Flag: YES        Rounding Method: Millions                     Decimal: Zero

Line Line Description          Liability due and           Other liabilities C            Total liabilities                                                                                      Line      NB
 No                                   payable to                                                                                                                                              Attributes
                               beneficiaries C
  1 Various Treasury                                                                                                                                                                            Dollars    N/A
    Trust Funds (D.C.
    Pensions, OCC,
    etc.)
  2                                                                                                                                                                                             Dollars    N/A
  3                                                                                                                                                                                             Dollars    N/A
  4                                                                                                                                                                                             Dollars    N/A
  5                                                                                                                                                                                             Dollars    N/A




                                                                                                         - 68 -
                                                                                                                                                                                              11/16/2006 08:47:05

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF006G - All Notes Report

    Note: 20            Dedicated Collections (Excluding Funds Identified as Earmarked and Reported in Note 22 - Earmarked                 Fiscal Year: 2006            Period: SEPTEMBER
                        Funds for Fiscal 2006
                                                                                                                                           Agency Notes:    FY 2006 Note 23 Earmarked
   Entity: 2000         Department of the Treasury

  Status: Complete

 Tab: Other Notes Info.

     Section: D              Section Name: Liabilities - Prior Year                                                             Rounding Method: Millions                     Decimal: Zero

Line Line Description           Liability due and           Other liabilities C            Total liabilities                                                                                       Line      NB
 No                                    payable to                                                                                                                                               Attributes
                                beneficiaries C
  18 Various Treasury                           215                       149                          -364                                                                                       Dollars    N/A
     Trust Funds (DC
     Pensions, OCC,
     etc.)
  19                                                                                                                                                                                              Dollars    N/A
  20                                                                                                                                                                                              Dollars    N/A


     Section: E              Section Name: Current Year - Revenue, financing, expenses, and           No Data Flag: YES         Rounding Method: Millions                     Decimal: Zero
                                           other

Line Line Description Beginning net position              Exchange revenue -       Exchange revenue - with         Nonexchange revenue -     Nonexchange revenue -    Other financing sources    Line        NB
 No                                        C                      Federal C                   the public C                    Federal C           with the public C                         C Attributes
  1 Various Treasury                                                                                                                                                                           Dollars       N/A
     Trust Funds (DC
     Pensions, OCC,
     etc.)
  2                                                                                                                                                                                               Dollars    N/A
  3                                                                                                                                                                                               Dollars    N/A
  4                                                                                                                                                                                               Dollars    N/A
  5                                                                                                                                                                                               Dollars    N/A
Line Line Description     Other changes in fund        Program expenses D              Other expenses D             Ending Net Position                                                            Line      NB
 No                                 balance C                                                                                                                                                   Attributes
  1 Various Treasury                                                                                                                                                                             Dollars     N/A
     Trust Funds (DC
     Pensions, OCC,
     etc.)
  2                                                                                                                                                                                               Dollars    N/A
  3                                                                                                                                                                                               Dollars    N/A
  4                                                                                                                                                                                               Dollars    N/A
  5                                                                                                                                                                                               Dollars    N/A




                                                                                                          - 69 -
                                                                                                                                                                                                              11/16/2006 08:47:05

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                           GF006G - All Notes Report

     Note: 20           Dedicated Collections (Excluding Funds Identified as Earmarked and Reported in Note 22 - Earmarked                          Fiscal Year: 2006                Period: SEPTEMBER
                        Funds for Fiscal 2006
                                                                                                                                                    Agency Notes:      FY 2006 Note 23 Earmarked
     Entity: 2000       Department of the Treasury

  Status: Complete

 Tab: Other Notes Info.

       Section: F            Section Name: Prior Year - Revenue, financing, expenses, and                                               Rounding Method: Millions                           Decimal: Zero
                                           other

Line Line Description Beginning net position                 Exchange revenue -       Exchange revenue - with              Nonexchange revenue -      Nonexchange revenue -        Other financing sources    Line           NB
 No                                        C                         Federal C                   the public C                         Federal C            with the public C                             C Attributes
 18 Various Treasury                   -6,160                               23                            561                                  1                           0                         8,217  Dollars          N/A
     Trust Funds (DC
     Pensions, OCC,
     etc.)
 19                                                                                                                                                                                                               Dollars    N/A
 20                                                                                                                                                                                                               Dollars    N/A
Line Line Description     Other changes in fund           Program expenses D                Other expenses D                Ending net position                                                                    Line      NB
 No                                 balance C                                                                                                                                                                   Attributes
  18 Various Treasury                      -1,677                             393                            124                            -448                                                                 Dollars     N/A
     Trust Funds (DC
     Pensions, OCC,
     etc.)
  19                                                                                                                                                                                                              Dollars    N/A
  20                                                                                                                                                                                                              Dollars    N/A

       Section: G            Section Name: Other                                                            No Data Flag: YES           Rounding Method: User-Defined                       Decimal: User-Defined

Line Line Description          PY - Revenues C              PY - Other financing                   PY - Costs D                                                                                                    Line      NB
 No                                                                  sources C                                                                                                                                  Attributes
 18                                                                                                                                                                                                              Dollars     N/A
 19                                                                                                                                                                                                              Dollars     N/A
 20                                                                                                                                                                                                              Dollars     N/A




Tab: Text Data

 Line No            Question                                                                                                      Answer
 1                  State the legal authority for the administrative entity of each fund to use the collections                   Bureau of Public Debt - Indian Trust Funds - P.L 106-53,113 stat. 389-390
                    based on SFFAS No. 7, par. 85.                                                                                District of Columbia Pensions - P.L. 105-33
                                                                                                                                  Office of the Comptroller of the Currency -12 USC 481




                                                                                                                  - 70 -
                                                                                                                                                                                       11/16/2006 08:47:05

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF006G - All Notes Report

    Note: 20          Dedicated Collections (Excluding Funds Identified as Earmarked and Reported in Note 22 - Earmarked              Fiscal Year: 2006                Period: SEPTEMBER
                      Funds for Fiscal 2006
                                                                                                                                      Agency Notes:      FY 2006 Note 23 Earmarked
    Entity: 2000      Department of the Treasury

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                         Answer
2                  Provide any other relevant information pertaining to this note.                                  In the current year these funds are included in Earmarked Funds.




                                                                                                      - 71 -
                                                                                                                                                                                                 11/16/2006 08:47:05

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                          GF006G - All Notes Report

   Note: 22               Earmarked Funds                                                                                                    Fiscal Year: 2006            Period: SEPTEMBER
  Entity: 2000            Department of the Treasury                                                                                         Agency Notes:    Note 23

 Status: Complete

Tab: Other Notes Info.

    Section: A                Section Name: Assets - Current Year                                                               Rounding Method: Millions                        Decimal: Zero

Line Line Description           Cash and other              Fund balance with            Investments in U.S.      Other Federal assets D Other non-Federal Assets                 Total Assets        Line       NB
 No                          monetary assets D                   Treasury D         Treasury securities (net)                                                   D                                  Attributes
                                                                                                           D
 18 Exchange                                 19,351                           0                      15,711                             25                        9,278                   44,365     Dollars     N/A
    Stabilization Fund
 19                                                                                                                                                                                                  Dollars     N/A
 20                                                                                                                                                                                                  Dollars     N/A
 21 All other                                    19                        635                        5,151                             36                        1,230                    7,071     Dollars     N/A
    earmarked funds
 22 Intra-agency                                                                                     20,862                             57                                                20,919     Dollars     N/A
    earmarked fund
    eliminations

    Section: B                Section Name: Liabilities - Current Year                                                          Rounding Method: Millions                        Decimal: Zero

Line Line Description           Benefits Due and       Other Federal Liabilities         Other non-Federal               Total liabilties     Total ending net position   Total liabilities and net    Line      NB
 No                                  Payable C                                 C               liabilities C                                                          C                  position   Attributes
 18 Exchange                                       0                           0                       9,481                       -9,481                       34,885                     -44,366   Dollars     N/A
     Stabilization Fund
 19                                                                                                                                                                                                  Dollars     N/A
 20                                                                                                                                                                                                  Dollars     N/A
 21 All other                                      0                       329                        9,811                       -10,140                        -3,070                   -7,070     Dollars     N/A
     earmarked funds
 22 Intra-agency                                   0                         15                           0                            -15                                                   -15     Dollars     N/A
     earmarked fund
     eliminations

    Section: C                Section Name: Current Year - Revenue, Financing, Expenses, and                                    Rounding Method: Millions                        Decimal: Zero
                                            Other

Line Line Description            Net position,          Investment revenue C        Revenue from the public        Other changes in fund            Other expenses D      Program expenses D          Line       NB
 No                     beginning of period C                                                            C                   balance C                                                             Attributes
 18 Exchange                              33,552                          1,303                                                      275                           245                              Dollars      N/A
     Stabilization Fund
 19                                                                                                                                                                                                  Dollars     N/A
 20                                                                                                                                                                                                  Dollars     N/A
 21 All other                             -2,535                           220                        3,810                          -430                         2,772                    1,364     Dollars     N/A
     earmarked funds
 22 Intra-agency                                                           220                                                         -17                                                    47     Dollars     N/A
     earmarked fund


                                                                                                         - 72 -
                                                                                                                                                                       11/16/2006 08:47:05

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                    GF006G - All Notes Report

    Note: 22              Earmarked Funds                                                                             Fiscal Year: 2006           Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                  Agency Notes:     Note 23

  Status: Complete

 Tab: Other Notes Info.

     Section: C               Section Name: Current Year - Revenue, Financing, Expenses, and                Rounding Method: Millions                  Decimal: Zero
                                            Other

      eliminations
Line Line Description        Net position, end of                                                                                                                           Line      NB
 No                                      period                                                                                                                          Attributes
  18 Exchange                              -34,885                                                                                                                        Dollars     N/A
     Stabilization Fund
  19                                                                                                                                                                       Dollars    N/A
  20                                                                                                                                                                       Dollars    N/A
  21 All other                               3,071                                                                                                                         Dollars    N/A
     earmarked funds
  22 Intra-agency                             -156                                                                                                                         Dollars    N/A
     earmarked fund
     eliminations




                                                                                               - 73 -
                                                                                                                                                                                               11/16/2006 08:47:05

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF006G - All Notes Report

    Note: 22          Earmarked Funds                                                                                                 Fiscal Year: 2006                 Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                      Agency Notes:       Note 23

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                         Answer
1                  Provide a general description of the individual earmarked funds reported in the "Other Notes     The ESF uses funds to purchase or sell foreign currencies, to hold U.S. foreign
                   Info" tab (SFFAS No. 27, par. 33). Also describe how the entity accounts for and reports the     exchange and Special Drawing Rights (SDR) assets, and to provide financing to foreign
                   fund (SFFAS No,. 27, par. 23.1)                                                                  governments. ESF accounts and reports its holdings to FMS on the SF224, ¿Statement
                                                                                                                    of Transactions,¿ as well as to the Congress and Treasury¿s policy office.
2                  State the legal authority for the administrative entity of each fund to use the revenues and     The Gold Reserve Act of 1934, Bretton Woods Agreement Act of 1945, P.L. 95-147
                   other financing sources based on SFFAS No. 27, par. 23.1                                         and P.L. 94-564 established and authorized the use of the Fund
3                  Explain any changes in legislation during or subsequent to the reporting period and before       None
                   the issuance of the financial statements that significantly changes the purpose of the fund or
                   that redirects a material portion of the accumulated balance (SF
4                  Provide the sources of revenue and other financing for amounts reported in columns 2             SDR in the International Monetary Fund, Investments in U.S. Securities (BPD), and
                   through 5 of Section C in the "Other Notes Info" tab (SFFAS No. 27, par. 23.2).                  Investments in Foreign Currency Denominated assets are the sources of revenues or
                                                                                                                    other financing sources. ESF¿s earnings and realized gains on foreign currency
                                                                                                                    denominated assets represent inflows of resources to the Government, and the
                                                                                                                    revenues earned are the result of intra-governmental inflows.
5                  Provide any other relevant information pertaining to this note.                                  Majority of the amount reported for the All Other Earmarked Funds is the D.C. Pension
                                                                                                                    funds, which provide annuity payments for retired D.C. teachers, police officers,
                                                                                                                    judges, and firefighters. The sources of revenues are through annual appropriations,
                                                                                                                    employees¿ contributions, and interest earnings from investments. All proceeds are
                                                                                                                    earmarked fund.

                                                                                                                    Intragovernmental Investments in Treasury Securities

                                                                                                                    The Federal government does not set aside assets to pay future benefits or other
                                                                                                                    expenditures associated with earmarked funds. Treasury bureaus and other Federal
                                                                                                                    agencies invest some of the earmarked funds that they collect from the public. The
                                                                                                                    funds are invested in securities issued by the Treasury Bureau of Public Debt (BPD),
                                                                                                                    which are shown an Treasury¿s balance sheet as ¿Federal Debt and Interest Payable¿
                                                                                                                    (under Intra-Governmental Liabilities). The cash collected by BPD is deposited in the
                                                                                                                    General Fund of the U.S. Government, which uses the cash for general government
                                                                                                                    purposes.

                                                                                                                    The securities are an asset to the Treasury bureaus and other Federal agencies and a
                                                                                                                    liability of the BPD. The General Fund of the United States Government is liable to
                                                                                                                    BPD. Because Treasury bureaus and other Federal agencies are parts of the U.S.
                                                                                                                    Government, these assets and liabilities offset each other from the standpoint of the
                                                                                                                    Government as a whole. For this reason, they do not represent an asset or a liability in
                                                                                                                    the U.S. Government-wide financial statements. In addition, because BPD is a
                                                                                                                    subcomponent of the Treasury Department reporting entity, balances related to the
                                                                                                                    investments made by Treasury bureaus are eliminated from Treasury's consolidated
                                                                                                                    financial statements. However, the General Fund of the U.S. government remains
                                                                                                                    liable to BPD for the eliminated balances.




                                                                                                           - 74 -
                                                                                                                                                                    11/16/2006 08:47:05

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF006G - All Notes Report

    Note: 23          Statement of Social Insurance                                                                           Fiscal Year: 2006     Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                              Agency Notes:   N/A

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data                        No Data Flag: YES

Line No            Question                                                                                     Answer
7                  Provide any other relevant information pertaining to this note.




                                                                                                      - 75 -
                                                                                                                                 11/16/2006 08:47:05

                                                      U.S. Department of the Treasury
                                                       Financial Management Service
                                                  Governmentwide Financial Report System
                                                         GF006G - All Notes Report

   Note: 24          Social Insurance                                                      Fiscal Year: 2006     Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                            Agency Notes:   N/A

 Status: Complete

Tab: Other Notes Info.




                                                                   - 76 -
                                                                                                                                                                                     11/16/2006 08:47:05

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF006G - All Notes Report

     Note: 25           Stewardship Land                                                                                                Fiscal Year: 2006        Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                      Agency Notes:   None

  Status: Complete

 Tab: Other Notes Info.

       Section: A           Section Name: Stewardship Land - Physical units of predominate             No Data Flag: YES
                                          use

Line Line Description     CY Beginnng Balance                    CY Acquired                 CY Withdrawn           CY Ending Balance     Py Beginning Balance         PY Acquired        Line      NB
 No                                                                                                                                                                                    Attributes
  7 All other                                                                                                                                                                            Units      N/A
Line Line Description          PY Withdrawn              PY Ending Balance                                                                                                                Line      NB
 No                                                                                                                                                                                    Attributes
  7 All other                                                                                                                                                                            Units      N/A



Tab: Text Data                        No Data Flag: YES

 Line No            Question                                                                                            Answer
 1                  Provide a brief statement explainng how the stewardship land relates to the mission of the
                    agency.
 2                  Describe the predominant uses of the stewardship land.
 3                  Provide a brief description of the agency's stewardship policies for stewardsip land.
 4                  Provide the condition of the stewardship land.
 5                  Provide any other information relevant information pertaining to this note.




                                                                                                           - 77 -
                                                                                                                                                                                   11/16/2006 08:47:05

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                     GF006G - All Notes Report

    Note: 26            Heritage Assets                                                                                            Fiscal Year: 2006            Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                 Agency Notes:   Notes 1 G & 12

  Status: Complete

 Tab: Other Notes Info.

     Section: A             Section Name: Collection Type Heritage Assets- Physical Units        No Data Flag: YES


Line Line Description           CY Beginning                    CY Added                  CY Withdrawn               CY Ending               PY Beginning               PY Added        Line      NB
 No                                                                                                                                                                                  Attributes
  1                                                                                                                                                                                    Units      N/A
  2                                                                                                                                                                                    Units      N/A
  3                                                                                                                                                                                    Units      N/A
  4                                                                                                                                                                                    Units      N/A
  5                                                                                                                                                                                    Units      N/A
Line Line Description          PY Withdrawn                    PY Ending                                                                                                                Line      NB
 No                                                                                                                                                                                  Attributes
  1                                                                                                                                                                                    Units      N/A
  2                                                                                                                                                                                    Units      N/A
  3                                                                                                                                                                                    Units      N/A
  4                                                                                                                                                                                    Units      N/A
  5                                                                                                                                                                                    Units      N/A

     Section: B             Section Name: Non-Collection Type Heritage Assets (Physical
                                          Units)

Line Line Description        CY Beg. Balance                    CY Added                  CY Withdrawn       CY Ending Balance       PY Beginning Balance               PY Added        Line      NB
 No                                                                                                                                                                                  Attributes
  1 Main Treasury                          1.0000                     .0000                       .0000                   1.0000                       1.0000               .0000      Units      N/A
     Bldg & Annex
     Multipurpose
  2                                                                                                                                                                                     Units     N/A
  3                                                                                                                                                                                     Units     N/A
  4                                                                                                                                                                                     Units     N/A
  5                                                                                                                                                                                     Units     N/A
Line Line Description          PY Withdrawn           PY Ending Balance                                                                                                                 Line      NB
 No                                                                                                                                                                                  Attributes
  1 Main Treasury                          .0000                    1.0000                                                                                                             Units      N/A
     Bldg & Annex
     Multipurpose
  2                                                                                                                                                                                     Units     N/A
  3                                                                                                                                                                                     Units     N/A
  4                                                                                                                                                                                     Units     N/A
  5                                                                                                                                                                                     Units     N/A




                                                                                                    - 78 -
                                                                                                                                                                                                 11/16/2006 08:47:05

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF006G - All Notes Report

    Note: 26          Heritage Assets                                                                                                  Fiscal Year: 2006                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                       Agency Notes:       Notes 1 G & 12

 Status: Complete

Tab: Other Notes Info.
Tab: Text Data

Line No            Question                                                                                         Answer
1                  Provide a brief statement explaining how heritage assets relate to the mission of the agency.    The Main Treasury Building and Annex is a multi-use heritages asset. It is used by the
                                                                                                                    Department as the Departmental Headquarters office building.


2                  Provide a brief description of the agency's stewardship policies for each major category of      The Department only has MT as a multi-use heritage asset. The Department's policy
                   the heritage assets.                                                                             is to maintain the building at peak condition for its own use and for future generations.
                                                                                                                    The Department is currently completing a major renovations and upgrades.


3                  Provide the condition of each major category of the heritage assets.                             See response to 2.
4                  Provide any other relevant information pertaining to this note.                                  None




                                                                                                           - 79 -
                         U.S. Department of the Treasury
                   Government-wide Financial Reporting System
            Additional Note to the Special-Purpose Financial Statements
                    Entity – 2000 Department of the Treasury


Additional Note 27 – Summary of Significant Accounting Policies

A. Basis of Presentation

The Budget and Accounting Procedures Act of 1950 allows the Secretary of the Treasury
to stipulate the format and requirements of executive agencies to furnish financial and
operational information to the President and Congress to comply with Government
Management Reform Act of 1994 (GMRA) (Pub. L. No. 103-356), which requires the
Secretary of the Treasury to prepare and submit annual audited financial statements of the
executive branch. The Secretary of the Treasury developed guidance in the U.S
Department of the Treasury’s Financial Manual (TFM) Volume 1, Part 2, Chapter 4700
to provide agencies with instructions to meet the requirements of GMRA. The TFM
Chapter 4700 requires agencies to:
   1. Reclassify all items and amounts on the audited consolidated, department-level
      balance sheets, statements of net cost, changes in net position/income statement
      and custodial activity, if applicable, to the special-purpose financial statements.
   2. Disclose special-purpose financial statement line item amounts identified as
      Federal by trading partner and amount (amounts should be net of intra-agency and
      intra-departmental eliminations).
   3. Disclose notes required by the special-purpose financial statement line items and
      other notes required in the Financial Report of the U.S. Government (FR); and
   4. Disclose other data not contained in the primary FR financial statements and notes
      required to meet requirement of U.S. generally accepted accounting principles
The TFM Chapter 4700 requires agencies to use the Government-wide Financial Report
System to input the above information. For purposes of the Special-purpose financial
statements, Closing Package is comprised of the following GFRS Modules:
   1. Closing Package Financial Statement Reports (GF003)
   2. Trading Partner Summary Note Report (GF004F)
   3. Reclassification Journal Voucher Report by Line Item (GF003)
   4. FR All Notes Report (GF006G)
   5. All Other Data Report (GF007G)

The generic format for the special-purpose financial statements is based on the U.S.
Standard General Ledger (USSGL) crosswalk to the FR financial statements and notes. In
July 2006, Treasury issued TFM Transmittal Letter No. S2 06-02 effective for fiscal year
2006 that revised the mapping of certain USSGL accounts to the special-purpose
financial statements and resulted in agencies reclassifying the accompanying fiscal year
2005 special-purpose financial statements to conform with the fiscal year 2006
presentation. Therefore, certain amounts in the fiscal year 2005 columns on the
accompanying special-purpose financial statements differ from the amounts in the
columns labeled previously reported.

B. Reporting Entity

The accompanying financial statements include the operations of the Department of the
Treasury (Treasury Department), one of 25 Cabinet level agencies of the Executive
Branch of the United States Government, and certain custodial activities managed on
behalf of the entire U.S. Government. The following paragraphs describe the activities of
the reporting entity.

The Treasury Department was created by Act (1 Stat.65) on September 2, 1789. Many
subsequent acts have affected the development of Treasury, delegating new duties to its
charge and establishing the numerous bureaus and divisions that now comprise the
Treasury Department. As a major policy advisor to the President, the Secretary has
primary responsibility for formulating and managing the domestic and international tax
and financial policies of the U.S. Government.

Further, the Secretary is responsible for recommending and implementing United States
domestic and international economic and fiscal policy; governing the fiscal operations of
the government; maintaining foreign assets control; managing the federal debt; collection
of income and excise taxes; representing the United States on international monetary,
trade and investment issues; overseeing Departmental overseas operations; and directing
the activities of the Treasury Department in manufacturing coins, currency, and other
products for customer agencies and the public.

The Treasury Department includes Departmental Offices (DO) and nine operating
bureaus. For financial reporting purposes, DO is comprised of: International Assistance
Programs (IAP), Office of Inspector General (OIG), Treasury Forfeiture Fund, Treasury
Franchise Fund, Exchange Stabilization Fund (ESF), Community Development Financial
Institutions Fund (CDFI), Office of D.C. Pensions (DCP), Treasury Inspector General for
Tax Administration (TIGTA), the Federal Financing Bank (FFB) and the Air
Transportation Stabilization Board (ATSB).

The Treasury Department’s nine operating bureaus are: Office of the Comptroller of the
Currency (OCC); Bureau of Engraving and Printing (BEP); Financial Crimes
Enforcement Network (FinCEN); Financial Management Service (FMS); Internal
Revenue Service (IRS); U.S. Mint (Mint); Bureau of the Public Debt (BPD); Office of
Thrift Supervision (OTS), and the Alcohol and Tobacco Tax & Trade Bureau (TTB).

The Treasury Department’s financial statements reflect the reporting of its own entity
activities, which include appropriations it receives to conduct its operations and revenue



                                            2
generated from those operations. They also reflect the reporting of certain non-entity
(custodial) functions it performs on behalf of the U.S. government and others. Non-entity
activities include the collection of federal revenue, servicing the federal debt, disbursing
certain federal funds, and maintaining certain assets and liabilities for the U.S.
government as well as for others. The Treasury Department’s reporting entity does not
include the “General Fund” of the U.S. government, which maintains receipt,
disbursement and appropriation accounts for all federal agencies.

Transactions and balances among the Treasury Department’s entities have been
eliminated from the Consolidated Balance Sheets, the Consolidated Statements of Net
Cost, the Consolidated Statements of Changes in Net Position, and the Consolidated
Statements of Financing.

C. Basis of Accounting & Presentation

The financial statements have been prepared from the accounting records of the Treasury
Department in conformity with accounting principles generally accepted in the United
States, and the Office of Management and Budget (OMB) Circular A-136, “Financial
Reporting Requirements,” as amended. Accounting principles generally accepted for
federal entities are the standards prescribed by the Federal Accounting Standards
Advisory Board (FASAB). FASAB is recognized by the American Institute of Certified
Public Accountants as the official accounting standards-setting body of the U.S.
government.

These financial statements are provided to meet the requirements of the Government
Management Reform Act of 1994. They consist of the consolidated Balance Sheets, the
consolidated Statements of Net Cost, the consolidated Statements of Changes in Net
Position, the combined Statements of Budgetary Resources, the consolidated Statements
of Financing, and the Statement of Custodial Activity. The statements and the related
notes are prepared in a comparative form to present both FY 2006 and FY 2005
information.

While these financial statements have been prepared from the books and records of the
Treasury Department in accordance with the formats prescribed by OMB, these financial
statements are in addition to the financial reports used to monitor and control budgetary
resources which are prepared from the same books and records.

Throughout these financial statements, intra-governmental assets, liabilities, earned
revenues, and costs have been classified according to the entity for these transactions.
Intra-governmental assets and liabilities are those from or to other federal entities. Intra-
governmental earned revenues are collections or accruals of revenue from other federal
entities, and intra-governmental costs are payments or accruals of expenditure to other
federal entities.

The financial statements should be read with the realization that they are for a component of
a sovereign entity, that liabilities not covered by budgetary resources cannot be liquidated



                                             3
without the enactment of an appropriation, and that the payment of all liabilities other than
for contracts can be abrogated by the sovereign entity.

D. Tax and Other Non-Entity Receivables

Tax receivables are not accrued until related tax returns are filed or assessments are
made. Prepayments of taxes are netted against liabilities. Accruals are made to reflect
penalties and interest on tax receivables through the balance sheet date. Tax receivables
consist of unpaid assessments (taxes and associated penalties and interest) due from
taxpayers for which the Treasury Department can support the existence of a receivable
through taxpayer agreement, such as filing a tax return without sufficient payment, or a
court ruling in favor of Treasury. Tax receivables are shown on the balance sheet net of
an allowance for doubtful accounts and abatements. The allowance for doubtful accounts
reflects an estimate of the portion deemed to be uncollectible based on historical
experience of similar taxes receivable.

E. Inventory and Related Property

Inventories and related property include inventory, operating materials and supplies, and
forfeited property. The Treasury Department values inventories at either standard cost or
lower of cost or market, except for finished goods inventories, which are valued at
weighted average unit cost. All operating materials and supplies are recorded as an
expense when consumed in operations.

Forfeited property is recorded at estimated fair market value at the time of seizure as
deferred revenue, and may be adjusted to reflect the current fair market value at the end
of the fiscal year. Property forfeited in satisfaction of a taxpayers liability is recorded
when title to the property passes to the U.S. Government and a corresponding credit is
made to the related taxes receivable. Direct and indirect holding costs are not capitalized
for individual forfeited assets.

Mortgages and claims on forfeited assets are recognized as a valuation allowance and a
reduction of deferred revenue from forfeited assets when the asset is forfeited. The
allowance includes mortgages and claims on forfeited property held for sale and a
minimal amount of claims on forfeited property previously sold.

Revenue from the forfeiture of property is deferred until the property is sold or
transferred to a state, local or federal agency. Revenue is not recorded if the forfeited
property is ultimately destroyed or cannot be legally sold.

F. Loans and Interest Receivable - from Other Federal Agencies

Intra-governmental entity Loans and Interest Receivable from other federal agencies
represent loans and interest receivable held by the Treasury Department. No subsidy
costs were recorded for loans purchased from federal agencies or for guaranteed loans




                                             4
made to non-federal borrowers, because these are guaranteed (interest and principal) by
those agencies.

Intra-governmental non-entity Loans and Interest Receivable from other federal agencies
represent loans issued by Treasury to federal agencies on behalf of the U.S. government.
The Treasury Department acts as an intermediary issuing these loans, because the
agencies receiving these loans will lend these funds to others to carry out various
programs of the Federal Government.           Because of the Treasury Department’s
intermediary role in issuing these loans, the Treasury Department does not record an
allowance or subsidy costs related to these loans. Instead, loan loss allowances and
subsidy costs are recognized by the ultimate lender, the federal agency that issued the
loans.

G. Advances to the Black Lung Trust Fund

Advances have been provided to the Department of Labor’s Black Lung Trust Fund from
the General Fund of the U.S. Government. The Bureau of Public Debt accounts for the
advances on behalf of the General Fund of the U.S. government. Advances to the Black
Lung Trust Fund are being accounted for pursuant to the Benefits Revenue Act which
states: In the event that fund resources are not adequate to meet fund obligations, then,
Advances interest and principal are paid to the General Fund of the U.S. government
when the Secretary of the Treasury determines that funds are available in the trust fund
for such purposes. The Black Lung Trust Funds are repayable with interest at a rate
determined by the Secretary of the Treasury to be equal to the current average market
yield on outstanding marketable obligations of the United States with remaining periods
to maturity comparable to the anticipated period during which the advance will be
outstanding. Advances made prior to 1982 carried rates of interest equal to the average
rate borne by all marketable interest-bearing obligations of the United States then
forming a part of the public debt.

H. Property, Plant and Equipment

The Treasury’s Department’s property, plant and equipment (PP&E) is recorded at cost
and depreciated using the straight line method over the estimated useful lives of the
assets. Major alterations and renovations are capitalized, while maintenance and repair
costs are charged to expense as incurred. The Treasury Department owns the Treasury
building - a multi-use heritage asset. Multi-use heritage assets are assets of historical
significance for which the predominant use is general government operations. All
acquisition, reconstruction, and betterment costs for the Treasury Department building
are capitalized as general PP&E and depreciated over their service life.

The Treasury Department’s bureaus are diverse both in size and in operating
environment. Accordingly, Treasury’s capitalization policy thresholds range from
$25,000 to $50,000. Treasury also uses a capitalization threshold range for bulk
purchases: $250,000 to $500,000 for non-manufacturing bureaus and $25,000 to $50,000
for manufacturing bureaus. Bureaus determine the individual items that comprised bulk



                                           5
purchases. In addition, the Treasury Department’s bureaus may expense bulk purchases
if they conclude that total period costs would not be materially distorted and the cost of
capitalization is not economically feasible.

I. Federal Debt

Debt and associated interest are reported on the accrual basis of accounting. Certain debt
securities are issued at a discount or premium. Discounts and premiums are amortized
over the term of the security using the effective interest rate method.

J. Pension Costs, Other Retirement Benefits, and Other Post Employment Benefits

The Treasury Department recognizes the full costs of its employees’ pension benefits.
However, the liabilities associated with these costs are recognized by the Office of
Personnel Management (OPM) rather than Treasury.

Most employees of the Treasury Department hired prior to January 1, 1984, participate in
the Civil Service Retirement System (CSRS), to which the Treasury Department
contributes 8.51 % of salaries for regular CSRS employees.

On January 1, 1987, the Federal Employees’ Retirement System (FERS) went into effect
pursuant to Public Law 99-335. Employees hired after December 31, 1983, are
automatically covered by FERS and Social Security. A primary feature of FERS is that it
offers a savings plan to which the Treasury Department automatically contributes 1 % of
base pay and matches any employee contributions up to an additional 4 % of base pay.
For most employees hired after December 31, 1983, the Treasury Department also
contributes the employer’s matching share for Social Security. For the FERS basic
benefit the Treasury Department contributes 10.7 % for regular FERS employees.

Similar to federal retirement plans, OPM, rather than the Treasury Department, reports
the liability for future payments to retired employees who participate in the Federal
Employees Health Benefits Program (FEHBP) and Federal Employees Group Life
Insurance (FEGLI) Program. The Treasury Department reports the full cost of providing
other retirement benefits (ORB). The Treasury Department also recognizes an expense
and liability for other post employment benefits (OPEB), which includes all types of
benefits provided to former or inactive (but not retired) employees, their beneficiaries,
and covered dependents. Additionally, the Treasury Department’s Office of the
Comptroller of the Currency (OCC) and Office of Thrift Supervision (OTS) separately
sponsor certain benefit plans for their employees. OCC sponsors a defined life insurance
benefit plan for current and retired employees. Additionally, OTS provides certain health
and life benefits for all retired employees that meet eligibility requirements.




                                            6
K. Special Drawing Rights (SDRs) Certificates Issued to Federal Reserve Banks

The Special Drawing Rights Act of 1968 authorized the Secretary of the Treasury to issue
certificates, not to exceed the value of SDRs holdings, to the Federal Reserve Banks in
return for interest free dollar amounts equal to the face value of certificates issued. The
certificates may be issued to finance the acquisition of SDRs from other countries or to
provide resources for financing other Exchange Stabilization Fund operations.
Certificates issued are to be redeemed by the Treasury Department at such times and in
such amounts as the Secretary of the Treasury may determine. Certificates issued to
Federal Reserve Banks are stated at their face value. It is not practical to estimate the fair
value of Certificates Issued to Federal Reserve Banks since these certificates contain no
specific terms of repayment.

L. Federal Employee Benefits Payable - FECA Actuarial Liability

The Federal Employees’ Compensation Act (FECA) provides income and medical cost
protection to covered Federal civilian employees injured on the job, and employees who
have incurred a work-related injury or occupational disease. These future workers’
compensation estimates were generated from an application of actuarial procedures
developed to estimate the liability for FECA benefits. The actuarial liability estimates for
FECA benefits include the expected liability for death, disability, medical, and
miscellaneous costs for approved compensation cases.

M. Revenue and Financing Sources

The Treasury Department activities are financed either through exchange revenue it
receives from others or through non-exchange revenue and financing sources (such as
appropriations provided by the Congress and penalties, fines, and certain user fees
collected). User fees primarily include Internal Revenue Service reimbursable costs to
process installment agreements and accompanying photocopy and reproduction charges.
Exchange revenues are recognized when earned; i.e. goods have been delivered or
services have been rendered. Non-exchange revenues are recognized when received by
the respective Treasury Department collecting bureau. Appropriations used are
recognized as financing sources when related expenses are incurred or assets are
purchased. Revenue from reimbursable agreements is recognized when the services are
provided. The Treasury Department also incurs certain costs that are paid in total or in
part by other federal entities, such as pension costs. These subsidized costs are
recognized on the Consolidated Statement of Net Cost, and the imputed financing for
these costs is recognized on the Consolidated Statement of Changes in Net Position. As a
result, there is no effect on net position. Other non-exchange financing sources such as
donations and transfers of assets without reimbursements also are recognized for the
period in which they occurred on the Consolidated Statement of Changes in Net Position.




                                              7
The Treasury Department recognizes revenue it receives from disposition of forfeited
property as non-exchange revenue on the Consolidated Statement of Changes in Net
Position. The costs related to the forfeiture fund program are reported on the
Consolidated Statement of Net Cost.

N. Custodial Revenues and Collections

Non-entity revenue reported on the Treasury Department’s Statement of Custodial
Activity includes cash collected and received by the Treasury Department, primarily
taxes. It does not include revenue collected by other Federal agencies, such as user fees
and other receipts, which are remitted for general operating purposes of the U.S.
government or are earmarked for certain trust funds. The Statement of Custodial Activity
is presented on the “modified accrual basis.” Revenues are recognized as cash is
collected. The Balance Sheets include an estimated amount for taxes receivable and
payable to the General Fund of the U.S. government at September 30, 2006 and 2005.

O. Tax Assessments and Abatements

Under Internal Revenue Code Section 6201, the Treasury Department is authorized and
required to make inquiries, determinations, and assessments of all taxes which have not
been duly paid (including interest, additions to the tax, and assessable penalties) under
the law. Unpaid assessments result from taxpayers filing returns without sufficient
payment, as well as from tax compliance programs, such as examination, under-reporter,
substitute for return, and combined annual wage reporting. The Treasury Department
also has authority to abate the paid or unpaid portion of an assessed tax, interest, and
penalty. Abatements occur for a number of reasons and are a normal part of the tax
administration process. Abatements may result in claims for refunds or a reduction of the
unpaid assessed amount.

P. Permanent and Indefinite Appropriations

Permanent and indefinite appropriations are used to disburse tax refunds, income tax
credits, and child tax credits. These appropriations are not subject to budgetary ceilings
established by Congress. Therefore, refunds payable at year end are not subject to
funding restrictions. Refund payment funding is recognized as appropriations are used.
Permanent indefinite authority for refund activity is not stated as a specific amount and is
available for an indefinite period of time. Although funded through appropriations,
refund activity, in most instances, is reported as a custodial activity of the Treasury
Department, since refunds are, in substance, a custodial revenue-related activity resulting
from taxpayer overpayments of their tax liabilities.

The Treasury Department also receives two permanent and indefinite appropriations
related to debt activity. One is used to pay interest on the public debt securities; the other
is used to redeem securities that have matured, been called, or are eligible for early
redemption. These accounts are not annual appropriations; and do not have refunds.
Debt activity appropriations are related to the Treasury Department’s liability and would



                                              8
be reported on the Treasury Department’s balance sheet. Permanent indefinite authority
for debt activity is available for an indefinite period of time.

Additionally, the Treasury Department receives other permanent and indefinite
appropriations to make certain payments on behalf of the U.S. government. These
appropriations are provided to make payments to the Federal Reserve for services
provided. They also include appropriations provided to make other disbursements on
behalf of the U.S. government, including payments made to various individuals as the
result of certain claims and judgments rendered against the United States.

Q. Imputed Costs/Financing Sources

U.S. government entities often receive goods and services from other U.S. government
entities without reimbursing the providing entity for all the related costs. These
constitute subsidized costs which are recognized by the receiving entity. An offsetting
imputed financing source is also recognized by the receiving entity. The Treasury
Department recognized imputed costs and financing sources in fiscal years 2006 and
2005 to the extent directed by the OMB, such as: employees’ pension, post-retirement
health and life insurance benefits; other post-employment benefits for retired, terminated,
and inactive employees, which includes unemployment and workers compensation under
the Federal Employee’s Compensation Act; and losses in litigation proceedings.

R. Reclassification

Certain 2005 balances have been reclassified to conform to the 2006 presentation. In
addition, the format of the Statement of Budgetary Resources (SBR) is based on the SF-
133. Beginning with fiscal year 2006, OMB revised its format of the SF-133 as described
in OMB Circular No. A-11, (as amended). The comparative fiscal year 2006 SBR
includes fiscal year 2005 data that has been reclassified into the new fiscal year 2006
format.

S. Income Taxes

As an agency of the Federal government, the Treasury Department is exempt from all
income taxes imposed by any governing body, whether it is a federal, state,
commonwealth, local, or foreign government.

T. Use of Estimates

The Treasury Department has made certain estimates and assumptions relating to the
reporting of assets, liabilities, revenues, expenses, and the disclosure of contingent
liabilities to prepare these financial statements. Actual results could differ from these
estimates. Financial statement line items subject to estimates include tax receivables;
depreciation; imputed costs; cost and earned revenue allocations; and, credit reform
subsidy costs.




                                            9
U. Credit Risk

Credit risk is the potential, no matter how remote, for financial loss from a failure of a
borrower or a counter party to perform in accordance with underlying contractual
obligations. The Treasury Department takes on possible credit risk when it makes direct
loans or credits to foreign entities or becomes exposed to institutions which engage in
financial transactions with foreign countries. Given the history of the Treasury
Department with respect to such exposure and the financial policies in place in the U. S.
government and other institutions in which the United States participates, the Treasury
Department has no expectation that credit losses will be incurred in the foreseeable
future. The Treasury Department also takes on credit risk related to loan guarantees,
committed but undisbursed direct loans and its Terrorism Risk Insurance Program.

V. Liability for Loan Guarantees

The Treasury Department operates a loan guarantee program administered by the Air
Transportation Stabilization Board. The purpose of the program is to assist air carriers
that suffered losses as a result of the terrorist attacks on the United States that occurred on
September 11, 2001. The program is accounted for in accordance with the provisions of
the Federal Credit Reform Act of 1990, as amended. The authority to issue loan
guarantees expired on September 30, 2004. The Liability for Loan Guarantees represents
the present value of future projected cash outflows from the Treasury Department, net of
inflows, such as fees, and other collections. A subsidy cost for the liability for loan
guarantees is recognized as a cost in the year the guaranteed loan is disbursed. Subsidy
costs are an estimate of the long-term cost to the U.S. Government. The subsidy costs
represent the calculation of the present value of the estimated cash outflows over the life
of the loan guarantee minus the present value of the estimated cash inflows, discounted at
the applicable Treasury Department interest rate. The subsidy cost is reestimated on an
annual basis. Administrative costs such as salaries and contractual fees are not included
in the subsidy cost.

Each air carrier has material cash flows that are not considered appropriate to average
with those of other air carriers, with the result that each air carrier guarantee has its own
subsidy rate. The fluctuations in subsidy rates for the respective air carriers depend upon
several risk factors, including current credit rating and default rates. Other factors that
may affect the estimated subsidy rates include changes in loan terms (modifications,
prepayments, etc), appraised collateral/liquidation values, interest payments, outstanding
balances and other economic, legal and financial conditions specific to each individual air
carrier.

W. Earmarked Funds

In 2006, Treasury has accounted for revenues and other financing sources for earmarked
funds separately from other funds. This new method was adopted in accordance with the
provisions of the Federal Accounting Standards Advisory Board’s Statement of Federal
Financial Accounting Standards (SFFAS) No. 27, Identifying and Reporting Earmarked



                                              10
Funds, which became effective October 1, 2006. This new standard amended SFFAS
No. 7, Revenue and Other Financing Sources, by:

   •   elaborating the special accountability needs associated with dedicated collections;
   •   separating dedicated collections into two categories – earmarked funds and
       fiduciary activity; and
   •   defining and providing accounting and reporting guidance for earmarked funds.

In accordance with SFFAS No. 27, Treasury did not restate the FY 2005 columns for the
Consolidated Balance Sheet, Statement of Changes in Net Position, and the related note
disclosures.




                                           11
                                                                                                                                                                                  11/16/2006 09:11:22

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                       GF007G - All Other Data Report


 Other Data: 01               Net Cost Statement:                                                                                   Fiscal Year: 2006                  Period: SEPTEMBER
        Entity: 2000         Department of the Treasury                                                                                     Agency Notes:   Treasury
       Status: Complete


    Tab: Other Data Info.

      Section: A                Section Name: Information for goods and services provided to the                             Rounding Method: Millions                      Decimal: Zero
                                              public: (SFFAS No. 7, par. 46-47)

Line Line Description         2006 - SEPTEMBER              2005 - SEPTEMBER                  Previously Rptd       Line Item Changes                                                             Line      NB
 No                                                                                                                                                                                            Attributes
    1 Expected loss when                             0                             0                                                    0                                                       Dollars     Debit
      specific goods or
      services are made or
      provided to order




    Tab: Other Text Data

       Section: A                Section Name: Information for goods and services provided to the
                                               public: (SFFAS No. 7, par. 46-47)

Line No       Question                                                                                                Answer
1            Provide the differences in pricing policy from the full cost or market pricing guidance for exchange     None
             transactions.
2            Provide exchange transactions in which prices are set by law or executive order and are not              None
             based on full cost or on market price.
3            Provide the amount of revenue foregone and whether the quantity demanded was assumed to                  None
             change as a result of a change in price.




                                                                                                            - 1 -
                                                                                                                                                                                         11/16/2006 09:11:22

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                        GF007G - All Other Data Report


 Other Data: 02                Statement of Operations and Changes in Net Position                                                     Fiscal Year: 2006                  Period: SEPTEMBER
          Entity: 2000         Department of the Treasury                                                                                    Agency Notes:     Treasury
         Status: Complete


    Tab: Other Data Info.

        Section: A               Section Name: Nonexchange Revenue: Specific potential accruals not                           Rounding Method: Millions                          Decimal: Zero
                                               made as a result of using the modified cash basis of
                                               accounting.

Line Line Description               CY - Low Range              CY - High Range               PY - Low Range           PY - High Range                                                                     Line        NB
 No                                                                                                                                                                                                     Attributes
    1 Federal Income                                  0                            0                               0                     0                                                               Dollars       Debit
      Taxes
    2 Excise Taxes                                    0                            0                               0                     0                                                               Dollars       Debit
    3                                                                                                                                                                                                    Dollars       Debit
    4                                                                                                                                                                                                    Dollars       Debit
    5                                                                                                                                                                                                    Dollars       Debit

    Tab: Other Text Data

         Section: A                Section Name: Nonexchange Revenue: Specific potential accruals not
                                                 made as a result of using the modified cash basis of
                                                 accounting.

Line No        Question                                                                                                Answer
1              Describe the practical and inherent limitations affecting the accrual of taxes and duties. (SFFAS       For IRS, this is referring to the difference between cash and accrual accounting. We use a
               No. 7, par.64)                                                                                          modified cash basis for the Custodial Financial Statements, because of the limitations in the
                                                                                                                       assessment process regarding the delay in the time when there is a legally enforceable
                                                                                                                       claim. Accrual accounting provides more accurate and complete information about
                                                                                                                       receivables and refund legally receivable and collectible concerning the components of the
                                                                                                                       Government's revenue stream and is the reason we compute the allowance for doubtful
                                                                                                                       accounts (ADA). Since cash basis tax revenue still needs to be accounted for in conjunction
                                                                                                                       with ADA, forming the basis of our accounting methodology.

                                                                                                                       TTB records a year-end accrual for the known amount of tax revenue to be collected. This
                                                                                                                       information is obtained from tax forms that are submitted to the National Revenue Center,
                                                                                                                       but have not been individually processed and recorded in the accounting system. TTB is not
                                                                                                                       able to obtain the information necessary to record the majority of the earned custodial
                                                                                                                       revenue due to the fact that this amount is unknown until the taxpayer files a return.




                                                                                                             - 2 -
                                                                                                                                                                    11/16/2006 09:11:22

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                GF007G - All Other Data Report


 Other Data: 03             Taxes                                                                                     Fiscal Year: 2006                  Period: SEPTEMBER
      Entity: 2000          Department of the Treasury                                                                        Agency Notes:   Treasury
     Status: Complete


  Tab: Other Data Info.

    Section: A                Section Name: Taxes (SSFAS No.7, par. 67-69)                                     Rounding Method: Billions                      Decimal: Zero

Line Line Description       2006 - SEPTEMBER             2005 - SEPTEMBER          Previously Rptd    Line Item Changes                                                             Line      NB
 No                                                                                                                                                                              Attributes
  1 Estimated realized                          57                      44                       44                       0                                                       Dollars     Debit
    value of compliance
    assessments as of
    the end of the period
  2 Estimated realizable                         0                          0                                             0                                                       Dollars     Debit
    value of pre-
    assessment work-
    in-progress
  3 Changes in 1 and 2                          57                      44                       44                       0                                                       Dollars     Debit
    above
  4 Other claims for                            18                      23                       23                       0                                                       Dollars     Debit
    refunds not yet
    accrued but likely to
    be paid when
    administrative
    actions are
    completed
  5 Management's best                            0                          0                                             0                                                       Dollars     Debit
    estimate of
    unasserted claims for
    refunds
  6 Changes in 4 and 5                          18                      23                       23                       0                                                       Dollars     Debit
    above
  7 Amount of                                   97                      98                       98                       0                                                       Dollars     Debit
    assessments written
    off that continue to
    be statutorily
    collectible




                                                                                              - 3 -
                                                                                                                                                                                            11/16/2006 09:11:22

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                         GF007G - All Other Data Report


 Other Data: 03                Taxes                                                                                                 Fiscal Year: 2006                     Period: SEPTEMBER
        Entity: 2000           Department of the Treasury                                                                                  Agency Notes:        Treasury
       Status: Complete


    Tab: Other Data Info.

      Section: B                 Section Name: Provide the following amount if a range is estimable                         Rounding Method: Millions                              Decimal: Zero
                                               and not included in Sec. A (SFFAS No. 7 par 67)

Line Line Description                   FY 2006 Low                  FY 2006 High                 FY 2005 Low          FY 2005 High                                                                            Line        NB
 No                                                                                                                                                                                                         Attributes
    1 Realizable value of                             0                             0                           0                      0                                                                     Dollars       Debit
      pre-assessment
      work-in-progress
    2 Changes in line 1                               0                             0                           0                      0                                                                     Dollars       Debit
      above
    3 Management's best                               0                             0                           0                      0                                                                     Dollars       Debit
      estimate of
      unasserted claims for
      refunds
    4 Changes in line 3                               0                             0                           0                      0                                                                     Dollars       Debit
      above
    Tab: Other Text Data

       Section: A                  Section Name: Taxes (SSFAS No.7, par. 67-69)

Line No       Question                                                                                              Answer
1             Provide the explicit definitions of estimated amounts of the size of the tax gap.                     "Reducing the tax gap is at the heart of IRS¿ enforcement programs. The tax gap is the
                                                                                                                    difference between what taxpayers should pay and what they actually pay due to not filing
                                                                                                                    tax returns, not paying their reported tax liability on time, or failing to report their correct tax
                                                                                                                    liability. The tax gap, about $345 billion based on updated FY 2006 estimates, represents
                                                                                                                    the amount of noncompliance with the tax laws. Underreporting tax liability accounts for 83
                                                                                                                    percent of the gap, with the remainder almost evenly divided between non-filing (eight
                                                                                                                    percent) and underpaying (nine percent). The IRS remains committed to finding ways to
                                                                                                                    increase compliance and reduce the tax gap, while minimizing the burden on the vast
                                                                                                                    majority of taxpayers who pay their taxes accurately and on time.

                                                                                                                    The tax gap is the aggregate amount of tax (i.e., excluding interest and penalties) that is
                                                                                                                    imposed by the tax laws for any given tax year but is not paid voluntarily and timely. The tax
                                                                                                                    gap arises from the three types of noncompliance: not filing required tax returns on time or
                                                                                                                    at all (the nonfiling gap), underreporting the correct amount of tax on timely filed returns (the
                                                                                                                    underreporting gap), and not paying on time the full amount reported on timely filed returns
                                                                                                                    (the underpayment gap). Of these three components, only the underpayment gap is
                                                                                                                    observed; the nonfiling gap and the underreporting gap must be estimated. Each instance
                                                                                                                    of noncompliance by a taxpayer contributes to the tax gap, whether or not the IRS detects it,
                                                                                                                    and whether or not the taxpayer is even aware of the noncompliance. Obviously, some of
                                                                                                                    the tax gap arises from intentional (willful) noncompliance, and some of it arises from
                                                                                                                    unintentional mistakes.



                                                                                                          - 4 -
                                                                                                                                                           11/16/2006 09:11:22

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                               GF007G - All Other Data Report


 Other Data: 04           Annual Revenues and Expenditures                                                         Fiscal Year: 2006            Period: SEPTEMBER
       Entity: 2000       Department of the Treasury                                                                  Agency Notes:     Treasursy
      Status: Complete


  Tab: Other Data Info.

    Section: A              Section Name: Revenues from the Public                           No Data: YES

Line Line Description                       HI                       SMI                  OASDI                                                                            Line      NB
 No                                                                                                                                                                     Attributes




    Section: B              Section Name: Revenue from Other Government Accounts (to be      No Data: YES   Rounding Method: Millions                Decimal: Zero
                                          completed by Department of Treasury only)

Line Line Description       Other Government                                                                                                                               Line      NB
 No                                                                                                                                                                     Attributes
  1 Transfers                                                                                                                                                            Dollars     Debit
  2 Interest credits                                                                                                                                                     Dollars     Debit
  3 Total                                                                                                                                                                Dollars     N/A




                                                                                            - 5 -
                                                                                                                                                                 11/16/2006 09:11:22

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                               GF007G - All Other Data Report


 Other Data: 10           Stewardship Investments                                                                       Fiscal Year: 2006             Period: SEPTEMBER
        Entity: 2000      Department of the Treasury                                                                         Agency Notes:   N/A
       Status: Complete


  Tab: Other Data Info.

      Section: A            Section Name: Investment in Non-Federal physical property (SFFAS    No Data: YES     Rounding Method: User-Defined             Decimal: User-Defined
                                          No. 8, par 87)

Line Line Description              Fiscal 2006               Fiscal 2005               Fiscal 2004             Fiscal 2003              Fiscal 2002                              Line      NB
 No                                                                                                                                                                           Attributes
  1                                                                                                                                                                            Dollars     Debit
  2                                                                                                                                                                            Dollars     Debit
  3                                                                                                                                                                            Dollars     Debit
  4                                                                                                                                                                            Dollars     Debit
  5                                                                                                                                                                            Dollars     Debit
  6 Other non-Federal                                                                                                                                                          Dollars     Debit
    physical property

      Section: B            Section Name: Research and Development: Investment in               No Data: YES     Rounding Method: User-Defined             Decimal: User-Defined
                                          Development (SFFAS No. 8, par. 100)

Line Line Description              Fiscal 2006               Fiscal 2005               Fiscal 2004             Fiscal 2003              Fiscal 2002                              Line      NB
 No                                                                                                                                                                           Attributes
  1                                                                                                                                                                            Dollars     Debit
  2                                                                                                                                                                            Dollars     Debit
  3                                                                                                                                                                            Dollars     Debit
  4                                                                                                                                                                            Dollars     Debit
  5                                                                                                                                                                            Dollars     Debit
  6 Other investment in                                                                                                                                                        Dollars     Debit
    development




                                                                                               - 6 -
                                                                                                                                                              11/16/2006 09:11:22

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                               GF007G - All Other Data Report


 Other Data: 10            Stewardship Investments                                                                   Fiscal Year: 2006             Period: SEPTEMBER
        Entity: 2000       Department of the Treasury                                                                    Agency Notes:     N/A
       Status: Complete


  Tab: Other Data Info.

      Section: C             Section Name: Investment in Human Capital (SFFAS No. 8, par 94)    No Data: YES   Rounding Method: User-Defined            Decimal: User-Defined

Line Line Description                  FY 2006                   FY 2005                   FY 2004             FY 2003                   FY 2002                              Line      NB
 No                                                                                                                                                                        Attributes
  1                                                                                                                                                                         Dollars     Debit
  2                                                                                                                                                                         Dollars     Debit
  3                                                                                                                                                                         Dollars     Debit
  4                                                                                                                                                                         Dollars     Debit
  5                                                                                                                                                                         Dollars     Debit
  6 Other Investments in                                                                                                                                                    Dollars     Debit
    human capital


      Section: D             Section Name: Research and Development: Investment in Basic        No Data: YES   Rounding Method: User-Defined            Decimal: User-Defined
                                           Research (SFFAS No. 8, par. 100)

Line Line Description                  FY 2006                   FY 2005                   FY 2004             FY 2003                   FY 2002                              Line      NB
 No                                                                                                                                                                        Attributes
  1                                                                                                                                                                         Dollars     Debit
  2                                                                                                                                                                         Dollars     Debit
  3                                                                                                                                                                         Dollars     Debit
  4                                                                                                                                                                         Dollars     Debit
  5                                                                                                                                                                         Dollars     Debit
  6 Other investments in                                                                                                                                                    Dollars     Debit
    basic research




                                                                                               - 7 -
                                                                                                                                                                               11/16/2006 09:11:22

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                       GF007G - All Other Data Report


 Other Data: 10                Stewardship Investments                                                                                Fiscal Year: 2006             Period: SEPTEMBER
          Entity: 2000         Department of the Treasury                                                                                 Agency Notes:     N/A
         Status: Complete


    Tab: Other Data Info.

        Section: E               Section Name: Research and Development: Investment in Applied              No Data: YES    Rounding Method: User-Defined                Decimal: User-Defined
                                               Research (SFFAS No. 8, par 100)

Line Line Description                       FY 2006                      FY 2005                       FY 2004                  FY 2003                   FY 2002                              Line      NB
 No                                                                                                                                                                                         Attributes
    1                                                                                                                                                                                        Dollars     Debit
    2                                                                                                                                                                                        Dollars     Debit
    3                                                                                                                                                                                        Dollars     Debit
    4                                                                                                                                                                                        Dollars     Debit
    5                                                                                                                                                                                        Dollars     Debit
    6 Other investment in                                                                                                                                                                    Dollars     Debit
      applied research

    Tab: Other Text Data

         Section: A               Section Name: Investment in Non-Federal physical property (SFFAS           No Data: YES
                                                No. 8, par 87)

Line No        Question                                                                                                Answer
1         Provide a description of Federally-owned physical property transferred to State and local
          governments. (SFFAS No. 8, par 87)
2         Provide a description of the major programs of Federal investments in non-Federal property.
          (SFFAS No.8 par. 87)
  Tab: Other Text Data

         Section: B               Section Name: Research and Development: Investment in                      No Data: YES
                                                Development (SFFAS No. 8, par. 100)

Line No        Question                                                                                                Answer
1         Provide a description of the major programs of Federal investments in development. (SFFAS No.
          8, par. 100)
2         Provide a description of the progress of major development projects including the results with
          respect to projects completed or otherwise terminated during the year and the status of projects
          that will continue (SFFAS No. 8, par. 99)
  Tab: Other Text Data

         Section: C               Section Name: Investment in Human Capital (SFFAS No. 8, par 94)            No Data: YES

Line No        Question                                                                                                Answer
1              Provide a description of the major education and training programs considered Federal


                                                                                                           - 8 -
                                                                                                                                                                    11/16/2006 09:11:22

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                  GF007G - All Other Data Report


Other Data: 10              Stewardship Investments                                                                            Fiscal Year: 2006         Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                            Agency Notes:    N/A
      Status: Complete


    Tab: Other Text Data

      Section: D               Section Name: Research and Development: Investment in Basic                   No Data: YES
                                             Research (SFFAS No. 8, par. 100)

Line No     Question                                                                                                  Answer
1         Provide a description of the major programs of Federal investments in basic research. (SFFAS
          No. 8, par. 100)
2         Provide a description of any major new discoveries made during the year (SFFAS No. 8, par. 99)
  Tab: Other Text Data

      Section: E               Section Name: Research and Development: Investment in Applied                 No Data: YES
                                             Research (SFFAS No. 8, par 100)

Line No     Question                                                                                                  Answer
1           Provide a description of the major programs of Federal investments in applied research. (SFFAS
            No. 8, par. 100)
2           Provide a description of any major new applications developed during the year (SFFAS No. 8,
            par. 99)




                                                                                                      - 9 -
                                                                                                                                                                                        11/16/2006 09:11:22

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                      GF007G - All Other Data Report


 Other Data: 11                Deferred Maintenance                                                                                    Fiscal Year: 2006                 Period: SEPTEMBER
        Entity: 2000           Department of the Treasury                                                                                   Agency Notes:      Required Supplemental
        Status: Complete


    Tab: Other Data Info.

      Section: A                 Section Name: Condition Assessment Survey Method (SFFAS No. 6,               No Data: YES     Rounding Method: User-Defined                    Decimal: User-Defined
                                               par. 83)

Line Line Description                      CY- Low                     CY- High        CY - Critical Maintenance               PY- Low                     PY - High      PY - Critical Maintenance      Line      NB
 No                                                                                                                                                                                                   Attributes
    1 Buildings, structures,                                                                                                                                                                            Dollars    Debit
      and facilities
    2 Furniture, fixtures,                                                                                                                                                                              Dollars    Debit
      and equipment
    3 Other general                                                                                                                                                                                     Dollars    Debit
      property, plant, and
      equipment
    4 Heritage assets                                                                                                                                                                                   Dollars    Debit
    5 Stewardship land                                                                                                                                                                                  Dollars    Debit
      Section: B                 Section Name: Total life-cycle cost method (SFFAS No. 6, par 83)             No Data: YES     Rounding Method: User-Defined                    Decimal: User-Defined

Line Line Description          PY balance cum. deficit Required Maintenance for          Maintenance performed           Difference between     Adj. to scheduled amts           Ending Cumulative    Line         NB
 No                              maintenance amt                  the period               during the period          forecast and actual        deemed necessary by                    Balance    Attributes
                                                                                                                                                            PPEmgr
    1 Buildings, structures,                                                                                                                                                                            Dollars    Debit
      and facilities
    2 Furniture, fixtures,                                                                                                                                                                              Dollars    Debit
      and equiment
    3 Other general                                                                                                                                                                                     Dollars    Debit
      property, plant, and
      equipment
    4 Heritage assests                                                                                                                                                                                  Dollars    Debit
    5 Stewardship land                                                                                                                                                                                  Dollars    Debit
    Tab: Other Text Data

        Section: A                Section Name: Condition Assessment Survey Method (SFFAS No. 6,
                                                par. 83)

Line No        Question                                                                                                  Answer
1             Provide the description of the requirements or standards for acceptable operating condition.              Deferred Maintenance.

                                                                                                                        In FY 2006, the Department had no deferred maintenance to report on vehicles, buildings,
                                                                                                                        and structures owned by the Department.



                                                                                                             - 10 -
                                                                                                                                                                          11/16/2006 09:11:22

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                   GF007G - All Other Data Report


Other Data: 11              Deferred Maintenance                                                                              Fiscal Year: 2006           Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                           Agency Notes:    Required Supplemental
      Status: Complete


    Tab: Other Text Data

      Section: B                Section Name: Total life-cycle cost method (SFFAS No. 6, par 83)            No Data: YES

Line No     Question                                                                                                 Answer
1           Provide the original date of maintenance forecast and an explanation for any changes to the
            forecast.




                                                                                                          - 11 -
                                                                                                                                                                11/16/2006 09:11:22

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                              GF007G - All Other Data Report


 Other Data: 12           Unexpended Budget Authority                                                                 Fiscal Year: 2006              Period: SEPTEMBER
      Entity: 2000        Department of the Treasury                                                                      Agency Notes:   Treasury
     Status: Complete


  Tab: Other Data Info.

    Section: A              Section Name: Unexpended budget authority                         No Data: YES     Rounding Method: User-Defined              Decimal: User-Defined

Line Line Description             Current Year               Prior Year          Previously Rptd      Line Item Changes                                                         Line      NB
 No                                                                                                                                                                          Attributes
  1 Total unobligated                                                                                                                                                         Dollars     Debit
    budget authority
    balance
  2 Total obligated                                                                                                                                                           Dollars     Debit
    budget authority
    balance




                                                                                            - 12 -
                                                                                                                                                            11/16/2006 09:11:22

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                               GF007G - All Other Data Report


 Other Data: 13           Tax Burden                                                                             Fiscal Year: 2006               Period: SEPTEMBER
      Entity: 2000        Department of the Treasury                                                                Agency Notes:     Treasury
     Status: Complete


  Tab: Other Data Info.

    Section: A              Section Name: Individual Income Tax Returns for Tax Year 2004 for
                                          the following AGI levels

Line Line Description                      AGI                                                                                                                              Line      NB
 No                                                                                                                                                                      Attributes
  1 Under $15,000                   37,315.0000                                                                                                                            Units      N/A
  2 $15,000 under                   29,581.0000                                                                                                                            Units      N/A
    $30,000
  3 $30,000 under                   24,536.0000                                                                                                                            Units      N/A
    $50,000
  4 $50,000 under                   28,196.0000                                                                                                                            Units      N/A
    $100,000
  5 $100,000 under                     9,750.0000                                                                                                                          Units      N/A
    $200,000
  6 $200,000 or more                   3,007.0000                                                                                                                          Units      N/A
    Section: B              Section Name: Individual AGI and Income Tax information -                     Rounding Method: Millions                   Decimal: Zero
                                          Individual Income Tax Returns for Tax Year 2004

Line Line Description                      AGI          Total Income Tax                                                                                                    Line      NB
 No                                                                                                                                                                      Attributes
  1 Under $15,000                        200,248                     3,306                                                                                                Dollars     Debit
  2 $15,000 under                        650,044                    23,749                                                                                                Dollars     Debit
    $30,000
  3 $30,000 under                        957,783                    62,190                                                                                                Dollars     Debit
    $50,000
  4 $50,000 under                       1,984,569                  178,486                                                                                                Dollars     Debit
    $100,000
  5 $100,000 under                      1,291,062                  176,173                                                                                                Dollars     Debit
    $200,000
  6 $200,000 or more                    1,681,201                  386,515                                                                                                Dollars     Debit




                                                                                                - 13 -
                                                                                                                                                            11/16/2006 09:11:22

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                              GF007G - All Other Data Report


 Other Data: 13           Tax Burden                                                                             Fiscal Year: 2006               Period: SEPTEMBER
      Entity: 2000        Department of the Treasury                                                                Agency Notes:     Treasury
     Status: Complete


  Tab: Other Data Info.

    Section: C              Section Name: Individual AGI and Income Tax Information-Individual            Rounding Method: Millions                   Decimal: Zero
                                          Income Tax Returns for Tax Year 2004

Line Line Description      Avg. AGI per return          Avg. Income Tax per                                                                                                 Line      NB
 No                                                               return                                                                                                 Attributes
  1 Under $15,000                          5,366                        89                                                                                                Dollars     Debit
  2 $15,000 under                         21,975                       803                                                                                                Dollars     Debit
    $30,000
  3 $30,000 under                         39,036                      2,535                                                                                               Dollars     Debit
    $50,000
  4 $50,000 under                         70,385                      6,330                                                                                               Dollars     Debit
    $100,000
  5 $100,000 under                      132,417                     18,069                                                                                                Dollars     Debit
    $200,000
  6 $200,000 or more                    559,096                    128,538                                                                                                Dollars     Debit
    Section: D              Section Name: Income Tax as a Percentage of AGI-Indvidual Income
                                          Tax Returns for Tax Year 2004

Line Line Description                      AGI                                                                                                                              Line      NB
 No                                                                                                                                                                      Attributes
  1 Under $15,000                         1.7000                                                                                                                          Percent     N/A
  2 $15,000 under                         3.7000                                                                                                                          Percent     N/A
    $30,000
  3 $30,000 under                         6.5000                                                                                                                          Percent     N/A
    $50,000
  4 $50,000 under                         9.0000                                                                                                                          Percent     N/A
    $100,000
  5 $100,000 under                      13.6000                                                                                                                           Percent     N/A
    $200,000
  6 $200,000 or more                    23.0000                                                                                                                           Percent     N/A




                                                                                                 - 14 -
                                                                                                                                                            11/16/2006 09:11:22

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                               GF007G - All Other Data Report


 Other Data: 13            Tax Burden                                                                            Fiscal Year: 2006               Period: SEPTEMBER
      Entity: 2000         Department of the Treasury                                                               Agency Notes:     Treasury
     Status: Complete


  Tab: Other Data Info.

    Section: E               Section Name: Income Subject to Tax & Total Income Tax After                 Rounding Method: Millions                   Decimal: Zero
                                           Credits:Corp. Income for Tax Year 2003

Line Line Description     Income Subject to Tax         Total Income Tax After                                                                                              Line      NB
 No                                                                Credits                                                                                               Attributes
  1 Zero Assets                             7,476                      1,987                                                                                              Dollars     Debit
  2 $1 under $500                           8,159                      1,435                                                                                              Dollars     Debit
  3 $500 under $1,000                       3,541                        785                                                                                              Dollars     Debit
  4 $1,000 under $5,000                    10,482                      2,994                                                                                              Dollars     Debit
  5 $5,000 under                            6,240                      2,045                                                                                              Dollars     Debit
    $10,000
  6 $10,000 under                           9,033                      2,941                                                                                              Dollars     Debit
    $25,000
  7 $25,000 under                           8,208                      2,677                                                                                              Dollars     Debit
    $50,000
  8 $50,000 under                          10,321                      3,297                                                                                              Dollars     Debit
    $100,000
  9 $100,000 under                         20,870                      6,516                                                                                              Dollars     Debit
    $250,000
 10 $250,000 or more                     615,006                    152,840                                                                                               Dollars     Debit
    Section: F               Section Name: Percentage of Income Tax After Credits to Taxable
                                           Income-Corporation Income for Tax Year 2003

Line Line Description     Income Subject to Tax                                                                                                                             Line      NB
 No                                                                                                                                                                      Attributes
  1 Zero Assets                          26.6000                                                                                                                          Percent     N/A
  2 $1 under $500                        17.6000                                                                                                                          Percent     N/A
  3 $500 under $1,000                    22.2000                                                                                                                          Percent     N/A
  4 $1,000 under $5,000                  28.6000                                                                                                                          Percent     N/A
  5 $5,000 under                         32.8000                                                                                                                          Percent     N/A
    $10,000
  6 $10,000 under                        32.6000                                                                                                                          Percent     N/A
    $25,000
  7 $25,000 under                        32.6000                                                                                                                          Percent     N/A
    $50,000
  8 $50,000 under                        31.9000                                                                                                                          Percent     N/A
    $100,000



                                                                                               - 15 -
                                                                                                                                                       11/16/2006 09:11:22

                                                                            U.S. Department of the Treasury
                                                                             Financial Management Service
                                                                        Governmentwide Financial Report System
                                                                            GF007G - All Other Data Report


Other Data: 13           Tax Burden                                                                          Fiscal Year: 2006              Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                              Agency Notes:   Treasury
    Status: Complete


 Tab: Other Data Info.

  Section: F               Section Name: Percentage of Income Tax After Credits to Taxable
                                         Income-Corporation Income for Tax Year 2003


 9 $100,000 under                      31.2000                                                                                                                       Percent   N/A
   $250,000
10 $250,000 or more                    24.9000                                                                                                                       Percent   N/A




                                                                                             - 16 -
                                                                                                                                                                        11/16/2006 09:11:22

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                 GF007G - All Other Data Report


 Other Data: 14              Other information                                                                            Fiscal Year: 2006                  Period: SEPTEMBER
      Entity: 2000           Department of the Treasury                                                                           Agency Notes:   Treasury
      Status: Complete


  Tab: Other Data Info.

    Section: A                 Section Name: Estimated amounts that may be paid out as other                       Rounding Method: Billions                      Decimal: Zero
                                             claims for tax refunds

Line Line Description        2006 - SEPTEMBER             2005 - SEPTEMBER            Previously Rptd     Line Item Changes                                                             Line      NB
 No                                                                                                                                                                                  Attributes
  1 Estimated payout                               11                       12                      12                        0                                                       Dollars     Debit
    (including principal
    and interest) for
    claims pending
    judicial review by the
    Federal Courts
  2 Claims under appeal                             7                       11                      11                    -0                                                          Dollars     Debit


    Section: B                 Section Name: Other information related to taxes                                    Rounding Method: Millions                      Decimal: Zero

Line Line Description        2006 - SEPTEMBER             2005 - SEPTEMBER            Previously Rptd     Line Item Changes                                                             Line      NB
 No                                                                                                                                                                                  Attributes
  1 Payroll taxes paid by                    64,734                     68,000                  68,000                        0                                                       Dollars     Debit
    Federal agencies
    included in individual
    and FICA taxes
  2 Refundable portion                       15,449                     15,000                  15,000                        0                                                       Dollars     Debit
    of child care tax
    credits issued
  3 Amount of EITC                           36,166                     35,000                  35,000                        0                                                       Dollars     Debit
    refunds
  4 Amount of EITC                               5,371                   5,000                   5,000                        0                                                       Dollars     Debit
    refunds applied to
    reduce taxpayer
    liability




                                                                                                 - 17 -
                                                                                                                                                                             11/16/2006 09:11:22

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                    GF007G - All Other Data Report


 Other Data: 16              Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No. 5, par. 105, 106,and 114)            Fiscal Year: 2006               Period: SEPTEMBER
        Entity: 2000         Department of the Treasury                                                                               Agency Notes:    Treasury
       Status: Complete


    Tab: Other Data Info.

      Section: A               Section Name: Risk Assumed                                                 No Data: YES     Rounding Method: Millions                   Decimal: Zero

Line Line Description        2006 - SEPTEMBER             2005 - SEPTEMBER                 Previously Rptd        Line Item Changes                                                          Line      NB
 No                                                                                                                                                                                       Attributes
    1 Present value of                                                                                                                                                                     Dollars     Debit
      unpaid expected
      losses (net of
      associated
      premiums)
    2 Periodic changes                                                                                                                                                                     Dollars     Debit




    Tab: Other Text Data

       Section: A                Section Name: Risk Assumed                                                No Data: YES

Line No      Question                                                                                                Answer
1            Provide the indicators of the range of uncertainty around insurance related estimates and
             sensitivity of the estimates to changes in major assumptions (SFFAS No.5, par.114)
2            Provide the actuarial or financial methods used to measure the present value of unpaid expected
             losses (SFFAS No. 5. par. 114)




                                                                                                       - 18 -
